<html>
<title> - THE CHALLENGE OF ALIGNING PROGRAMS, PERSONNEL, AND RESOURCES TO ACHIEVE BORDER SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                  THE CHALLENGE OF ALIGNING PROGRAMS, 
          PERSONNEL, AND RESOURCES TO ACHIEVE BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2008

                               __________

                           Serial No. 110-129

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
46-260                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              John Linder, Georgia
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Nita M. Lowey, New York              Tom Davis, Virginia
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
Columbia                             Mike Rogers, Alabama
Zoe Lofgren, California              David G. Reichert, Washington
Sheila Jackson Lee, Texas            Michael T. McCaul, Texas
Donna M. Christensen, U.S. Virgin    Charles W. Dent, Pennsylvania
Islands                              Ginny Brown-Waite, Florida
Bob Etheridge, North Carolina        Gus M. Bilirakis, Florida
James R. Langevin, Rhode Island      David Davis, Tennessee
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2

                               Witnesses

The Honorable Michael Chertoff, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7

                                Appendix

Questions From Chairman Bennie G. Thompson.......................    69
Questions From Honorable Bob Etheridge...........................    74
Questions From Honorable Christopher P. Carney...................    78
Questions From Honorable Mike Rogers.............................    80

 
THE CHALLENGE OF ALIGNING PROGRAMS, PERSONNEL, AND RESOURCES TO ACHIEVE 
                            BORDER SECURITY

                              ----------                              


                        Thursday, July 17, 2008

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Dicks, Harman, 
Lowey, Norton, Lofgren, Jackson Lee, Christensen, Etheridge, 
Langevin, Cuellar, Carney, Clarke, Green, Pascrell, King, 
Souder, Rogers, Reichert, McCaul, Dent, Brown-Waite, and 
Bilirakis.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony from Secretary Michael Chertoff on the ``Challenge of 
Aligning Programs, Personnel and Resources to Achieve Border 
Security''. At the outset, Mr. Secretary, we want to welcome 
you. I am not sure whether or not you'll have an opportunity to 
come before us again as a committee. We appreciate, however, 
your service as secretary and your forthrightness in your 
service in your relations with this committee. It might be your 
last, but if it is not, I know we will look forward to the 
testimony, but I wanted to go on record to indicate that we 
appreciate what you have done in working with the committee.
    As a Nation, we made significant strides toward securing 
America's borders since the 9/11 terrorist attack. Congress has 
provided unprecedented funding to DHS border security and 
immigration enforcement, including $14.8 billion in the last 
fiscal year alone. The Department has responded by moving 
forward on new programs, hiring additional personnel, and 
acquiring more equipment than ever before. Yet DHS has failed 
to develop a comprehensive strategy to guide its border 
security activities.
    Earlier this Congress, I issued a document entitled 
``Border Security Principles'' that outlined how border 
security can be done right. No. 1 on that list is the 
development and implementation of a comprehensive border 
security strategy. I have long said that without a 
comprehensive strategy to coordinate the Department's efforts 
across components, DHS will not be as effective as it should 
be. Money and manpower will only get you so far.
    In the absence of a strategy, discord and competition for 
resources within DHS is all but guaranteed. For instance, at 
the same time, DHS is investing tens of millions of dollars to 
try to secure the border between the ports of entry, the ports 
of entry themselves are being neglected. Their conditions are 
often so poor that they are outdated, ill-equipped to handle 
the challenges of the 21st century.
    Similarly, while DHS has expanded the Border Patrol ranks 
at an unprecedented rate, our ports of entry are understaffed 
by several thousands of officers. I have been to ports of entry 
on both the northern and southern borders and have seen the 
problems firsthand. Ad hoc border policy must stop. We need a 
comprehensive border strategy that considers all aspects of our 
borders.
    Mr. Secretary, we appreciate you are in a race against the 
clock. Many of the programs you propose and have been mandated 
by Congress simply cannot be completed on your watch. It will 
fall to your successor to finish the job.
    As you know, transition and its implications for the 
management of border programs is a major concern of this 
committee. We have been reviewing the transition documents you 
provided and will continue to monitor this issue closely. The 
American people deserve a secure America. We look forward to 
hearing from you about how we will get there.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman. I want to join you in 
commending Secretary Chertoff for the work that he has done as 
Secretary. There are still a number of months left in his 
tenure, but I think we can safely say that he's done an 
outstanding job. I know it was a year or 2 ago we had testimony 
in here about how the Department of Homeland Security at that 
stage of its development was much further ahead than the 
Defense Department was after World War II.
    In many ways, I would say the job today is much more 
complicated. Yet, DHS is going forward, it is going forward 
despite many obstacles and in many ways against an enemy which 
we were not fully aware of before, which again distinguishes it 
from what happened after World War II when we were talking 
about conventional military.
    Now we are talking about an entirely new type of warfare 
both overseas and here and at home. I think Department of 
Homeland Security is making tremendous strides forward.
    Also Mr. Chairman, I know that it is common when the 
Secretary comes in that we talk about what hasn't been done, 
about how there is no comprehensive strategy. I would just 
mention, for instance, on Border Patrol, there has been more 
than 40 immigration bills, border control bills have been 
forwarded to this committee, and we haven't passed one bill on 
border security. So I think it really raises questions how we 
can be so critical of the Department where we have not really 
passed any border security bills ourselves.
    Also I would point out that the Department, we talk about 
whether or not the Department is fully coordinated and 
operational. Well, we in the Congress still have 86 committees 
and subcommittees that require the Department to come in and 
testify before and answer to. Often we send mixed messages and 
signals. So I think, again, we should be getting our house in 
order as well.
    Also, I think, which is very significant, and this is on 
the whole issue that we have not adopted an authorization bill 
and also from when we hear there is not going to be a Homeland 
Security appropriations bill. This, to me, and this does not 
affect our committee, but I certainly believe that the 
leadership, if they do not go forward with an appropriations 
bill on homeland security, that this could be disastrous. This 
is something that has to be done. I don't see how we could 
expect a department to go forward, make its plans, do what has 
to be done when they are not going to know how much money will 
be available, when it is going to be available and in what 
programs.
    This, in previous years, was usually one of the very first 
appropriations bills that was brought up we know would have 
broad bipartisan support. To me it is absolutely essential that 
that be done. Also that we make it clear for future 
administrations, and future Congresses how important Homeland 
Security is.
    Quite rightly when the Democrats took over Congress, H.R. 1 
was Homeland Security, because that was the most important 
issue facing the country. Yet we are not even going to, as of 
now, adopt a Homeland Security appropriations bill. I think 
that is really irresponsible. I know certainly on this side of 
the aisle we feel strongly about it. I would hope that both 
sides of the aisle could come together on this. Whatever the 
other issues we have, Homeland Security must be addressed. You 
made it H.R. 1, I believe it should be priority No. 1 when it 
comes to appropriations.
    Similarly, I know we have said this before, and I know 
there can be various issues around it, but it is so important 
that if we are going to establish this committee as the lead 
Committee on Homeland Security, that we adopt an authorization 
bill. For us not to do it, again, I think is very remiss on our 
part. It, again, makes it more difficult for the Department in 
this administration and the next administration, because they 
are going to, again, be dealing with a multitude of committees 
and subcommittees, and by us not adopting an authorization 
bill, that just adds to that whole endless miasma of 
committees.
    So with that, I look forward to the Secretary's testimony, 
and again, I thank him for service and there is still a long 
way between now and January 20, because we may be changing 
administrations, but the enemy doesn't change its tactics or 
its strategy or its goal. I commend you for the transitional 
work you are doing, and I yield back the balance of my time.
    Chairman Thompson. Other Members of the committee are 
reminded that under the committee rules, the opening statements 
may be submitted at the time for the record.
    Again, I welcome our witness today. When he was confirmed 
in 2005, Secretary Michael Chertoff became the second person to 
serve as the head of the Department of Homeland Security. Prior 
to his confirmation, Mr. Chertoff served as a United States 
circuit judge for the third Circuit Court of appeals. Prior to 
that he served as an assistant attorney general at the 
Department of Justice, where he was instrumental in helping 
trace the September 11 terrorist attacks to the al Qaeda 
networks. He served in a number of other public service 
positions. Mr. Secretary, I thank you for your service and I 
appreciate you agreeing to testify here today.
    As you know you were originally scheduled to come before 
us, but a situation out in the Midwest actually and rightly so 
deserved your immediate attention, and for that, we, again, 
thank you for your service. Please without objection, the 
witness's full statement will be inserted into the record. I 
now recognize you to summarize your statement for the committee 
for 5 minutes. If you can't do it, we will give you a little 
more time.

 STATEMENT OF HON. MICHAEL CHERTOFF, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Chertoff. Thank you, Mr. Chairman. I also want 
to--I don't know whether this will be my last formal 
appearance, although I am sure we will continue to work 
together over the remaining period of the administration, but I 
do appreciate the opportunity to appear. We have had, I think, 
a terrific relationship back and forth in terms of working to 
improve the Homeland Security of this country.
    I want to take the opportunity to endorse the importance of 
having this committee be the lead committee on the House side 
in terms of our oversight. It is important for us to have a 
single committee that is really a point of contact on the 
authorization side, both the House and Senate. Recently a 
number of the Governor's Homeland Security advisors write a 
letter to the same effect. I think we really want to 
concentrate the responsibility in this committee and obviously 
the appropriators will have their responsibility as well.
    I also appreciate the committee's willingness to let me 
postpone my testimony last time because of the floods. I have 
to say for that reason, I did not ask to postpone the hearing 
so that I could attend Tony Snow's funeral, but I didn't want 
the opportunity to pass without remarking on how much we will 
miss him. He was a smart, engaging, advisor and advocate to the 
President who had a great sense of commitment, but also a very 
good sense of humor, and I think that balance is sometimes a 
scarce commodity in Washington. I know he will be missed.
    Finally, as I go through an overview of what we are doing 
to protect the border, I want to just direct the committee's 
attention to the stack of papers I have on my left. This 
reflects only a part of what is, in my view, a comprehensive 
strategy for dealing with the border, it includes the National 
Border Patrol strategy, the National Air and Marine strategy, a 
Customs and Border Protection strategy, a securing the borders 
at the ports of entry strategy. We have, over the last few 
years, submitted a quarterly strategic report to the 
appropriators on exactly what we are doing at the border with 
respect to all of our deployment of assets that goes into 
exquisite detail.
    I might point out that Senator Byrd, the Chairman of the 
Senate Appropriations Committee, wrote me a letter in the last 
month talking about how he felt we had submitted data to the 
appropriators that was more than sufficient to allow them to 
track and monitor the way we were spending the public's money. 
There are other things I could have brought in, my arms could 
only carry so much, but I do believe we are integrating and 
taking a strategic approach.
    No question there are budget issues. There is no question 
that we have to spend more money at the ports of entry, 
including obviously mostly the land ports of entry. We know 
where we have to spend the money. We have got a good sense of 
exactly what we want to do. The issue's going to be finding 
that money and spending that over the next period of years. In 
that respect, obviously, if we don't get appropriations bills, 
we can't spend the money.
    So I want to join the plea. I know the committee 
appropriators have marked up a bill in the Senate and the 
House, and I very much hope we can get a bill so we can 
continue to make progress.
    Let me give the committee an overview of where we are. We 
are about halfway through the process of building the 670 miles 
of pedestrians and vehicles fence in the southwest border that 
we are committed to finish by the end of this career. I think 
we are on track to finishing it, provided, of course, we get 
money to continue through the beginning of the first quarter of 
2009.
    We currently have almost 16,700 Border Patrol agents which 
keeps us on track to hiring more than 18,000 by the end of the 
year, again, as we committed. We are deploying virtual fencing 
along two other areas of Arizona later this year, the Ajo 
sector and the Tucson sector which is going to build on the 
progress we made in Project 28.
    As a consequence of what we have already done, key 
indicators indicate substantial improvement in the condition at 
the border. There has been a substantial decline in 
apprehensions across the southern border, 20 percent for fiscal 
year 2007 as compared with the prior period of time. For the 
first half of this current fiscal year a further 17 percent 
fall along this border. Particularly in those areas where we 
have deployed operation streamline, which is a program to 
actually prosecute illegal crossers, not really to deport them. 
We have seen even further declines.
    In the Yuma sector, we saw a 70 percent decline in fiscal 
2007. This is reinforced by reporting that remittances to 
Mexico and other countries in Central America have been 
declining. All of this, I think, and most experts concede, 
reflect a turn in the tide in terms of illegal migration.
    One not-so-attractive marker of our success is the steady 
increase in violence against our CBP officers and agents, that 
is unfortunately an expected consequence of what happens when 
you crack down on illegal criminal organizations and threaten 
their livelihood.
    In terms of protecting our ports of entry, while we need to 
do some significant continued improvement to deal with 
increased capacity flow, let me just indicate some areas of 
real success. By the end of this year, we will have deployed 
our 10-fingerprint capability US-VISIT entry at all of our--
virtually all of our airports. That is a tremendous stride from 
where we were when I started the job where we had no 10-print 
readers anywhere. That has been a major step up in terms of our 
security.
    Our western hemisphere travel initiative is preceding the 
deadline for getting it in place is June of next year. In the 
mean time, we have significantly reduced the kinds of documents 
we will accept at the border that has increased our level of 
security at the land ports of entry. We currently have 
technology in place at every land port to read any travel 
document with a machine-readable zone. By the spring of next 
year, we will have deployed our RFID chip-reading technology at 
the top 39 ports of entry so that we will be fully in position 
to use the new WHTI-compliant documents by the deadline of June 
2009. By the way, that will speed up the flow because it will 
make it easier and quicker to move through the process.
    I might also indicate that we are planning to put into 
place later this year our electronic system of travel 
authorization, which will govern Visa Waiver Program countries 
including countries in western Europe where we have previously 
identified a potential vulnerability. That is also going to 
allow us consistent with Congress's legislation last year to 
admit a number of new nations into the Visa Waiver Program 
beginning later this year. That is going to be a good news 
story.
    On the interior enforcement front, we have seen a steady 
rise in all of the metrics of our success. Deportations have 
risen steadily in each of the last fiscal years. To date, we 
are on track to exceed last year's record. Likewise, fugitive 
operations arrests doubled between 2006 and 2007, and we are 
already in 2008 on a path to meeting or exceeding last year's 
number of arrests of fugitives.
    Work site criminal arrests--we have exceeded last year's 
record-breaking number, including cases against employers. In 
that regard, I might indicate that just yesterday, we had 
guilty pleas from two officials from a large McDonald's 
franchisee in the west, and a $1 million fine and plea by the 
franchise holder for violating the law with respect to 
deliberately harboring and hiring illegal migrants.
    So for those who say we don't prosecute employers, the 
record is absolutely to the contrary. I think we are almost at 
100 employers in this fiscal year and these are cases with real 
sentences where people are being sent to jail for years and are 
forfeiting money and paying very substantial fines.
    With respect to E-Verify, which is a system we have in 
place that allows employers to check on-line to see whether the 
numbers they get are legitimate, this popular program is 
enlisting employers at a rate of about 1,000 a week. It is a 
very effective system and it gives employers who want to follow 
the law an opportunity to do the right thing.
    I might say for those who continue to propagate the myth 
that the system doesn't work, we find that less considerably, 
less than 1 percent of the people who go through the system 
have a false-positive hit that ultimately has to be reconciled. 
Most of those get reconciled in a very short period of time.
    We do identify a significant number of people that do turn 
up as positives that never contest the fact that they have a 
problem with their Social Security number, and that is because 
if they were to contest it, they would lose because they are 
not properly authorized to work.
    So in sum, I would say, Mr. Chairman, although there is 
more work to do and I intend to leave my successor with a clear 
road map to finish the job that we have started, I think the 
Congress and this Department can take pride in looking back 
over tremendous strides that have been made in securing our 
border and making our country safer. Thank you.
    [The statement of Mr. Chertoff follows:]
                 Prepared Statement of Michael Chertoff
                             July 17, 2008
    Chairman Thompson, Ranking Member King, and Members of the 
committee: Thank you for inviting me to testify today before this 
committee about the progress of our efforts to secure our homeland and 
protect the American people. I'd like to thank the committee for its 
past support of our Department and for your continued guidance as we 
take aggressive steps to advance our mission.
    Today I would like to discuss the Department's efforts to secure 
the homeland through protecting our borders and ports of entry and 
enhancing interior enforcement.
    In the course of this testimony, I will outline the substantial 
progress we have made over the past year, reflecting our determination 
to make the progress expected by the American people in our pursuit of 
a sustained border security strategy.
    But I want to remind this committee at the outset that despite our 
solid gains over the past year, enforcement alone is not enough to 
address our immigration challenges. As long as the opportunity for 
higher wages and a better life draws people across the border illegally 
or encourages them to remain here illegally, we will continue to face a 
difficult battle. For this reason, I remain hopeful that Congress will 
resume its efforts to arrive at a solution that will address this long-
standing problem.
                    i. strengthening border security
    I would like to begin by discussing our strategy to secure the 
border through installation of tactical infrastructure, including 
pedestrian and vehicle fencing; hiring and training new Border Patrol 
agents; and deploying a range of technology to the border, including 
cameras, sensors, unmanned aerial systems, and ground-based radar.
    As part of this discussion, I will also talk about maritime 
security and the security measures we are implementing at our ports of 
entry.
Pedestrian and Vehicle Fencing
    We made a commitment to have in place a total of 670 miles of 
pedestrian and vehicle fencing--including 370 miles of pedestrian fence 
and 300 miles of vehicle fence--on the southern border by the end of 
this calendar year to disrupt the entry of illegal immigrants, drugs, 
and vehicles. We are on track to meet that commitment. As of July 11, 
we have built over 335 miles of fence, including more than 182 miles of 
pedestrian fence and nearly 153 miles of vehicle fence.
    In building this fence, we have sought the cooperation of land 
owners, State and local leaders, and members of border communities. We 
are willing to listen to any concerns communities have with respect to 
fence construction and we are willing to seek reasonable alternatives 
provided the solution meets the operational needs of the Border Patrol.
    Though we will try to accommodate landowner concerns, we cannot 
indefinitely delay our efforts or engage in endless debate when 
national security requires that we build the fence. Moreover, in areas 
where we use our authority to waive certain environmental laws that 
threaten to impede our progress, we do so in conjunction with 
appropriate environmental studies so that we can take reasonable steps 
to mitigate the environmental impact of our construction. Of course, we 
will provide appropriate compensation for any property the Federal 
Government acquires through the process of eminent domain.
Boots on the Ground
    Fencing is an important element of a secure border, but it does not 
provide a total solution. For this reason, we also have continued to 
expand the Border Patrol, which is part of the U.S. Customs and Border 
Protection (CBP). The Border Patrol defends our Nation's frontline 
between the ports of entry and responds to incursions with speed and 
agility.
    Over the past year, we have accelerated recruitment, hiring, and 
training of Border Patrol agents. Approximately 16,690 Border Patrol 
agents are currently on board and we are on track to meet our 
commitment of having more than 18,000 agents by the end of this year--
more than twice as many as when President Bush took office. This 
represents the largest expansion of the Border Patrol in its history, 
and we have grown the force without sacrificing the quality of training 
the Border Patrol Academy prides itself on delivering.
    We have benefited substantially from the support of the National 
Guard under Operation Jump Start. We are grateful to the Department of 
Defense as well as Governors across the United States for allowing us 
temporarily to leverage the National Guard in support of our border 
security mission.
Technology and SBInet
    A third critical element of border security is technology. While 
not a panacea, technology allows us to substantially expand our 
coverage of the border, more effectively detect and identify 
incursions, and improve Border Patrol response time.
    Over the past year, as part of our Secure Border Initiative (SBI), 
we have deployed additional technology through our SBInet program which 
includes the development of the Project 28 (P-28) prototype in Arizona 
to test our ability to integrate several border technologies into a 
unified system. There has been some confusion about the purpose of the 
P-28 prototype and its role in the Department's larger efforts at the 
border. Allow me to put P-28 into its appropriate context.
    P-28 was designed to be a real-world test of critical technologies 
and system integration under the broader SBInet program. Specifically, 
its purpose was to demonstrate the feasibility of the SBInet technical 
approach developed by the contractor, Boeing, and to show that this 
type of technology could be deployed in a demanding environment to help 
secure the southwest border. After successful field testing, we 
formally accepted P-28 from Boeing on February 21 of this year. We have 
a system that is operational and has already assisted in identifying 
and apprehending more than 3,500 illegal aliens trying to cross the 
border since September 2007.
    It is important, however, to recognize that one of the key benefits 
of any prototype or demonstration concerns the lessons learned that can 
be applied to future concepts. These lessons learned are part of the 
true value of the technology demonstration and P-28 is no exception. 
Accordingly, we are building upon lessons learned to develop a new 
technology architecture, based on open standards for maximum 
interoperability that will incorporate upgraded software, mobile 
surveillance systems, unattended ground sensors, and an improved 
communication system to enable better connectivity and system 
performance. We will incorporate this new architecture in SBInet's 
first production system which will be deployed to two sites in Arizona 
this year.
    As part of our broader efforts, we are continuing to deploy 
additional assets and technology along both our southern and northern 
borders. This includes a fourth unmanned aircraft system, with plans to 
bring two more on-line this fiscal year. One of these systems will be 
deployed on the northern border. We also anticipate expanding our 
ground-based mobile surveillance systems from 4 to 40. And we will 
acquire 2,500 additional unattended ground sensors this fiscal year, 
with 1,250 of those planned for deployment on the northern border and 
1,250 on the southwest border. These will supplement the more than 
7,500 ground sensors currently in operation. To continue to support our 
investment in border security, we have requested $775 million in 
funding as part of the President's fiscal year 2009 budget.
    We are also mindful of the need to coordinate these strategies with 
our operational components in order to achieve effective situational 
awareness along the border. Intelligence and information integration is 
a priority for the President and Congress, and we have taken steps to 
achieve this goal. The Department's Office for Intelligence and 
Analysis, working with DHS operational components, is ensuring that 
intelligence supports the application of the strategic fencing, Border 
Patrol personnel, and technology that form the foundation strategies of 
our Secure Border Initiative. The Homeland Intelligence Support Team 
(HIST), an initiative co-located at the El Paso Intelligence Center 
(EPIC), will coordinate the delivery of national intelligence and 
information-sharing capabilities in support of operational objectives 
along the border. The HIST will work directly with our Border Patrol, 
law enforcement personnel, and intelligence analysts to identify how 
intelligence can strengthen our enforcement activities and ensure 
information is coordinated with key stakeholders quickly and 
accurately. We also created a Border Security Branch that merges 
intelligence community information with DHS component reporting to 
produce border products for our frontline operators.
Metrics of Success
    Have our efforts achieved their desired impact? If we look at the 
decline in apprehension rates over the past year and third-party 
indicators such as a decrease in remittances to Mexico, the answer 
appears to be yes.
    For fiscal year 2007, CBP reported a 20 percent decline in 
apprehensions across the southern border, suggesting fewer illegal 
immigrants are attempting to enter our country. This trend has 
continued into this fiscal year. During the first half of fiscal year 
2008, southwest border apprehensions were down 17 percent, and were 
down Nation-wide by 16 percent over the same period the previous year.
    In its June 4, 2008 issue, the Financial Times noted that following 
nearly a decade of double-digit increases, remittances reported to the 
Bank of Mexico fell to $7.3 billion in the first 4 months of this year, 
2.4 percent less than in the equivalent period last year. The article 
went on to say that ``it . . . appears that the laws to crack down on 
illegal workers are having an impact.''
    Through programs like Operation Streamline, we have achieved even 
greater decreases in apprehension rates in certain sectors. Under 
Operation Streamline, individuals caught illegally crossing the border 
in designated high-traffic zones are not immediately returned across 
the border. Instead, they are detained and prosecuted prior to removal. 
In the Yuma sector, for example, apprehension rates dropped nearly 70 
percent in fiscal year 2007 after we initiated Operation Streamline. In 
the first quarter of this year, the Department of Justice prosecuted 
1,200 cases in Yuma alone. And in Laredo, we experienced a reduction in 
apprehensions of 33 percent in the program's first 45 days.
    In addition to the decline in apprehensions, our frontline 
personnel also prevented record amounts of illegal drugs from entering 
the United States last year. In fiscal year 2007, CBP officers and 
agents seized 3.2 million pounds of narcotics at and between our 
official ports of entry. Keeping these drugs out of our country not 
only protects the border, but our interior as well, including our 
cities and communities where these drugs may have ultimately been sold 
or distributed.
    There is another sign that our efforts at the border are 
succeeding. It is, unfortunately, an increase in violence against CBP 
officers, and in particular, agents of the Border Patrol, up 31 percent 
in fiscal year 2007. Earlier this year, for example, the Border Patrol 
agents discovered a piece of wire that had been stretched across a road 
between double fencing so it could be pulled tightly to harm or kill an 
agent riding on an all-terrain vehicle. Criminals and other dangerous 
people are engaging in desperate attempts to derail our successful 
efforts, but we will not be deterred, nor will we tolerate violence 
against our agents. Our CBP officers and agents are authorized to use 
force as necessary and appropriate to protect them.
The Merida Initiative
    Much of this upsurge in violence is specifically the result of our 
disrupting the operations of narcotics and human traffickers through 
our security successes along our southern border.
    At the same time, on the other side of this border, President 
Felipe Calderon of Mexico has continued to wage a vigorous battle 
against these criminal organizations. The Merida Initiative proposal 
will enable the United States to form a real partnership with the 
Government of Mexico and bolster its efforts to confront criminal 
organizations whose activities significantly affect our country. The 
Merida Initiative will provide hardware, training and technical 
assistance from our country to help this critical fight.
    Congressional funding of Merida sends a clear message to 
transnational criminal organizations that border security is a key 
element of a comprehensive national security strategy and that the 
actions of cross-border criminal organizations will be met with a 
coordinated, multinational response. We look forward to working with 
Congress to continue to provide full funding for this important 
initiative consistent with President Bush's request.
Maritime Security
    The past year has seen a number of new threats and challenges 
within the maritime domain that have required not only innovative 
thinking, but also an approach to maritime security that requires true 
cooperation both within and outside the Department.
    In the on-going campaign against narco-traffickers, it is no secret 
that our adversaries are resourceful and adaptive. While our Coast 
Guard continues to stop high-speed boats, fishing vessels and 
commercial vessels carrying narcotics, it now faces traffickers who are 
using self-propelled, semi-submersible (SPSS) vessels that are more 
difficult to detect. The Coast Guard is working very closely with the 
Colombian Navy and the Department of Defense through Joint Interagency 
Task Force South developing new SPSS boarding protocols. The Coast 
Guard has also opened a dialog with the Mexican Navy which is very 
interested in partnering to address this emerging threat.
    The administration strongly supports legislation to make the 
operation of or embarkation in a stateless self-propelled semi-
submersible (SPSS) vessel on international voyages a felony. In June 
2008, legislation was introduced in both the House and the Senate that 
would enable U.S. prosecutions of SPSS smugglers and crew members even 
if they successfully scuttle the vessel and all drug evidence is 
destroyed. Similar legislation was included in the Coast Guard 
Authorization Act of 2008. Each of these measures enjoyed strong 
bipartisan support. Along with Attorney General Mukasey and Director 
Walters, I recently signed a letter expressing our concerns about the 
SPSS threat, and urging Congress to enact anti-SPSS legislation 
immediately. We strongly support these provisions and applaud the 
committee's efforts to ensure that these measures are enacted this 
session.
    In addition to this initiative, the Department is committed to 
securing our maritime domain through the implementation of an at-sea 
biometrics collection capability. Since November 2006, the Coast Guard 
and US-VISIT have implemented a program to collect biometrics on 
individuals intercepted in the Mona Passage near Puerto Rico, a high-
threat area for illegal migration. Between November 2006 and July 2008, 
the Coast Guard collected biometrics from more than 1,800 foreign 
nationals interdicted at sea. This new capability resulted in the 
prosecution of over 150 felons, many with extensive criminal records.
    Since this program was established, there has been a 40 percent 
decrease in illegal migration through the Mona Passage. In April 2008, 
the program was expanded to South Florida.
Ports of Entry
    Of course, it makes little sense to secure our maritime domain and 
the long stretches of border between our official ports of entry if we 
continue to have possible gaps in border security at the ports of entry 
themselves.
    Since the Department's creation, we have continued to make major 
advances to prevent dangerous people from entering our country through 
official ports of entry. We have fully implemented US-VISIT two-
fingerprint capabilities at all U.S. ports of entry. The State 
Department has deployed ten-fingerprint capabilities to all U.S. 
consulates overseas. We also have begun deploying ten-fingerprint 
capability to select U.S. airports, with the goal of full deployment to 
airports by the end of this calendar year.
    US-VISIT checks a visitor's fingerprints against records of 
immigration violators and FBI records of criminals and known or 
suspected terrorists. Checking biometrics against immigration and 
criminal databases and watch lists helps officers make visa 
determinations and admissibility decisions. Collecting ten fingerprints 
also improves fingerprint-matching accuracy and our ability to compare 
a visitor's fingerprints against latent fingerprints collected by the 
Department of Defense and the FBI from known terrorists all over the 
world.
    In January of this year, we also ended the routine practice of 
accepting oral declarations alone to prove citizenship and identity at 
our land and sea ports of entry. People entering our country, including 
U.S. citizens, are now asked to present documentary evidence of their 
citizenship and identity from a specified list of acceptable documents. 
Not only will this help reduce the number of false claims of U.S. 
citizenship, but it has reduced the opportunity for document fraud by 
narrowing the list of more than 8,000 different documents that a 
traveler might present to our CBP officers. These changes are improving 
security and efficiency at the ports of entry.
    I might add that we implemented these most recent changes in travel 
document requirements without causing discernible increases in wait 
times at the border. After only a few months since the new requirements 
were instituted, compliance rates of queried travelers exceed 90 
percent. U.S. and Canadian citizens are presenting the requested 
documents when crossing the border. This is a great ``non-news'' story, 
demonstrating that we can improve security at the ports of entry 
without sacrificing convenience for legitimate travelers.
    Furthermore, as we move toward implementation of the Western 
Hemisphere Travel Initiative, we will be utilizing radio frequency 
identification (RFID) technology, a proven technology that has 
successfully facilitated travel and trade across our land borders since 
1995 through our trusted traveler programs. The vicinity RFID tags on 
travel documents contain no personal information, only a number that is 
meaningful to our secure DHS systems. The number acts as a pointer for 
DHS to access information while ensuring no outside parties have 
access. WHTI will incorporate state-of-the-art RFID technology, which 
should allow us to read up to eight vicinity RFID-enabled documents in 
a vehicle at a range of 10 to 15 feet and keep traffic flow moving.
    CBP has technology currently in place at all ports of entry to read 
any travel document with a machine-readable zone, including passports, 
Enhanced Drivers Licenses, and the new Passport Card being issued by 
the Department of State. All CBP officers at the ports of entry are 
currently trained in the use of this technology.
    In preparation for WHTI implementation, CBP awarded a contract on 
January 10, 2008 to begin the process of deploying vicinity RFID 
facilitative technology and infrastructure to 354 vehicle primary lanes 
at 39 high-volume land ports of entry over the next 2 fiscal years. We 
have started the actual construction at our land border ports.
    In February 2008, we deployed the new vehicle primary client 
software application to more than ten high-volume ports in anticipation 
of implementing the vicinity RFID primary lane solution. This critical 
software deployment, which will be completed at all 39 ports by fall, 
quickly and effectively provides officers with vital information on 
border crossers.
    And finally, on June 6, 2008, the Department launched the Global 
Entry program at George Bush Intercontinental, JFK, and Dulles 
International Airports as well as an expanded Model Ports Initiative to 
improve security and convenience at our ports.
    Global Entry is designed to expedite the screening and processing 
of pre-approved, low-risk American citizens or permanent legal 
residents entering the United States, while freeing more CBP officers 
to focus more on actual security and criminal risks. Applicants will 
provide their biographical and biometric information, undergo a 
background check, and complete an interview with a CBP officer.
    Established in 2006 as part of the Rice-Chertoff Initiative, Model 
Ports is being expanded to 18 additional airports. It has enhanced 
border security through the use of new technology while streamlining 
security processes and facilitating travel for legitimate visitors.
    In addition to these initiatives, the Department is also committed 
to establishing an exit system to help confirm through biometrics that 
an individual has left the United States. Currently, commercial 
carriers and vessel owners and operators already play a role in the 
collection of passenger information. Today, carriers collect and 
transmit biographical information electronically and submit paper I-94 
forms to our Department for passengers departing the United States. 
Introducing biometrics into this process will require these carriers, 
owners, and operators to collect additional information.
    In April 2008, the Department announced a proposed rule that would 
mandate the collection of biometric information from most non-U.S. 
citizens departing the United States by air or sea. A 60-day comment 
period ended on June 23 and the Department is currently reviewing the 
comments it received. In addition to enhancing security, the proposed 
exit rule will assist in our efforts to meet the requirements of the 
provisions of the Implementing Recommendations of the 9/11 Commission 
Act (9/11 Act) that authorize the expansion of the Visa Waiver Program 
(VWP).
Visa Waiver Program: Expansion Plus Security
    Each year, our ports of entry welcome hundreds of millions of 
visitors to this country. For two decades, many of them have arrived 
under our VWP, which enables nationals of certain countries to travel 
to the United States for tourism or business for stays of 90 days or 
less without obtaining a visa.
    Yet in our post-9/11 world, we are acutely aware of the inherent 
risk that visa-free travel poses to our national security. Simply 
stated, it is naive to assume that a traveler from a VWP country 
automatically constitutes a lesser threat than a traveler from a non-
VWP country. Let us not forget that Richard Reid, the notorious ``shoe 
bomber,'' was a British national from a VWP-member country, and that 
Zacharias Moussaoui, who is serving a life sentence for his role in the 
9/11 attacks, was a citizen of France, who traveled to the United 
States under the VWP.
    Consequently, in accordance with the 9/11 Act, the United States is 
now moving to strengthen the VWP's security elements. Specifically, DHS 
is working with the Department of State to transform the program into 
one that is capable of analyzing threats on a traveler-by-traveler 
basis, rather than on a country-by-country basis, while at the same 
time expanding the program to include further eligible countries.
    A cornerstone of this effort is the creation of an Electronic 
System for Travel Authorization (ESTA). Beginning in January 2009, DHS 
intends to require all VWP travelers to apply for ESTA approval to 
travel to the United States under the VWP program by submitting 
biographical and eligibility information on-line prior to departure. 
The information will be similar to that required today on the I-94W 
paper form.
    An electronic travel authorization system similar to ESTA was 
inaugurated by Australia and has been used there for a number of years. 
Our ESTA requires no information beyond what is already being collected 
on paper forms. But by asking VWP travelers to submit this information 
before boarding a carrier to come here, it will enable authorities to 
pinpoint potential security threats ahead of time, identify individuals 
ineligible for visa-free travel before they board (thus saving them a 
wasted trip to a U.S. airport and back), and process authorized 
travelers more efficiently.
    The deployment of ESTA is not the only way we are strengthening VWP 
security. Over the past 6 months, the United States has signed 
memoranda of understanding with eight nations aspiring to join VWP--the 
Czech Republic, Estonia, Hungary, Latvia, Lithuania, Malta, the 
Republic of Korea, and Slovakia--putting each on a path to fulfilling 
the new security requirements that current VWP nations will also have 
to meet by October 2009. These new requirements will include providing 
information about serious crimes and known and suspected terrorists, 
timely reporting of lost and stolen passport data, and cooperation on 
airport and aviation security. The ultimate result will be an expanded 
number of increasingly secure nations sending legitimate visitors to 
our country. In fact, we are reaping the rewards of enhanced security 
cooperation even before VWP expansion is a reality.
                   ii. enhancing interior enforcement
    From construction of fencing to reform of the Visa Waiver Program, 
the security measures I've outlined are designed to protect our 
borders, our ports of entry, and ultimately our entire country. Strong 
and effective interior enforcement can provide a further boost to 
security, while deterring illegal border crossings.
    Interior enforcement includes targeted work site enforcement 
operations across the United States; increasing fines and penalties; 
seizing assets and when appropriate, seeking incarceration for those 
who break the law; providing better tools to help employers maintain a 
stable, legal work force; and identifying, arresting, and removing 
fugitives, criminals, and illegal alien gang members who pose a threat 
to the American people.
    In fiscal year 2007, Immigration and Customs Enforcement (ICE) 
removed or returned more than 285,000 illegal aliens as part of a 
comprehensive interior enforcement strategy focused on more efficient 
processing of apprehended illegal aliens and reducing the criminal and 
fugitive alien populations.
    This strategy has resulted in sustained advances across multiple 
areas of ICE's mission, including the continuation of our ``catch and 
return'' practice (instead of the former ``catch-and-release'' 
approach), a re-engineered and more effective detention and removal 
system, and new agreements with foreign countries to ensure prompt and 
efficient repatriation of their citizens.
Work Site Enforcement
    ICE's work site enforcement efforts advanced significantly in 
fiscal year 2007. ICE made 4,077 administrative arrests and 863 
criminal arrests in targeted work site enforcement operations across 
the country. Ninety-two of those arrested for criminal violations were 
in the employer's supervisory chain and 771 were other employees.
    The majority of the employee criminal arrests were for identity 
theft. The employer criminal arrests included illegal hiring, 
harboring, conspiracy, and identity theft. Some cases also included 
money-laundering charges.
    In May 2008, ICE conducted the largest work site enforcement 
operation in its history. As a result, 297 immigrants pleaded guilty to 
using fraudulent documents to obtain their jobs at an Iowa meat 
processing plant, and 270 of them have been convicted on criminal 
charges and will serve prison sentences. On July 3, 2008, two 
supervisors at the plant were arrested and charged with aiding and 
abetting the possession and use of fraudulent identity documents and 
encouraging aliens to reside illegally in the United States. One of 
them was also charged with aiding and abetting aggravated identity 
theft.
Increasing Fines Against Employers
    As a further disincentive to hire illegal aliens, we have partnered 
with the Department of Justice to increase civil fines on employers by 
approximately 25 percent, which is the maximum we can do under existing 
law. This action was one of the 26 administrative reforms we announced 
in August and is intended to change behavior and hold unscrupulous 
employers accountable for their actions.
Expanding Workforce Tools
    As we are holding employers accountable for breaking the law, we 
are also providing honest employers with an expanded set of tools to 
maintain a stable, legal work force.
    We are moving ahead with supplemental rulemaking to our No-Match 
Rule published last year. As you may know, this rule provided a safe 
harbor for employers that followed a clear set of procedures in 
response to receiving a Social Security Administration Employer No-
Match Letter that indicated a potential problem with an employee's 
records, or receiving a Department of Homeland Security letter 
regarding employment verifications. Although the Department was sued to 
stop the rule from taking effect, we have made progress in addressing 
the judge's concerns by releasing a supplemental proposed rule that 
provides a more detailed analysis of our no-match policy. It was 
published in the Federal Register on March 26, 2008 (73 FR 15944).
    We are also continuing to promote the use of E-Verify, an on-line 
system that allows employers to check, in most cases within seconds, 
whether an employee is authorized to work in the United States. Over 94 
percent of all E-Verify queries are automatically verified. Some States 
have begun to require employers to enroll in E-Verify, notably Arizona, 
where the system has been adding more than 500 new employers per week. 
Nationally, we are adding 1,000 new E-verify employers per week. More 
than 75,000 employers are currently enrolled, compared to 24,463 at the 
end of fiscal year 2007, and more than 4 million new hires have been 
queried this fiscal year. We are expanding outreach across the country 
in an effort to increase participation. To support this work, we have 
requested $100 million in the fiscal year 2009 budget.
    We are establishing a robust monitoring and compliance unit to 
check employers' use of E-Verify and respond to situations where 
employers could use the system in a discriminatory or otherwise 
unlawful manner. We are also increasing our outreach to employers and 
the American public to ensure that employers and employees understand 
their respective rights and obligations.
    Additionally, we have added a new photo-screening capability to E-
Verify that will significantly reduce document fraud. With this new 
enhancement, employers are able to match the photo on DHS-issued 
permanent residence cards (green cards) and employment authorization 
documents (EAD) with the photo held in the DHS database.
    The Federal Government is leading by example. Last month, the 
President issued an Executive Order directing me to designate an 
electronic employment eligibility verification system for Federal 
contractors to use. Subsequently, I designated E-Verify as that system. 
The FAR Council has published proposed changes to the Federal 
Acquisition Regulation to implement the requirement that contractors 
agree to use E-Verify when entering into Federal contracts.
    As there are more than 200,000 companies doing business with the 
Federal Government, this will significantly expand the use of E-Verify 
and make it more difficult for people who are in this country illegally 
to obtain jobs through fraud.
    E-Verify is clearly a vital program for our country. It is 
important that Congress take the appropriate action to reauthorize E-
Verify this year to ensure that employers may continue to benefit from 
this valuable system.
Boosting State, Local, and International Cooperation
    We also work with State and local law enforcement who want to 
participate in our enforcement efforts by receiving training and 
contributing to joint Federal, State, local, and international law 
enforcement initiatives.
    Much of this work is organized through the ICE Agreements of 
Cooperation in Communities to Enhance Safety and Security (ICE ACCESS) 
program, which includes training under the 287(g) program, 
participation in Border Enforcement Security Task Forces (BEST) and 
Document and Benefit Fraud Task Forces (DBFTF).
    Through the 287(g) program, ICE delegates enforcement powers to 
State and local agencies that serve as force multipliers in their 
communities and are trained and supervised by ICE officers. As of July 
1, 2008, ICE has signed 55 memoranda of agreement (MOAs) with State and 
local law enforcement agencies to participate in the program. Last 
year, ICE trained 422 State and local officers. In the program's last 2 
years, State and local law enforcement partners have identified more 
than 28,000 illegal aliens for potential deportation.
    ICE also has continued to expand its BEST teams to work 
cooperatively with domestic and foreign law enforcement counterparts to 
dismantle criminal organizations operating near the border. There are 
ten BEST teams located along the U.S. borders. The BEST concept was 
first implemented in Laredo, Texas in January 2006. BEST teams were 
subsequently established in Tucson, Arizona (March 2006); El Paso, 
Texas (October 2006); San Diego, California (November 2006); and Rio 
Grande Valley (Harlingen, Brownsville, McAllen), Texas (March 2007).
    In February 2008, the first northern border BEST operation was 
initiated in Blaine, Washington. The second northern border BEST team 
was subsequently launched in Buffalo, New York in March 2008. In fiscal 
year 2008, BEST established teams in three other locations along the 
southwest border: Phoenix, Arizona and Yuma, Arizona (March 2008) and 
Imperial Valley, California (June 2008).
    In fiscal year 2007, BEST was responsible for 519 criminal arrests 
and 1,145 administrative arrests of illegal aliens, the seizure of 
52,518 pounds of marijuana and 2,066 pounds of cocaine, 178 vehicles, 
12 improvised explosive devices, and more than $2.9 million in U.S. 
currency.
    In fiscal year 2008, BEST will expand its operations in three other 
major U.S. cities with large maritime ports of entry. BEST will insert 
teams in the ports of New York/New Jersey, Los Angeles/Long Beach, and 
Miami.
    ICE DBFTFs are a strong law enforcement presence that combats fraud 
utilizing existing manpower and authorities. Through comprehensive 
criminal investigations, successful prosecutions, aggressive asset 
forfeiture and positive media, the DBFTFs detect, deter and dismantle 
organizations that facilitate fraud. The task forces promote the 
sharing of information, ensure the integrity of our laws, and uphold 
public safety. In April 2007, ICE formed six new task forces, bringing 
the total number of DBFTFs to 17. These task forces have been 
responsible for 954 criminal arrests and 635 criminal convictions.
Targeting Fugitives, Criminals, and Gang Members
    Finally, our interior enforcement efforts have focused on 
identifying, arresting, and removing fugitives, criminals, and illegal 
alien gang members in our country.
    In fiscal year 2007, ICE Fugitive Operations Teams arrested 30,407 
individuals, nearly double the number of arrests in fiscal year 2006. 
The teams, which quintupled in number from 17 to 75 between 2005 and 
2007, identify, locate, arrest and remove aliens who have failed to 
depart the United States pursuant to a final order of removal, 
deportation, or exclusion; or who have failed to report to a Detention 
and Removal Officer after receiving notice to do so. In fiscal year 
2008, Congress authorized an additional 29 teams. Fugitive Operations 
Teams have arrested 24,457 individuals this year.
    ICE also expanded its Criminal Alien Program (CAP) in fiscal year 
2007, initiating formal removal proceedings for 164,000 illegal aliens 
serving prison terms for crimes they committed in the United States. 
ICE has already initiated 55,547 formal removal proceedings against 
additional criminal aliens in the first quarter of fiscal year 2008 
under this program. ICE is developing a comprehensive ``Secure 
Communities'' plan to identify and remove criminal aliens which will 
revolutionize immigration enforcement. By using technology to share 
information between law enforcement agencies and apply risk-based 
methodologies to focus resources, ICE will be able to assist all local 
communities in removing high-risk removable criminal aliens.
    In addition, in fiscal year 2007 ICE arrested 3,302 gang members 
and their associates as part of Operation Community Shield. This total 
includes 1,442 criminal arrests. For fiscal year 2008 (through June 
30), ICE has arrested 2,267 gang members and their associates. In 
total, ICE has arrested more than 9,600 gang members and associates as 
part of Operation Community Shield since 2005.
    As an added layer of protection against the entry of known gang 
members, we have worked with the Department of State to expand the list 
of known organized street gangs whose members are barred from entry 
into the United States. This action will ensure that active members of 
specified criminal organizations or street gangs from El Salvador, 
Honduras, Guatemala, or Mexico, as well as certain other foreign 
locations, will be denied a visa.
    In all of these operations, we work cooperatively with State and 
local law enforcement to make sure we achieve our purpose with minimal 
disruption to surrounding communities. We also work with community 
organizations to ensure that children of illegal immigrants directly 
impacted by these operations are treated humanely and given appropriate 
care according to established protocols.
                            iii. conclusion
    From protecting our physical borders to enhancing our interior 
enforcement, my Department continues to pursue a host of measures that 
are designed to increase the security of our homeland. There can be no 
homeland security without border security, and so for the duration of 
my tenure as Secretary of Homeland Security, I will continue to enforce 
our laws accordingly.
    While an enforcement-only approach will not address the full 
breadth of the Nation's immigration challenges, the American people 
demanded last year that enforcement efforts be serious and sustained. 
It is my hope that as we continue to enforce existing law with 
increased effectiveness, this Congress will consider once more the kind 
of reform that will deal fully with these challenges.
    I look forward to continued partnership with this committee on 
border security, and indeed, on every aspect of homeland security, for 
the benefit of this Nation and its people.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Thompson. I thank you for your testimony, Mr. 
Secretary.
    I will remind each Member that he or she will have 5 
minutes to question the Secretary. I now recognize myself for 
those questions.
    At the outset, Mr. Secretary, I am always thrilled that the 
shift in concern with the Department, your testimony when Mr. 
King was Chair never went to jurisdiction and how many 
committees you had to testify, is when I became Chairman, and 
it became an issue, and we are operating on the same set of 
rules. I just want, for the record, to reflect that you said 
one thing when Mr. King was Chairman as to what the problems 
were, we allowed you to reorganize the Department. Now the 
Democrats get to be Chairman, you take what Mr. King said and 
it becomes part of your testimony in terms of jurisdiction and 
some other things.
    Secretary Chertoff. I think, Mr. Chairman, I have said the 
same thing and I thought I was in agreement with the committee. 
This committee has----
    Chairman Thompson. That was, Mr. Secretary, just my part, I 
didn't say it for you to defend yourself. It is just for the 
record.
    The issue for me now, Mr. Secretary, is that I have a 
letter here from Congressman John Lewis, a Member of Congress. 
As you know we have been trying to get him off the no-fly list 
for years, and according to Mr. Lewis's letter, he's still 
having trouble. We have asked the Department to do what they 
could to help secure Mr. Lewis's ability to get on airplanes in 
this country and travel. According to this letter, it is still 
not happening. Even to the point that the Department gave him a 
letter attesting that he was John Lewis and that he should be 
allowed to get on planes, but it is not happening. So I am 
going to ask you in the remaining time that you have as 
Secretary to help Congressman John Lewis travel the country, 
just like any other law-abiding citizen should be able to. I 
have this letter, I would like to enter it into the record, but 
this is, I believe, the committee's request because we all know 
who he is.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Secretary Chertoff. I would be happy to do it.
    Chairman Thompson. But also I would like for you to find 
out how many other John Lewises are out there who are having 
difficulty explaining to the Department who they are so they 
can get off this no-fly list. We see more and more of that 
happening, and I know Senator Kennedy had a problem with it and 
for whatever reason it was worked out. So I would encourage you 
to help us with our colleague in that respect.
    With respect to E-Verify, have you had an analysis done of 
its impact on small businesses with respect to the paperwork 
that is required to manage it?
    Secretary Chertoff. I don't know if we have done a specific 
analysis. I don't think there is a lot of paperwork involved 
because it is an on-line system. I have been in small 
businesses and I was at the one in the Washington area about a 
year ago, and I have actually watched it in action. It was 
really just an on-screen issue. It was minimal paperwork and 
burden. The company I dealt with, the name has slipped my mind, 
I am very happy with them.
    Chairman Thompson. So it is your testimony to the committee 
that it has not been a burden to small business.
    Secretary Chertoff. That is my understanding, correct.
    Chairman Thompson. Thank you. With respect to the documents 
you referenced in your initial statement, in those documents, 
Mr. Secretary, do they speak to how those individual references 
relate to other aspects of border security or have you 
stovepiped the security aspect from maritime and all of that?
    Secretary Chertoff. They are--the answer is they are not 
stovepiped. In fact, when they are produced, they are 
circulated around in interagency--in intra-agency process, with 
all the relevant components so that they are crossed-walked. 
Everybody has an opportunity to participate in the planning and 
process. That is part of what we have done in the Department in 
terms of our integrations is to set up an operational 
coordination section and also at a policy level, all the 
operating components work together. So they all have visibility 
to all of what everybody else does.
    Chairman Thompson. I understand that. But in the documents 
that you have presented today, is the relationship between 
maritime border, the northern border, southern border, is there 
a coordination application?
    Secretary Chertoff. Yes.
    Chairman Thompson. Well, will you provide the committee 
with the information that you have before you that reflects the 
coordination and cooperation?
    Secretary Chertoff. I am happy to. Most of what I have on 
this big pile were reports to the appropriations, our 
appropriations subcommittee so they are already before 
Congress. I only brought a fraction so we can produce more. We 
can certainly provide those.
    Chairman Thompson. I know you can only carry so much, Mr. 
Secretary, so what you need to do is when you go back, just 
gather up what you think we need with respect to the border 
security plan and make it available to more than just the 
appropriators, but the authorizing committee also.
    Secretary Chertoff. I am happy to do that.
    Chairman Thompson. I yield to the gentleman from New York 
for 5 minutes, Mr. King.
    Mr. King. Thank you, Mr. Chairman. Secretary Chertoff, one 
thing that has probably not been said which should be and we 
know that things can change at any moment, but the fact is that 
this country has not been attacked in almost 7 years, and we 
know that anything can happen at any time, but that is just not 
luck. There have a number of attempted attacks that have been 
stopped. I think the Department of Homeland Security should 
take appropriate credit for that.
    Also I would just say, Mr. Chairman, regarding the fact of 
committee jurisdiction, no matter who was in charge, I always 
said that this committee shall be the prime committee. I can 
give you any number of instances in the past Congress, for 
instance, on the whole issue of FEMA restructuring we went to 
the mat with the Republican leadership to ensure that this 
committee would have primary jurisdiction.
    At that time Transportation Infrastructure wanted to run 
that and he took it from them, not out of any turf battle, but 
because we felt that there should be much more a consolidated 
jurisdiction. Should more have been done? Absolutely. I was 
fighting for it the whole time and we were making constant, 
steady incremental progress toward that.
    Mr. Secretary, you mentioned airport security, you 
mentioned the 10-finger identification, I would like to follow 
up on that and I don't know how much you can say in this 
unclassified setting, but we know that there was increased 
training in FATA, the federally Administered Tribal Areas. We 
know, I believe it is public record that all al Qaeda has tried 
to recruit Europeans to be trained terrorists.
    How much confidence do you have that under the Visa Waiver 
Program we are able to identify those with European passports 
who can come in under the Visa Waiver who may or may not have 
been trained in the FATA?
    Secretary Chertoff. I think particularly, when we get the 
electronic system of travel authorization in place, I have a 
high confidence, but not a perfect confidence. As I have said 
before, and I know you know this because we have talked about 
it, there is a vulnerability because the terrorists are 
deliberately focusing on people who have legitimate, western 
European passports, who don't appear to have records as 
terrorists. They don't necessarily appear on watch lists.
    Obviously, we gather intelligence in a variety of ways to 
try to detect these people. There are three things we do to try 
to particularly look at these western Europeans. First of all, 
to the extent we get commercial data, passenger name, record 
information that shows us people's travel patterns, financing 
patterns, what their telephone number is, we can use that to 
uncover connections and we have used it to uncover connections 
between someone who we don't have by name on a watch list, but 
who, in fact, may have been trained in the FATA or may be 
connected to terrorists, so that is one thing we do.
    Second, the fingerprints give us the ability, again, to run 
against latent prints that may have been picked up in safe 
houses or in training camps so that we can see whether someone 
has been in a training camp or a safe house based upon a 
fingerprint match. In at least one case, that turned up 
something that we had to take a close look that I am aware of.
    Once we get the electronic travel authorization, we will 
start to get information about travelers at least 72 hours in 
advance in most cases, when they come from the Visa Waiver 
countries. That will give us more time to do the analysis I 
have talked about.
    When you take all these things together, as well as the 
ordinary intelligence gathering that we do, and we can continue 
to do, thanks to the FISA reform legislation and other measures 
we take, I think I have a good degree of confidence we can 
catch people coming in. But I have to tell you there is no 
guarantee. They are working very hard to slip by us.
    We have to constantly challenge ourselves and raise the 
bar, so to speak, in a way that doesn't impede the flow of 
innocent travelers, but that does take account of the fact that 
they are deliberately trying to find people who do not match 
the obvious indicators of being a terrorist.
    Mr. King. What is the level of enthusiasm or level of 
cooperation from the Visa Waiver countries?
    Secretary Chertoff. I would say we have a really 
outstanding relationship with the Visa Waiver countries in 
terms of information sharing and in terms of their willingness 
to participate, as you know from the August 2006 airline plot, 
which is now unfolding in a courtroom in Britain. We have had a 
very long-standing relationship with the British, but I would 
have to say we have comparably strong relationships with the 
Germans, the French, the Italians. I have spent a lot of time 
over there myself. I think, actually, they are now adopting 
some of the measures that we have that they originally 
complained about, like fingerprinting, like passenger name 
record collection. They have now said that not only do they 
agree that we should do it, they want to do it themselves. I 
think that is a real step forward for our mutual level of 
security.
    Mr. King. Thank you, Mr. Secretary.
    Chairman Thompson. I now recognize the gentlelady from 
California, Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you Mr. 
Secretary for being before us today. As you probably know, I 
chair the subcommittee that handles quite a bit of the work 
that goes on through this committee. In particular, we oversee 
your Department's work and in a lot of different areas, 
including many of what I call the disasters of the projects 
that we have been working on. In particular, for example, 
Deepwater with the Coast Guard, which you know is a complete 
disaster. TWIC which we're trying to hold a hearing later this 
month and everybody is unhappy with and we haven't been able to 
get the people signed up for that. Of course, SBInet where we 
had a $22 million contract that costs something like $45 
million to the contractor, it was pretty unacceptable. You 
finally accepted it and it doesn't work and we have to kind of 
redo it again.
    Now we have another $40 million and a $45 million contract 
out for some of the same work that we are doing by the way with 
the same contractor. And of course, US-VISIT, which we just had 
a hearing on yesterday. So which, of course, has not gotten the 
exit part to that program.
    Yesterday when we had that hearing, we talked about how the 
Department has decided to push off the exit piece of that VISIT 
program to the airlines. I suggested that is not a good idea.
    Can you comment on that and do you still believe that that 
is where we should be putting the exit piece of that program?
    Secretary Chertoff. I am happy to comment; first I wouldn't 
want my silence to be taken----
    Chairman Thompson. If you would----
    Secretary Chertoff. I wouldn't want my silence to be taken 
as in any way acquiescing or agreeing in what I think is an 
incorrect characterization of how we have proceeded with 
Deepwater, TWIC or the virtual fence along the border.
    Deepwater notwithstanding problems that go back years, I 
think Admiral Allen has significantly reconfigured it. I have 
personally been on the first national security cut, it works 
very well. TWIC, although we are somewhat delayed in 
implementation, we are implementing it and it is moving 
forward.
    Finally, I disagree with the characterization that the 
virtual fence does not work. It works. We are deploying the 
next two stages of it working with the Border Patrol. Problems 
with fixed without the taxpayer paying any extra money. In 
fact, Boeing ate the cost of making those changes. So I just 
wanted to get that on the record.
    As far as US-VISIT air exit is concerned, as you know we 
got a lot of comments. This is an overdue project. Congress has 
clamored for us to do this. We obviously are going to evaluate 
the airlines comments. To the extent the airlines want to have 
the Government pay for this, that is going to be a budget 
issue. Congress can either decide that the Government shouldn't 
pay for it, it should be a carrying cost to the airlines, or 
Congress can decide they want to budget money to pay for it, or 
Congress can decide they want to abandon the whole program. 
That is just a money issue. We will certainly consider the 
airlines objections and that will come out, our proposal will 
come out in rulemaking.
    As far as the ultimate concept though, we are committed to 
it, we are ready to go with it. To the extent the airlines 
don't like the concept of making people have to check out, I 
point out that the airlines already have the obligation to 
check passports. I have seen the airlines write letters saying 
well, it will take an extra hour to give your fingerprint, and 
that is complete nonsense. I have seen it done myself. It takes 
about 10 seconds.
    So budget issues are going to be dealt with obviously in a 
way budget issues normally are. In terms of the concept we are 
ready to go, we are committed to doing it and however we wind 
up allocating the cost responsibilities between the airlines 
and the Government, I think it is long overdue.
    Ms. Sanchez. Mr. Secretary, we could certainly have a long 
discussion on all of those projects. I really differ with you 
with respect to how your department is getting those projects 
done. I was just down at Sasabe and Project 28, we are paying 
to have it redone, that is the reality of the situation on that 
project.
    But I want to go back to this airport issue because I do 
believe that biometrics and checking people's identity in this 
type of issue is not an airline responsibility. It is a 
responsibility of the United States. It is a responsibility of 
our Government to do. I have been very vocal in saying it is 
very unfair to have the airlines pick up the cost on that. So I 
think, you know, I am going to fight very hard for my 
colleagues to understand the importance of that issue.
    The last thing I wanted to ask you was there has been a 
spike in corruption on our agents along the border. Do you 
think that that is because of the increased number of younger 
and inexperienced agents and newer agents now that we have gone 
from the 9,000 Border Patrol agents to the 18,000 that we are 
trying to reach? What would you attribute to the problems that 
we are beginning to see within our own rank-and-file of our law 
enforcement there?
    Secretary Chertoff. I think, based on my general 
experience, I would say an increase in corruption is probably 
attributable to a number of things. One is the more agents, the 
greater the likelihood just on a percentage basis, you are 
going to have a few bad apples.
    Second, as we crack down on criminal organizations, they 
become more desperate. The desperation, usually in my 
experience, is reflected in one or two ways. Either they try to 
shoot the agents or hurt the agents or they try to bribe the 
agents. It is like with a police force when you start to crack 
down on criminals. So I have spoken to the commissioner and to 
the head of the Border Patrol. I know they are very committed 
to making sure we have a robust internal affairs function. We 
take seriously any allegation of corruption and we come down 
very hard on those who are corrupt. But I have zero tolerance 
for it, but if you ask me to explain why it increases, I think 
it is a natural function of both more agents, and frankly more 
vigorous enforcement which causes the criminals to become more 
willing to try to evade the law.
    Ms. Sanchez. Thank you, Mr. Chairman. I see my time is up, 
although I have millions of questions, as you know. Thank you.
    Chairman Thompson. Thank you very much. I now recognize the 
gentleman from Indiana for 5 minutes, Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. Thank you Mr. 
Secretary for being here today. I want to put forth a number of 
questions; sometimes when we send them written we don't get as 
thorough an answer. There are a couple of issues in particular 
that I have worked on in my career in Congress even before this 
committee was created, one being narcotics, and I co-chair the 
Narcotics Committee here, and have been a long time supporter 
of the Border Patrol of ramping up. But I believe one of the 
questions in response to Congresswoman Sanchez's comment is 
that agents should be polygraphed and would prefer that would 
be done internally as opposed to us having to do it. We do it 
in other law enforcement agencies, and I believe it is 
something to be considered when we are going from 3,000 to 
16,000.
    I definitely agree with your point that the temptations 
that attempts to penetrate are greater, these people on the 
front lines getting shot at more than ever. I don't mean to be 
critical at all. It is just a logical law enforcement thing to 
do.
    On a similar thing is that when you deal with narcotics, 
clearly most of the narcotics are coming across the border, 
whether it be cocaine, heroin, marijuana, meth or at least the 
precursors. One of the challenges we have in Homeland Security 
is that the focus has been so much on the line of defense of 
which I am a strong supporter of a virtual fence, a real fence, 
a pedestrian fence and as much as possible, as many Border 
Patrol agents as possible. Investigations are the key not only 
to the narcotics, but are the key to smuggling organizations. 
We have had so much focus on the Border Patrol that, in fact, 
we have seen an actual decline in the number of investigations 
personnel in the Department.
    The proposal that was originally drafted that I saw was ICE 
asking for 1,700 agents and it was whittled down to 150, which 
doesn't even cover replacement. That longer term, if we don't 
get this set right in this administration our investigation 
support is going to collapse. Similarly ICE, the title 21 right 
now requires DEA as a sole, and they have to give--I don't 
understand why ICE agents since the stuff is coming across the 
border to have to negotiate. I did the resolution this week 
praising DEA. I have been a DEA supporter my entire career. 
This competition between agencies just doesn't function. I need 
to know whether that can be done administratively or 
legislatively.
    Now if I can jump one other category and then yield what 
remaining time and get printed answers back. We have an unusual 
window with the National Park Service, while much focus has 
been on Arizona and California. I have talked to Mr. Ahern, I 
have talked to Director Chief Aguilar and others, but the 
superintendent at Big Bend National Park was at Oregon Pipe 
when the park ranger was killed. When that park was basically 
captured by the--and people can't go the trails and so on. He's 
now over at Big Bend. Big Bend, there is one crossing between 
El Paso and Del Rio and hundreds of miles. It is standing there 
as a long-term vulnerability. The Park Service, because you 
have a superintendent there briefly, has actually said as well 
as the regional director out of the intermountain division that 
they would like to work out something, yet under this 
administration, where agents can actually be based in the park, 
which is a sensitive issue. While your department is working it 
through, we really need to not get jurisdictional arguments 
about who is going to build the housing or whatever and get it 
done while we have a window to do it. Similarly, at Lake 
Amistad, where we have 280 bass tournaments in 360 days, 
intermingled with a huge area where the perimeter of the land, 
the Border Patrol and the Homeland Security needed a place to 
put their people, the Park Service is looking because they are 
in like a former abandoned gas station or whatever. If our 
agencies could work together at this particular point in time, 
we can potentially close down two of what are likely to be our 
biggest difficult areas. I would like to hear any comments you 
have.
    Secretary Chertoff. Let me say this, first of all to answer 
the last question first.
    Mr. Souder. Could you turn your mic----
    Secretary Chertoff. The Park Service is working with the 
Border Patrol and Customs and Border Protection. I think we 
have located a little over $3 million. We will go ahead and 
build the temporary housing in Big Bend so we can put some 
agents there. I will have to say we have a very good 
relationship with the park service and with the Department of 
the Interior. We are very mindful of the need to support and 
protect them and protect our national parks and wildlife so 
that people can visit it without getting shot.
    As far as polygraphing, I believe we are going to be 
polygraphing or we may already be doing it. People who are 
being recruited in the academy up front, and part of the reason 
we are going to do that is it to decrease unhappy surprises 
that sometimes a rise after a person has been admitted. So CBP 
is working on that.
    In terms of narcotics investigations, I think in general, 
we are very supportive of increasing the scope and capacity to 
investigate. We are working, not only of course with other 
agencies in the United States, but with the Mexicans on 
narcotics trafficking and gun-running.
    On the issue about Title 21 authority, there has been a 
little bit of, shall we say, administrative back and forth 
between DEA and ICE. I believe we can get this done as an 
administrative matter. I agree there is plenty of work to go 
around, so I don't think there is a reason to hoard it. I am 
more than happy to get a helping hand from another agency on 
our mission, and I think that another agency should do the 
same.
    I believe and I am committed to getting this jurisdictional 
flap taken care of during the balance of the year.
    Mr. Souder. One of the challenges as the Customs Agency is 
a historic financial leader in this and that narcotics requires 
this financial connection, and we are seeing a decline in our 
capability in and it is quiet because we are focusing on so 
much other things. But unless we address some of this we are 
going to lose the top flight financial tracking. Thank you for 
your tolerance, Mr. Chairman.
    Chairman Thompson. Thank you. The Chair would like to 
remind everyone in attendance, we do have a rule for the 
committee that cell phones need to either be turned off or put 
on vibrate and that is a friendly reminder. The next one, Mr. 
Pascrell will be appointed sergeant at arms.
    Ms. Brown-Waite. I apologize, I am the guilty party.
    Chairman Thompson. Well, there are more guilty people than 
you.
    Ms. Brown-Waite. I do apologize.
    Chairman Thompson. The Chair now recognizes the gentlelady 
from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I am mindful that the 
administration is on a slippery slope; you have less than half 
a year left. So I am just going to have some very specific 
questions that I hope we can make progress on.
    I will just note before I do that we really drilled down 
into the statistics in the Judiciary Committee on what is going 
on in terms of prosecutions. It is very clear from our work 
with you as attorneys office in DOJ that we have had a massive 
increase in sort of garden-variety prosecutions of nannies and 
busboys, and that has come at a cost of a 38 percent decline in 
prosecution of organized crime at the southwest border. I 
personally question that that is a wise tradeoff for us to 
make.
    But my question has to do with searches at the border. We 
received testimony in the Constitution Subcommittee of the 
Judiciary Committee about laptop searches. Recently, the USA 
Today pointed out that if you go into China they take your 
laptops and they take the information. Our colleague 
Congressman Wolf mentioned how intrusive this was. It turns out 
we do the same thing in the CBP.
    So the question I have really is what kind of policies do 
we have in place that guide us on the seizure of laptops, 
BlackBerrys, and other items? The business executives who have 
testified have expressed considerable concern about our 
policies wondering if there are written policies, establishing 
a standard procedures of laptops. Further, what policies we 
have protecting the integrity of the data: Policies that we 
might have for the length of time that seized data will be 
stored and where it will be stored. Whether downloaded 
information will be shared with other U.S. Government agencies. 
Policies for who within the Federal Government will have access 
to information. What rights do travelers have to ensure that 
their laptops or other electronic devices are returned? 
Further, whether our policies in this regard are accessible to 
the business traveling public.
    There has been a sharp decline in visitors to the United 
States, as I am sure you are aware. This comes at a time when 
the dollar is weak and it is easier and more financially 
attractive to visit the United States. I think many in the 
business community feel it is the unfriendliness of our 
policies as people enter. So we need to have security, but we 
also need to have a welcoming presence to visitors, including 
business visitors who are overwhelmingly not here to harm us, 
but to do business with us. Can you address those issues?
    Secretary Chertoff. I would be happy to. The issue, of 
course, of a friendly welcome at the border is a larger issue 
and we are doing a number of things with the State Department 
to try to make things more attractive. I actually believe our 
visiting levels are up to, are where they were prior to 9/11 at 
this point.
    Let me deal specifically with electronic devices and make a 
few points. First of all, I don't believe we are like China, we 
don't take everybody's laptops. Second, everything we do is 
constitutional, it has been repeatedly upheld by courts, 
including most recently----
    Ms. Lofgren. That wasn't my question. My question was do we 
have policy?
    Secretary Chertoff. But I just want to lay this out. It has 
been upheld by the courts, including most recently in the 9th 
circuit.
    The answer is we do have written policies. The written 
policies--actually we restrain ourselves in a way that goes 
further than the Constitution requires. I will give you a brief 
summary of what the policies are and they are written down. We 
do have them in writing.
    Ms. Lofgren. Where are they? Are they on our Web site?
    Secretary Chertoff. No, they have not been made public. I 
am willing to consider making them public. Generally we try not 
to tell things that will allow them to evade us. We have 
certainly found things on laptops like instructions for making 
IEDs, martyrdom videos and videotape session of child 
molesting, which I am sure we all agree we certainly don't want 
to let into the country. I have considered putting them on the 
Web site.
    Let me describe, though, generally what the policy is. 
First, we don't keep travelers' electronic devices permanently; 
we don't seize the device until there is probable cause of 
unlawful activity. Sometimes in order to facilitate a lawful 
search we need to copy information in a traveler's possession 
in order to get the assistance of an expert in terms of 
understanding. For example, it may be encrypted or it may be 
concealed in some way or may need to be interpreted in order to 
understand its significance. If after we review the information 
we don't believe there is probable cause to seize it, then we 
destroy the information, we don't retain it.
    Some information does get retained, even in the absence of 
a showing of criminality. For example if there is information 
that is relevant to immigration matters, and this would apply 
to foreigners, not to Americans. For example something that 
would be relevant to a future admissibility determination, then 
we will retain that information.
    If there is an intelligence value to something, connected 
with a national security intelligence value then we or another 
agency, intelligence agency may well retain that information. 
In any event the information is retained in a form that 
complies with our privacy rules as laid out in our statements 
of record notice under the various kinds of programs we are 
talking about. We also give special consideration to business 
and commercial information and attorney-client privilege 
information to make sure it is not disseminated outside of 
channels. So it is written. As a practical matter, we don't 
search anybody's laptop unless they have been put into 
secondary, which means there is at least an articulable 
suspicion, a reason to put them into secondary.
    Ms. Lofgren. If I may, the witness from the business 
community did a survey and found that 7 percent of the 
businesses they surveyed had lost a laptop at the border. For a 
small business, your laptop can be your business. I mean, if 
you have got all your data on the laptop. So certainly we want 
to have a prudent policy, but the concern that has been 
expressed has to do with protecting trade secrets.
    Secretary Chertoff. Right.
    Ms. Lofgren. Patents, attorney-client privilege and the 
like. I just think that to have some transparency to the 
business community on what the rules are in terms of retention 
would be a useful thing to do.
    Secretary Chertoff. Well, that is what I have tried to lay 
this out. I am certainly willing to seriously consider putting 
a copy of the policy up on the Web so it is visible.
    Ms. Lofgren. My time has expired, Mr. Chairman. I thank 
you.
    Chairman Thompson. Thank you.
    I now recognize the gentleman from Pennsylvania, Mr. Dent, 
for 5 minutes.
    Mr. Dent. Thank you, Mr. Chairman. Mr. Secretary, since 
this may be the last appearance before this committee by you, I 
want to thank you for your extraordinary and honorable service 
to our country. It is so much appreciated.
    I have a question and a comment regarding the fact that 
there are 139,000 individuals in this country who have valid 
removal orders against them. They are scheduled to be deported. 
They come from eight countries, China, India, Eritrea, Laos, 
Vietnam, Jamaica, and I am forgetting a couple. Their home 
countries will not take them back; they will not repatriate 
them.
    I believe the administration has some abilities to try to 
put some leverage over those countries to take back those 
folks. The Supreme Court has ruled that we may not hold people 
indefinitely. Some of these people may be released, and many of 
them have criminal records.
    Senator Specter and I and Mike Castle have introduced 
legislation basically asking that we withhold visas from those 
countries until they repatriate their citizens or withhold 
foreign aid in the event that they fail to repatriate their 
citizens. I would like to hear your comments on that, and we 
have legislation. Would you be supportive of that to force this 
issue?
    Secretary Chertoff. I publicly previously discussed the 
fact that, for example, the Chinese are not particularly 
efficient in accepting their citizens back from removal. Often 
the reason for that is because they insist upon checking the 
birth data at the place of birth. It is not computerized. It 
takes a long time to do. We, frankly, had a lot of back-and-
forth on that issue. We have--in the case of some countries 
that have been particularly difficult, we have actually 
suspended or threatened to suspend visas of, for example, 
diplomat families, and that has a tendency to wake them up. The 
Chinese did accept a--I think last year or 2 years ago, we had 
an issue in that we had an increase in flow-back.
    I don't know that we are where we need to be now. I think 
it is a serious priority issue to be raised with these foreign 
governments. Obviously when we deal with foreign governments, 
there is a lot of issues in play, no one issue dominates. But I 
would--certainly during my tenure, we have kept it as a 
priority agenda item, and I think the future administration 
ought to do the same thing.
    Mr. Dent. Thank you. I also noticed there were some recent 
articles appearing in some publications that reported that CBP 
is seeking to significantly increase the size of its fleet of 
Predator B unmanned aerial vehicles in the next couple of 
years. According to these articles, DHS has maintained that an 
increase in the numbers of its UAVs is an important component 
of its border security mission. Given that we are getting 
involved with all these Predators, I have been very supportive 
and this committee has passed legislation dealing with 
utilization, the Civil Air Patrol to help provide some 
additional aviation assets along the border. I often see that 
as a low-cost way to help put some additional eyes on the 
border. I just wanted to get your comments.
    I get the sense sometimes that the Department might be--you 
know, if they might not be able to control the Civil Air Patrol 
assets, that they might prefer to go other routes. I would like 
to hear your comments on this utilization of CAP in helping our 
border security mission.
    Secretary Chertoff. Well, first, I mean, I think we would 
be open to working with the Civil Air Patrol. They would have 
to obviously confirm to our operational plan. I think they are 
funded out of the Air Force. So it is a funding issue. It is 
not, however, a substitute for the UAV, because the UAV 
operates at a higher level. It is not visible in the same way 
as Civil Air Patrol is. We are, I think, looking to acquire two 
more this year. But I am certainly open to the Civil Air 
Patrol, if it can get funded, and if we can get their agreement 
to operate within our CONOPS.
    Mr. Dent. It really would require an agreement between the 
Air Force and the Homeland Security Department as long as both 
parties were willing to do so.
    Also, it is my understanding, too, that the Department is 
currently utilizing the ATS system, the Automated Targeting 
System, for passengers, as well as the APIS, the Advance 
Passenger Information System, to help identify airline 
passengers entering the country on international flights. Are 
you going to try to do anything administratively to allow this 
type of ATS data or APIS data to be used for all common carrier 
travel so buses and trains coming into this country--we passed 
legislation in the House several months ago as an amendment.
    Secretary Chertoff. I assume you are talking about again 
for international----
    Mr. Dent. Yes, international. Excuse me. Yes.
    Secretary Chertoff. I think we would be very happy to do 
that. What has been challenging has been the way that we 
operate with the ATSP, is it is reservation-based. For a lot of 
the bus and train travel, there is not really a reservation in 
advance.
    Now, the way we have dealt with that in general is we 
disembark bus travelers, and they go through the ordinary 
pedestrian foot process as if they were--the same process they 
would go through if they were in a passenger car. If we could 
get by the technical issue of the fact that the reservation 
system is imperfect for bus and train travel, I think we would 
be happy to use this technique as well.
    Mr. Dent. Thank you.
    I see my time has expired. I yield back.
    Chairman Thompson. Thank you.
    I now recognize the gentleman from North Carolina for 5 
minutes, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Secretary, let me join the others in thanking you for 
being here and your service. Being the administrator of a large 
agency is never an easy job, especially in these difficult 
times and the challenge you have.
    As you know, Congress has repeatedly authorized and 
appropriated funds to increase staffing of the Border Patrol. 
We have been talking about that this morning, and I have 
repeatedly supported that effort, as have many of my 
colleagues. In the President's 2009 budget request, he is 
asking for an additional 2,200 agents for the Border Patrol. If 
these are added--and you touched on this earlier in a response 
to Congresswoman Sanchez--that will bring you to about 20,000 
agents patrolling our borders, more than twice as many as we 
had in 2001. The big difference, of course, is that it is 
obviously making a difference, or should make a difference, 
reducing the risk of anyone who--coming into this country 
illegally and improve our homeland security. I must say I am 
pleased that the Department is doing a better job of hiring and 
recording--recruiting CBP agents.
    But my concern is in another area, and I hope you will 
touch on it. It really deals with training and retention. In 
2007, a GAO report--they report--the GAO reports that the 
Border Patrol is having trouble training and supervising these 
new agents. You touched on it a little earlier. At the same 
time, there are reports that about 20 percent of the new 
employees leave the Patrol in the first few years, and almost 
half the agents have less than 2 years of experience. Now, some 
of that, of course, I understand, goes--because you have added 
a lot of new people.
    So let me ask several questions, and let you answer them 
all at one time. What impact do you believe adding these 2,200 
agents to the field will have on supervision and training? No. 
2, what is being done to identify good candidates for a Border 
Patrol career, which I think is critical to this whole process? 
What steps are being taken to improve retention, which is also 
critically important? On average, how many years of experience 
do typical supervisory Border Patrol agents have, and has this 
number changed over the last 10 years; and if so, how? Finally, 
how are you working to hire, train and promote agents to 
supervisory roles, which is the critical piece, and control the 
number of agents each supervisory has to supervise over those 
agents under their command?
    Secretary Chertoff. Congressman, first let me say that some 
of the detail on this may be something I should have the Border 
Patrol get back to you on. But I think I can give you----
    Mr. Etheridge. Mr. Secretary, if you would just provide 
that in writing, that will help, too.
    Secretary Chertoff. I will. But I can give you an overview. 
Let me break down training and supervision. I am comfortable, 
because we spent a lot of time on this, that the training that 
is being afforded the Border Patrol agents coming on now is 
equal to or superior to what they have received in the past. 
There was of group of former agents who were originally 
skeptical, and they went down and visited in Artesia, and they 
came back with very positive reviews.
    In terms of identifying good candidates, one of the things 
we have done is we have looked seriously at the fact that 
people tend to want to work near where they live. One of the 
problems we traditionally had with recruiting and placing other 
than the Southwest is people from, let us say, the northern 
border areas didn't necessarily want to move. Now we are 
looking at a policy change where we would cycle people from the 
north--who come from the northern border through a period of 
time in the Southwest, but with the understanding that they 
would return ultimately and serve in the northern border near 
where their community is, which I think would broaden the pool 
of people we could attract into the Border Patrol.
    Mr. Etheridge. Similar to what we do in law enforcement and 
military?
    Secretary Chertoff. Right.
    We are also trying to get out more around the country to 
recruit. So that is our effort to get good candidates.
    I think you have identified what is the hardest piece of 
this, the long pole in the tent, which is the ratio of 
experienced agents to inexperienced agents. That is one of the 
reasons that--although we have scaled up the Border Patrol, we 
have not scaled it up as rapidly as some people would like us 
to do. You get critics on one side of the page that says how 
come we don't double the Border Patrol again to 40,000 or 
50,000?--and I think you are quite right, there is a limit to 
how many you can assimilate a year because you do want to have 
a certain ratio of experienced agents to new agents. That is 
part of how you learn on the job.
    I am comfortable with the numbers we have proposed fit 
within a reasonable ratio as people get more experience. If you 
were to come to me and say, we want to double the number, I 
might say, you know, I think time out. Frankly, when we have 
talked about these numbers with the Border Patrol, we have been 
very attentive to that issue. When the Commissioner or the head 
of the Patrol says, we can go this far, but we are concerned 
about going further, we take their advice.
    Mr. Etheridge. Thank you, Mr. Secretary.
    I will submit this in writing so the border agents can 
review the number and the retention numbers and get back to us.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Washington for 
5 minutes. Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I appreciate this opportunity to visit 
again with the Secretary.
    Before I get started, though, I would like to associate my 
comments with the Ranking Member Mr. King in regard to your 
position on this committee being the committee of jurisdiction 
for homeland security. I have had the opportunity to personally 
ask you those questions not only in this committee, but in the 
Transportation and Infrastructure Committee, and you have been 
consistent in your message there, and we appreciate that, and 
we hear you loud and clear. Both sides have had difficulty in 
lowering the number of committees that you report to.
    I would like to touch on, of course, the northern border, 
but first I would like to make a comment on--the last time we, 
this committee, passed legislation was in November 2005 that 
had to do with border security. It was combined with--we had 
H.R. 4312 and 4437 passed on the House floor back in 2005, and 
unfortunately this was the last time the House Committee on 
Homeland Security has considered legislation directly aimed at 
securing our Nation's borders. Put more simply, it has been 
1,249 days since the committee charged with securing our 
Nation's borders has passed border security legislation.
    So in my home State of Washington, we have a major 
international border crossing with Canada. As such, I am a 
member of the Border Maritime Subcommittee, and even this 
subcommittee has not--with its focus on border security cannot 
be credited with passing a single piece of legislation during 
the 110th Congress.
    Protecting our border security is too important to not act, 
and I implore Mr. Chairman to please take some action on at 
least 1 of the over 40 border security bills that have been 
referred to this committee that I think would be a benefit in 
helping Mr. Chertoff and Homeland Security employees in 
securing our country's borders.
    So, Mr. Secretary, when you last appeared before this 
committee, I had asked you a question about the current state 
of the operations center at the northern border. It is supposed 
to be established leading up to the 2010 Olympics in Vancouver. 
Could you give me a brief progress report?
    Secretary Chertoff. All the agencies are--both in our 
country and in Canada--are working together. They have actually 
been working for some time on preparing for the Olympics that 
are coming up. We have money in the President's budget that 
would stand up the center and get it up ready in time for, I 
think, June 2009, which is the target. Of course, that depends 
on getting appropriation for 2009. Without the appropriation, 
we have to find some way to fund it, which is going to be 
tougher. So it is another really good reason to get an 
appropriations bill.
    Mr. Reichert. Do you see any benefit in establishing a 
long-term operations center on the northern border of 
Washington State?
    Secretary Chertoff. I think my experience is once we have 
it and it works, we are probably going to want to keep it.
    Mr. Reichert. That is good to hear. Thank you.
    When you last appeared here, also you mentioned many of the 
solutions in the northern border are--much more technology 
indeed on the southern border and intelligence-based 
technology. In your testimony, you specifically mentioned you 
expected six unmanned aerial vehicle systems in the northern 
border in place by the end of the fiscal year. Can you give me 
a status on that?
    Secretary Chertoff. Yeah. Actually--maybe there was a 
mistake. We should have six by the end--systems overall by the 
end of the year. We are going to send at least one system up to 
the northern border this year. I don't know whether we are 
going to send a second one up. We are also, however, piloting a 
version of SBInet in certain parts of the northern border this 
coming year. We are continuing to deploy sensors, and we will 
have our fifth air wing is going up in August.
    Mr. Reichert. The SBInet was my next question. You have 
answered that.
    Mr. Chairman, I yield.
    Chairman Thompson. Thank you.
    I will now recognize the gentleman from Texas for 5 
minutes. Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman. Thank you for holding 
this meeting.
    Mr. Secretary, we want to thank you for your service. I 
know it is a difficult job, but we really appreciate what you 
have done, of course your visits down to the border. I know you 
have been down there several times, and we appreciate the work 
that you have done.
    One of the suggestions I would ask you is on the culture in 
the agency, that I seem to feel and some of the Members feel 
that it is sometimes--there is a feeling of a ``us versus 
them'' type of feeling from the agency, for example, on the 
national emergency communication plan that--as you know, there 
have been deadlines that have been missed, and hopefully by the 
end of the month we will get this. We couldn't even get an 
executive summary from your agency, even though we said, hey, 
we are the oversight, and we would like to see this.
    I would ask you to just work during your remaining time in 
your tenures to try to lower this culture mentality of us 
versus them because we are on the same team together. So I 
would ask you to do that.
    I think you have been doing a good job in several areas. 
The BEST program that you have been expanding, that is a good 
success story. I want to thank you for that. The wind farm--I 
know Paul Schneider and yourself and other folks have been 
working with us in south Texas on the border area. I believe 
that will be a model because, as you know, there has been a 
little tension between setting up the wind farms on the border 
area for security reasons. But I think we can accommodate the 
interests. I think if we are able to work this out in the south 
Texas area, this could be a model for wind farms because I 
think we are going to be talking about wind farms in the 
future. So I would ask you to just continue the good work and 
expedite that as much as possible.
    The cane eradication, I know we are about to announce that 
in the border area. I want to thank Greg Giddens in your office 
for doing good work. I would ask you again to just work with 
the local folks. The soda and water folks have been working 
there because they think they can do it on a more cost-
effective area. So I want to thank you for those successes.
    You know, I have been talking to you about personal issues. 
The CBP, we have been doing a good job of adding more of the 
men and women in green Border Patrol, which I support. But the 
men and women in blue for our ports of entry--there is a famous 
letter--we have been waiting. I am not even going to ask you 
because I am sure the letter is not ready, and I can understand 
the politics it has not been ready. But I would ask you to do 
whatever you can to look at the border infrastructure and 
adding more men and women in blue for our ports of entry.
    The Office of Air/Marine, I asked the Coast Guard, Admirals 
Justice and David Aguilar, to come up with a plan as to how 
they can put more speedboats on the border, on the Rio Grande. 
We are still waiting for that. I would ask you if they can have 
that plan ready for next week because that would provide us 
another layer of security to have those boats actually in the 
Rio Grande, the navigable parts. I would ask if you could get 
them to come and report to the committee and to myself on that. 
I would appreciate that.
    One area that I would ask you to look into is--I know that 
Michael McCaul--we were actually with the Attorney General in 
Mexico when you placed that phone call on the agent that got 
killed, the Montes individual, the Mexican suspect, and we 
appreciate that. But one of the things that I would ask you to 
look into is the--Mexico faults the United States for not--for 
the release--as you know, the suspect was released--the Mexican 
Embassy is basically saying that the United States never asked 
for an extradition. I do understand they put another order to 
get this person arrested. But I want to ask you, do you have 
any information--did we ask for that extradition? Because I 
know you made the phone call. But what happened in this 
situation?
    Secretary Chertoff. I am really limited for the following 
reason: A lot of the stuff that goes on in this area of what 
the Justice Department is doing to pursue the prosecution of 
the case is, first of all, not in my Department. Some of it is 
covered by grand jury privilege and stuff. So I really can't 
speak for them.
    I can tell you that it was made very clear at the outset of 
the whole matter, the very beginning after the agent was 
killed, and I had personal conversations with senior Mexican 
officials on this, that it was very important for us to have 
this individual apprehended. I have to say the people I dealt 
with in Mexico were extremely responsive.
    I can't explain why this individual was released. I don't 
know enough of Mexican law to understand why that happened or, 
you know, the details of that. But, of course, once we learned 
about that, I spoke again to--as you pointed out, to the 
Attorney General. We talked about the urgency of finding this 
person again. I wish I could go beyond that. A lot of it is 
covered either by grand jury investigative privilege, and I 
can't speak for the Justice Department, but I can tell you 
this: As far as I am concerned, there is no higher priority for 
me personally than to see to it that the individual whom I 
believe--and everybody is presumed innocent--but the person who 
I believe was responsible for this is apprehended and brought 
to face justice. As far as I am concerned, that is the No. 1 
priority.
    Mr. Cuellar. I appreciate that. I know you personally were 
there when you made that call.
    Let me ask you, without going into any of the testimony, 
did we present the extradition order? Because the Mexicans are 
saying it was not done. Can you at least say was there an 
order----
    Secretary Chertoff. I think--I am constrained, because--the 
last thing I want to do is say something and then have the 
Attorney General call me up and say: Why are you talking about 
stuff in my Department? You are messing something up. So 
although I would like to have a fuller conversation with you 
about this, experience and discretion suggest that I ought to 
let the Attorney General decide what he can tell you.
    Mr. Cuellar. I will respect that.
    Alas, my time is up.
    On Operation Stonegarden, that is another success story. I 
ask you to just continue working with the local law enforcement 
officials because we supported the Merida Initiative, which is 
a--it was a smart thing for the United States to do. But some 
of the local law enforcement officials are saying, do more for 
us on this side. So whatever you can do to continue expanding 
the Operation Stonegarden, I would appreciate your work.
    Again, I thank you. My time is up. But I want to thank you 
for the service that you have provided to our country. Thank 
you, Mr. Secretary.
    Chairman Thompson. Thank you. In conjunction with that, we 
received a letter from the Department basically indicating just 
what the Secretary said, that is an ongoing investigation. But 
I think the question about whether or not the documentation was 
provided is essential because you don't want to compromise 
getting someone because someone dropped the ball.
    Mr. Cuellar. Right.
    Mr. Secretary, if I can--I mean Mr. Chairman. You are 
right. We don't want to go into the details, but the Mexicans 
are basically saying there was no order, the evidence was not 
provided. As you know, they have a different code over there. 
The--more the Napoleonic Code. It is a different way, but it is 
just important if we get the paperwork.
    I don't want to get into the details. I don't want to 
compromise the investigation. I understand that as an attorney. 
But it is just basically we have just got to make sure we don't 
drop the ball, especially in this very sensitive, because the 
media was bashing Mexico, especially this Merida Initiative, 
and I just want to make sure that we keep working together.
    Secretary Chertoff. No. I agree with you. I just think the 
Attorney General is the right person to decide what can be 
disclosed and what can't.
    Chairman Thompson. I now recognize the gentleman from 
Texas, Mr. McCaul, for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service to the country. 
You serve with distinction. I hope this is not your last 
appearance before this committee.
    I want to follow up with Congressman Cuellar, though. We 
were down in Mexico City meeting with the Attorney General when 
this Border Patrol agent, Aguilar, was killed by a drug 
smuggler. I know you expressed great outrage over this, as did 
I. The news of his release by a Mexican judge, I think, created 
even more outrage. But it has been reported that--and you and I 
served in the Justice Department, and I know you are 
constrained in your remarks, but it was reported that the 
provisional arrest warrant was not--for extradition was not 
served until a week after this defendant was released. I would 
like to get to the bottom of this.
    I don't know if you are in a position to answer when this 
was served. I sent a letter to the White House and the Attorney 
General on this issue, and I would like to at least know that 
much. Also if they had--I know these take time to put together, 
but certainly a criminal complaint could have been filed to at 
least stop the clock on this guy. So I just wanted your 
comments.
    Secretary Chertoff. Yeah. You know, I--here is my problem. 
I can't speak for the Justice Department, and whether I think 
something can be disclosed or not is not determinative. I owe 
it to my colleague, the Attorney General, to allow him to 
decide what can be disclosed and what can't be.
    The only thing I can tell you is that I have made it 
abundantly clear from the first day that Agent Aguilar was 
killed and I met with his family that as far as this Department 
was concerned, we wanted the Department of Justice to do 
everything possible to bring this individual to justice, and 
also we wanted the Mexicans to apprehend him.
    So I have as keen an interest as you do, maybe even keener, 
in making sure that everybody did everything they could. Beyond 
that, though, I would be getting into talking about things 
which I don't think it is my right to talk about. I think it is 
really the Attorney General that can decide what can be 
disclosed what can't be. He knows what is under seal and what 
is not under seal. So if I start down that road, I am doing a 
disservice to him as well as the case.
    Mr. McCaul. I can certainly appreciate that, but I do think 
we in the Congress are entitled to some answers, and I hope the 
ball is not dropped in this case. Certainly a marker could have 
been put down for extradition so that we wouldn't be in the 
situation we are in today.
    Having said that, I do want to focus also on, being from 
Texas, the border issues. Streamline, Stonegarden I think have 
worked well. We are getting ready to meet with the border 
sheriffs actually on Monday, Congressman Cuellar and some other 
Members of Congress. Do you have a message for them first? 
Second, if you were in our shoes, what can we provide more in 
terms of resources to help with that situation on the border?
    Secretary Chertoff. Well, you know, again, I don't want to 
harp on the budget. We built in the President's budget, and I 
think it has survived in both markups, funding that will allow 
us to complete what we need to do next year in terms of the 
infrastructure, the Border Patrol hiring and training. All of 
this makes a big difference.
    There are some other things that help as well, because, as 
you know, the interior enforcement is an important part of 
protecting the border. If people don't come in to work 
illegally, then they don't try to cross the border. There I 
think it is critical to get E-Verify reauthorized. It is a 
great program. It helps us work. We are going to be getting our 
no match regulation out. We are going to have to fight within 
the courts again, and some legislative help with that might be 
welcomed.
    You know, we have turned the corner on this. We have really 
started to move the ball in the other direction, but that is 
only going to work if we keep the pressure up. Now, I have 
always said that I believe ultimately a solution requires a 
comprehensive approach and a temporary worker program to bring 
people in legally. But at a minimum, we need to continue to 
build on the progress we have made. So getting the money in 
place, reauthorizing E-Verify, these, I think, are at a minimum 
what we need to continue to do what we are doing.
    Mr. McCaul. Would additional funding for operations like 
Stonegarden and Streamline be effective?
    Secretary Chertoff. Again, getting the budget for 
Stonegarden that we allocated for Stonegarden in 2009 would be 
very helpful. With Streamline, that has turned out to be a 
phenomenally successful program. That is going to require not 
just, however--it is going to require funding for prosecutors, 
judges, or at least magistrates, as well as agents. So I would 
say that I am more in favor of supporting that with further 
funding. It has got to be done in a balanced way so that we 
don't break the pipe.
    Mr. McCaul. Just one last question, if I can. We also just 
returned from Pakistan, Afghanistan, went right up to the 
border where the tribal areas are, the Fatah. This is an 
increasing concern from not only the threat to our troops in 
Afghanistan, but the homeland as well in terms of protecting. I 
think if there is another attack, it is going to come out of 
this area. I know you are focused on that.
    There is also another issue of American children being 
trained in these madrassas with legal passports to get back 
into the United States. That is of tremendous concern as well. 
I know that you are aware of this issue and that you are 
monitoring the issue. But I just raise that as tremendous 
concern for me and a lot of Members.
    Secretary Chertoff. I think that--I am not the only person 
who said it, I have said it before. What is going on in the 
frontier areas there is at the top of my list of concerns about 
where our next few years are with respect to international 
terrorism. The more time and space al Qaeda has, and its 
militant allies, you know, Baitullah Massoud and the others, 
the more time and space they have to train and plan and operate 
and experiment, the more problems we are going to have in the 
pipeline headed both toward Europe and toward us. From a 
foreign policy standpoint and homeland security standpoint, 
that has got to be--there is nothing more important than 
addressing that issue.
    Mr. McCaul. I agree. Thank you so much.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. The gentleman's time has 
expired.
    For the record, reference has been made a couple of times 
about budget and border security, and I would like to say that 
in the fiscal year 2008 budget, as you know, Mr. Secretary, 
border security and immigration enforcement received $1.4 
billion more than the administration requested. So I think this 
Congress has been more than supportive of border enforcement. 
There are enough laws on the books. All we have to do is give 
you the money, which we are more than agreeable, based on past 
practices.
    Secretary Chertoff. I agree with that. I am happy--I didn't 
want to be taken as ungrateful. I am very thankful. This 
Congress has been tremendously supportive, and we have made 
good use of this support and just want it to continue.
    Chairman Thompson. Thank you. I just wanted to get the 
other side of the coin in.
    Now I recognize the gentlelady from California for 5 
minutes. Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. You have one of the toughest jobs 
in Government. I want to thank you for your service and for 
your many courtesies to me and to my constituents and your 
frequent visits to southern California. We need your attention 
focused on the ports of Los Angeles and Long Beach; on LAX, the 
top airport terror target; and a lot of the other both problems 
and successes that are recurring there.
    Let me just endorse the last conversation that you had with 
Mr. McCaul. From briefings I have had and from statements in 
the public press, I concur totally that the most dangerous 
place on Earth at the moment is the tribal areas of Pakistan 
and the fact that Westerners are training there. We know this. 
It has been in the public press. We know more than this, which 
I am not going to talk about. But I worry. I think this 
President and the next President must focus on a better 
strategy for Pakistan.
    Anyway, moving along, let me associate myself with a couple 
of comments you made in your opening remarks. First about Tony 
Snow, I think on a bipartisan basis he impressed all of us, and 
his personal courage at the end of his life is a lesson for all 
of us.
    I also endorse your statement about this committee's 
jurisdiction. We should be the entry point of contact for your 
Department. We should have, in my view, more jurisdiction than 
we do. But at any rate, when Congress finally simplifies 
jurisdiction over Homeland Security, it should move on over 
here. I appreciate the fact that you agree.
    I want to just take my 3 minutes left and talk about what I 
think is the biggest threat--the really biggest threat to our 
homeland in terms of a terror attack, some of which could come 
over our borders, and that is an attack from or several attacks 
from dirty bombs. I have worried about this a long time. Many 
of us have. I think there is a possibility that the dirty bombs 
are here, and I want to commend you for your focus, along with 
the focus of many on this committee, on radioisotopes that are 
in medical machines and elsewhere that, if they can be secured 
by bad guys, could become dirty bombs. Thank you for your 
efforts to do that and for your efforts to push the NRC to do 
more.
    But let us talk about the possibility of radiological 
materials coming across our borders. I know from talking to you 
and from seeing some of your initiatives like the Small Vessel 
Strategy that you think that general aviation and small boats 
pose a special risk, and I want to give you an opportunity to 
talk about that. The Wilmington marina is in my district. It is 
adjacent to the Nation's largest container ports. Could you 
tell us what you are doing, and how crucial it is that you do 
what you are doing, both about marinas and about general 
aviation?
    Secretary Chertoff. First of all, I appreciate your focus 
on this issue. I know we have talked about it a lot. I know 
that you regard this--you know, the possibility of a WMD or a 
dirty bomb is a really important thing to focus on, and I 
applaud that.
    A couple of things. In terms of small boats, the Commandant 
of the Coast Guard, working with CBP, has put together a small 
boat strategy, and there are a couple of elements to that, and 
some of them, frankly, are not necessarily going to be happy 
for people in the industry. One element is we are running pilot 
programs currently now in northwest Washington, I think also it 
started in San Diego, to see whether we can use detection 
equipment to detect radiological material at certain critical 
choke points if it comes in through--in the hold of a vessel, a 
small vessel.
    A second thing that would be critically important would be 
to have better visibility on traffic that is coming in overseas 
by sea. Right now I think 300 gross tons is the cutoff below 
which you don't need to have a transponder and notify us that 
you are coming in. We may need to drop that, frankly.
    On the general aviation side, we have a rule--a notice of 
proposed rulemaking for general aviation, which I am expected 
to finalize this year, that will require advance notification 
of the manifest of general aviation coming in from overseas. 
But the second piece of this is actually requiring prescreening 
of general aviation for radiation. We are signing agreements 
now with a number--or negotiating agreements with a number of 
countries for potential prescreening. We are talking to the 
fixed-base operators overseas about possibly prescreening 
there. I don't know that we will be able to get a regulation 
out during the balance of this administration, but I am going 
to put near the top of my list of priorities for the next 
Secretary getting that regulation out.
    I am going to tell you right now, you are going to get 
squawks from the general aviation people. But I will also tell 
you that I had the president of a leasing company come to me 
about a year ago and say, I am worried about this because I 
don't know who gets on my planes, and I think quietly a lot of 
these general aviation people would acknowledge that this is a 
vulnerability.
    Ms. Harman. Thank you. My time is up.
    I just want to say that I agree with you, and those folks 
who will be squawking should realize that if they are on a 
plane with a dirty bomb under it or right next to them, they 
are not so safe either.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from Florida, Ms. 
Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman.
    Mr. Secretary, you have a very tough job because of all of 
the departments that were combined under Homeland Security. I 
have had many visits from some of the staff down at the Port of 
Tampa. I have written you, I still do not have a response, and 
I certainly gave the Chairman as well as the Ranking Member a 
copy of that letter, and it involves excessive numbers of EEO 
complaints, discrimination, policies that are certainly not 
uniformly applied. I recently was told that because I wrote 
these letters pointing out the problems with the--the problems 
at the Port of Tampa, that some of the people have been moved 
to other areas.
    If you have problem supervisors, I don't think moving them 
solves the problem. I think that all you are doing is moving 
the problem elsewhere. While it might have been--the port, by 
the way, isn't even in my district. It just happened that some 
constituents worked there, but it would go from perhaps my 
district to Ms. Harman's district if all you are doing is 
transferring the people who are the problems around.
    I still have not received a response to that letter. Is the 
fact that these people were transferred the response? If so, 
that doesn't solve the problem, sir, with all due respect.
    Secretary Chertoff. Well, you should get a response to the 
letter. We are usually pretty good about turning responses 
around. I will find out why you didn't.
    EEO complaints, there is a problem of adjudicating them, 
determining if they have merit or not, and then, depending on 
the outcome, appropriate action is taken. I can't--I can't give 
a general abstract answer to whether moving someone is a 
sensible response in some cases or not.
    Ms. Brown-Waite. Well, there is also the issue of training 
in firearms, whether the supervisors are getting special 
treatment where they can get certification on the outside 
because they could not pass the internal tests. So there are 
many issues in that letter that I address, and I would really 
certainly in the next couple of weeks appreciate a response.
    Please look at the claims of discrimination, claims of 
discrimination against Hispanic-speaking individuals. This has 
been an on-going problem; indeed some of the people in the old 
article, in the Miami Herald article that I also enclosed, some 
of the people from before you were Secretary, before it was 
actually Homeland Security, they were the ones that were--who 
continued to cause the problem.
    I know how hard you are trying to go out and recruit for 
positions, particularly for Border Patrol. I recently had a 
question come up of a person who has 20 years of law 
enforcement experience, almost 20 years, who took the test. 
Only after he took the test was he told, well, sorry, you are 
37 years old, you are beyond the age when we can hire you. Are 
there any exceptions made particularly because of the fact that 
you need to get these people up and on the job, are there any 
exceptions that are made for someone who does have that kind of 
a background?
    Secretary Chertoff. I don't know if there is an exception 
to the age requirement. Obviously we want to recruit people 
with background. That is a positive thing. But I would have to 
ask the Border Patrol to get back to us on what the age limit 
is and what the exceptions are, if any.
    Ms. Brown-Waite. Apparently he took the test when he was 
36. When he got the results, he was 37, and he got a call and 
said, I am sorry, you are disqualified.
    Secretary Chertoff. I just don't know what the cutoff is, 
but I will have somebody----
    Ms. Brown-Waite. Okay. Particularly because there are so 
many vacancies, maybe you could look at that not just for my 
constituent, but anyone else's constituent that would be in 
exactly the same situation. I think it would be a good idea to 
fill the ranks with people who understand law enforcement, who 
have the kind of background, have the drive and want to be 
there.
    Secretary Chertoff. Sure.
    Ms. Brown-Waite. I appreciate that.
    With that, I yield back the balance of my time.
    Chairman Thompson. I thank you very much.
    The Chair would like to share that the Department actually 
raised the age limit to 40 to accommodate picking up people 
like you are talking about. So there is some latitude already 
to help your situation, Ms. Brown-Waite.
    Ms. Brown-Waite. Mr. Chairman, thank you very much. He just 
called this past week, so apparently that information hasn't 
gotten down to the field, because he was called and said, 
sorry, you don't qualify.
    Chairman Thompson. Well, I think if you will provide 
somebody who is with the Secretary with the name of that 
individual before the day is gone, I am sure you will--that 
person and you will be contacted.
    Ms. Brown-Waite. I appreciate that very much. Thank you.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Pennsylvania 
for 5 minutes. Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Secretary Chertoff, thank you once again for your 
tremendous service. Kind of the silver lining in the cloud of 
your departure at some point is you can spend more time in Pike 
County, and we are very happy to see you there, sir.
    Secretary Chertoff. Always good to be there.
    Mr. Carney. I have a couple of questions dealing primarily 
with border issues. One is Operation Jump Start, it is ending 
this week, as I understand. What we have heard from the Border 
Patrol is that they like the help from the National Guard and 
the Reserves. Do you think we should continue this operation? 
Is there a necessity for it? What do you think?
    Secretary Chertoff. Well, first thing is although Jump 
Start was a specifically focused effort on the National Guard, 
we have traditionally even before, and it will continue after, 
use National Guard at the border as part of their regular 
training mission. So we will continue to see them.
    I think, you know, it was very clear up front it was meant 
to fill a gap while we did two things. We found clerical people 
to come and free up some of the Border Patrol that were sitting 
in the back office, and that has been done; and also raise the 
number of Border Patrol, and we have basically done that. So I 
think in fairness to the National Guard, which has also got to 
face firefighting missions in California and flood missions and 
all the other missions around the country, I think in fairness 
we are releasing them back to the normal level of their 
participation, which is still very considerable and is 
appropriate.
    But I do want to emphasize we have always used the National 
Guard for counterdrug enforcement, for--under the training 
rubric, as well as for other activities, and we will continue 
to do so as customary.
    Mr. Carney. Thank you.
    Now, I want to shift a little bit over to SBInet. As you 
know, my subcommittee spent a lot of time looking at that. I 
have been to Sasabe twice, just most recently here in May, and 
I was encouraged by what I saw with Tucson-1. I think that next 
major deployment of SBInet is a good thing. But unfortunately, 
in the last few weeks, just recently I began to hear some 
troubling reports that suggest to me some of the mistakes that 
were made by Project 28 are being repeated. I think probably 
the single thing that concerns me the most is the timing seems 
to be driving the agenda more than actually being able to 
deploy it in a meaningful way. The drive to make it operational 
by the end of the year seems to me an issue that creates the 
problems that we saw with Project 28. We know that the Project 
28 problems occurred largely because there was no integration 
testing done, and the requirements were not clearly defined, 
which we saw that. Unfortunately I am hearing the same kinds of 
things coming from the Tucson-1. The testing schedules are 
being compressed; component testing has been eliminated or 
scaled back tremendously. The test plans are inadequate, if 
existing at all, and the capabilities are being delayed for 
later deployments. Some of the requirements can't even be 
tracked or traced. And this is the Tucson-1 project. We are not 
talking about P-28 anymore.
    We are talking about moving forward, and the common 
operating problems still exist. Those requirements haven't been 
fully defined yet either. So why are we moving ahead? I hope it 
is not driven by politics. I hope it is just not to have an 
end-of-the-administration success on the border at the expense 
of actually accomplishing what we want to accomplish.
    Secretary Chertoff. I can tell you it is definitely not 
driven by politics. The basic requirements are that, of course, 
this time the Border Patrol is working side-by-side with the 
contractor. The integration has to be fully tested before it 
actually goes up on the towers, unlike last time, so we are not 
going to discover that it doesn't work after it has been 
installed. We do generally set deadlines because otherwise 
things tend to drift, but deadlines are meant to be, you know--
if there is a good reason to delay something, then you delay 
it, but it--there has got to be a good reason.
    So I think philosophically we are on the same page. We 
can't waste time. We have got to set milestones, but in the 
end, if there is a problem, you have to address the problem 
first. I think that is my mandate to the Border Patrol. That is 
consistent with what CBP and the Border Patrol want to do with 
this project.
    Mr. Carney. Good. Then those problems I enumerated I hope 
can be addressed right away so we do the right testing and the 
right definition of requirements, et cetera. I mean, that is 
essential. That is what didn't happen in P-28, what has to 
happen now.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    I will now recognize the gentleman from Alabama for 5 
minutes. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I, too, want to congratulate you on your service, and thank 
you for all you do for our country.
    Talking a little bit about ICE. We have made, as you know, 
dramatic increases in staffing in CBP, and I think we need 
more, but I think we have come a long way. But ICE has been 
flat in their staffing in the last 5 years. Could you tell--I 
know the Chairman referenced this. We put a lot more money into 
ICE mainly for beds, but when do you see us addressing this 
staffing problem?
    Secretary Chertoff. If I am not mistaken, I don't have the 
statistics in front of me, when we talk about detention and 
removal, and we put money in the budget for that, that also 
includes commensurate increases in staff. I know we have 
doubled the fugitive ops teams from where they were a couple of 
years ago. So we have increased the staffing levels at ICE, and 
there is more increase in the budget.
    You know, my view is you have got to look at the whole 
thing as a system. It makes no sense to just increase one part 
of the system and not make sure that it is proportioned to the 
rest of the system. So, you know, we have apprehension, 
removal, catching people at the border, with the interior 
investigating all that stuff has to proceed in tandem. So I 
anticipate we will continue to do that.
    Mr. Rogers. If you could get me the information that shows 
that you have increased the manpower at ICE, because I met with 
the deputy in that department, and they told me they had zero 
increases, that they had just replaced people that had retired 
over the last 5 years. It has been completely stagnant. So If 
you could get me some----
    Secretary Chertoff. I will be happy to do that.
    Mr. Rogers. I would appreciate that, because I have had 
some sheriffs talk to me about the fact that they don't even 
call ICE anymore when they detain somebody who is an illegal 
because ICE just doesn't have the manpower to come and get 
them. That is just really frustrating for me to hear, 
particularly when I get so much feedback from my constituencies 
about their concerns about illegals in the community.
    Secretary Chertoff. I know we have put more money into 
removing illegals from jails. The problem we always have, of 
course, is we try to do it in a way that--we don't want to just 
make a series of one-off trips. We want to try to collect them 
and do a bunch of them, and that is also one of the reasons we 
do 287(g).
    I will make sure we get you the numbers on the staffing 
levels.
    Mr. Rogers. But you would agree that if the local law 
enforcement agency, whether it was a sheriff's department or 
police department, detains an illegal, and they call ICE, that 
ICE should come and get that person?
    Secretary Chertoff. Yes, but I guess I have to say that 
since there is--in any given area, if there are 19 sheriffs, 
and every day you get a call and you have to go out and pick 
somebody up, that is very time-intensive. So to the extent we 
can collect things together or do some prioritizing, you know, 
that is just kind of a feature of good management of a budget.
    Mr. Rogers. The Center For Domestic Preparedness, I was 
very pleased when a new superintendent was named this week. But 
I am also concerned about staffing there. You know, we have got 
50 authorized Federal positions. As you know, there is over 800 
contractors out there, but 50 authorized positions, and only 35 
have been filled, and they are really struggling with oversight 
with the contracts out there and making sure things move 
smoothly. Do you know why the other 15 haven't been funded?
    Secretary Chertoff. I think they are funded. I think they 
haven't been filled. I think somewhere up to 10 are going to be 
filled in the next very short period of time. We have been 
recruiting them, and they are through the process. So I am 
informed that we should be at 90 percent or better staffing in 
the very near future.
    Mr. Rogers. Excellent. Thank you.
    The last thing I want to ask you about is the 10 plus 2 
rule. I have got a letter from 40 major associations expressing 
their concern about its effect on their ability to do their 
business. They have asked for, I understand, in a letter to 
you, a pilot program that would take a small area and number of 
companies and run for maybe 6 months to a year to see how it 
works before it is mandated. Do you know if that is an option 
that you are considering?
    Secretary Chertoff. Let me put it this way: Before we come 
up with a final rule, we will consider all options, but this is 
a congressional mandate. Congress has, I think, wisely mandated 
that we collect some more information about containers coming 
into the country. We have actually been dry-running this for 
some period of time. So I think we actually know that it works, 
and the CBP informs you. They are comfortable this is doable 
now. When a rule is issued, there will be an implementation 
period, so it is not going to be like the day the rule is 
issued, everybody has got to provide the additional 
information. We recognize it may take up to a year to 
reconfigure.
    But I worry a lot that sometimes the request for a pilot 
program really is delay this until the next administration, and 
let us try to kill it. You know, since there has been a lot of 
emphasis on container port security over the last 4 years that 
I have been here, this is low-hanging fruit. This is a really 
important thing. Congress recognized that it was a part of the 
Safe Ports Act. So we are going to give people time to 
implement, but I don't think we are going to be in the mind to 
kick the can down the road.
    Mr. Rogers. Okay. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Secretary, you have helped the Members considerably in 
providing geography lessons so that we do know that we have 
many borders, not just one border. But I think we have come to 
the conclusion, and I trust you agree, that we are not going to 
have a comprehensive immigration reform unless we have border 
security.
    Okay. Having said that, how long is it going to be? How 
long is it going to take us to get to the point where you can 
say to us in defined terms the borders are--plural--the borders 
are secure; now it is time that we have, if the Congress so 
chooses, border immigration reform?
    Secretary Chertoff. I am going to speak personally here. I 
think that properly done, immigration reform actually helps 
border security, because if you can find a legal way to bring 
in workers to satisfy the economic need, then those workers 
aren't going to cross illegally, and that takes a lot of the 
pressure off the borders so that--although if we just did 
enforcement alone, we can get there. We can actually get there 
more quickly if we combine it with a temporary worker program 
and other reform measures.
    Mr. Pascrell. So you wouldn't accept as what has become, I 
think, an excuse that we will come to a point when we say, we 
should be working in parallel forces that help one another, 
complement one another? Is that what you are saying? That is a 
strategy?
    Secretary Chertoff. Right. My view is that we should 
continue to move forward on the enforcement side, but we need 
to--we can enable enforcement by looking at a temporary worker 
program that will lift some the economic pressure off the 
border. That will actually accelerate both. But I also believe 
we have to convince the public that we are serious about the 
enforcement side, and that there will be follow-through, it 
won't just be abandoned as if it was kind of the price to pay 
to get the other part. It has really got to be--we have to give 
credibility to the American public on the willpower issue.
    Mr. Pascrell. Let me get into the subject of profiling. I 
have seen what you have written, and I have heard what you have 
said over the last couple of years, and you are in a very 
sensitive position on this, not very different than the first 
set of questions. Let me say this: Would it be safe to say that 
this is how the Secretary feels about profiling, that you see 
merit in behavioral profiling, but none in racial and ethnic 
profile?
    Secretary Chertoff. That is correct.
    Mr. Pascrell. Would you explain what you mean?
    Secretary Chertoff. In other words, a person's travel--one 
exception I will come to in a minute, but a person's travel 
pattern, behavior, communications, all those, I think, are fair 
game to be considered when you are identifying who you are 
going to take a closer look at. The fact that someone is of a 
particular religion or ethnic group is not in itself an 
appropriate factor to take into account.
    The one exception is this: If I am--if I am told there is a 
bank robbery, and, you know, there is an identification of the 
robbers, and they are all, you know, white males, balding, of 
an age 50 or over, I think it is then appropriate, if you are 
looking at people coming out of the area, to take men of that 
description----
    Mr. Pascrell. Then that is not racial----
    Secretary Chertoff. It is not racial profiling. It is based 
on a particular identification.
    Mr. Pascrell. Let me tell you why I asked the question, 
because Congresswoman Lofgren was asking questions about 
laptops and cell phones being taken. I find it very troubling 
that it has been alleged that these types of searches, which 
she identified, the congresswoman, have occurred more 
frequently with individuals who are Muslim, Arab or South Asian 
descent. Now, you stated very clearly just 2 minutes ago what 
you think about this. How do you account for the apparent 
disproportionate amount of suspicionless searches and seizures 
that occur with the groups I just defined?
    Secretary Chertoff. The first thing is I would say they are 
not suspicionless, because the people only get pulled into 
secondary if there is some basis for suspicion.
    Second, I can't validate--I mean, that is an allegation. I 
don't have any--I can't validate it one way or the other.
    The third----
    Mr. Pascrell. What training did the CBP agents get in order 
to distinguish--in order to follow through on what you believe 
is your philosophy and strategy? You are the Secretary.
    Secretary Chertoff. Right. So let me just finish.
    But I do think, for example, travel pattern, where you come 
from, where you have been, that is an appropriate thing. I 
mean, the fact of the matter is we have just had discussion 
about the frontier area of Pakistan. We know that that is a 
place where a lot of people are getting trained. Therefore, 
travel either from Pakistan or travel from countries with a 
route that has previously demonstrated to be a route that the 
terrorists take, that is a fair thing to take into account.
    So it is always hard to deal with general allegations, but 
I think it is made very clear you don't target people just 
based on their ethnic group. However, if we know people of a 
particular description have been identified as being trained, 
or if we know that people of a particular--with a travel 
pattern have been--there is a reason to be concerned, that is 
fair game.
    You know, that is--the point is when we put down rules 
about how do you identify who gets called into secondary, it is 
based on specific behavior or specific identifiers. It is not 
just based on the generalization that people of a particular 
ethnic group are more likely by membership in the group to be 
terrorists.
    Mr. Pascrell. Mr. Secretary, before I conclude, I just 
would hope you would attend to what I just talked about, and if 
I have to cite chapter and verse, I will.
    Mr. Chairman, I want to say through the Chair to the 
Secretary that he needs to weigh in on the question about the 
border guard that was killed. This is not just an international 
incident, this is a situation which we cannot tolerate. I 
understand the jurisdiction, your jurisdiction. We have had 
that garbage for 4 years, get jurisdiction. You have got to 
weigh in on it, because it sends a clear message to the border 
guards that we think highly of their service as we think of 
your service.
    Secretary Chertoff. I guarantee you I have weighed and will 
continue to weigh in on this.
    Chairman Thompson. Thank you. The Chair now recognizes the 
gentlelady from the Virgin Islands for 5 minutes, Mrs. 
Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. Good morning, 
Mr. Secretary and thank you for the work that your Department 
has been doing in our border area around St. John and St. 
Thomas.
    I wanted to ask a question about some of the concerns 
around detention. In May, The Washington Post published a 
series of articles documenting woefully inadequate medical care 
in immigration detention facilities. They found shortages of 
medical professionals, treatment delays, poor recordkeeping and 
even some cover up by employees aware of the poor care that was 
being provided and reported approximately 83 immigrants had 
died in ICE custody since 2004.
    So what has the Department done to address these concerns 
and what new procedures have been put in place to correct them?
    Secretary Chertoff. A number of things, and we have got 
some other things in trend. The first is that up until October 
2007, the Department of Immigration Health Service was actually 
not part of DHS, it was part of HHS. Of course, a lot of these 
stories go back to part of that period. We felt that we didn't 
have a lot of control over the process. So in October, we were 
given supervisory authority over DIHS, so we have better 
control.
    The current system creates a treatment regimen where if a 
doctor recommends treatment, it goes to a nurse practitioner 
who works with the doctor to figure out what is appropriate. 
Then there is an appeal to a doctor who is the supervisor at 
DIHS, if the outcome is not what the treating doctor thinks is 
appropriate or what that the detainee thinks is appropriate. We 
currently have our Office of Health Affairs, which actually has 
a lot of medical experience kind of taking a look at where 
there are additional practices we ought to put in effect.
    The good news is the number of deaths has been decreasing 
in each successive year. We would like to get it down it zero, 
but at least we are moving in the right direction.
    Mrs. Christensen. Thank you, we are pleased with the work 
that the Office of Health Affairs has been doing pretty much. 
Visa Waiver: We tried for several years some years back to get 
some Caribbean countries included, mainly we are interested in 
them coming to the Virgin Islands to visit family, health care, 
shopping and whatever. But with the more flexible rules 
regarding the percent of denials, what is the possibility that 
some of those countries could be added on if they meet all of 
the other criteria?
    Secretary Chertoff. I think any country that meets the 
relevant criteria can potentially be added on. I don't know 
that we have--I don't think we have been approached by any----
    Mrs. Christensen. This was before 9/11, so we haven't tried 
since.
    Secretary Chertoff. I mean, certainly it is not restricted. 
Everybody thinks about it in terms of Europe, but actually it 
is open to anybody who can meet the criteria.
    Mrs. Christensen. Great. My last question is the 
deportation policy and it is a little different from Mr. Dent's 
line of questioning because it has been a cause of great 
concern to our Caribbean neighbors and also some of my 
constituents, so I applaud the Department for the work you have 
been doing to really send violent and dangerous criminals out 
of the country.
    I have two questions. Don't you think that there should be 
some more discretion in cases, for example, where the crime was 
not a violent crime, happened 20, 30 years ago and that person 
has been a law-abiding, contributing resident in the United 
States? No. 2, is there any coordination with law enforcement 
with the countries that you are sending them to? Because some 
of the Caribbean countries seem to say that there is not any. 
What has been happening in the Caribbean is that the criminals 
who have gotten their on-the-job training here in the United 
States are going back, setting up these criminal networks and 
making life very dangerous for people in the region.
    Secretary Chertoff. Well, on the second question, I can 
tell you that we do try to coordinate. There are probably times 
we don't do a good enough job. I know others in central 
American countries we work very closely to make sure that we 
can send in the fingerprints and information about who is 
coming back.
    On the former issue obviously there are people who have 
committed a crime, they get deported right afterwards. If you 
are asking me about someone who has an old crime, 20 or 30 
years ago----
    Mrs. Christensen. Yeah, I have a case like that, right now, 
30 years.
    Secretary Chertoff. Some of that is driven by the law. 
There are legal requirements of deportation in some instances. 
In some cases, there is some discretion, it depends on the 
nature of the crime and the length of time. I used to know more 
about this when I was a judge. I have forgotten a lot of the 
details of the law. But the bottom line is it is an area where 
if there is discretion it is exercised, particularly if you are 
a legal permanent resident.
    Mrs. Christensen. Legal permanent resident.
    Secretary Chertoff. I can't give you a generalization about 
it.
    Mrs. Christensen. Okay, we will follow up. Thank you, Mr. 
Chairman.
    Chairman Thompson. Thank you. We will now recognize the 
gentlelady from New York 5 minutes, Ms. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. I, too, want to join 
my colleagues in wishing you the best of luck. Thank you for 
your service. I hope you leave this Department with a real 
strong transition plan.
    Mr. Secretary, in your first public appearance, you spoke 
of the risk management paradigm that would guide the 
Department. That is why I am so puzzled that when it comes to 
interior enforcement, ICE has not prioritized those who pose 
the greatest risk to our safety by identifying and deporting 
dangerous criminal aliens.
    In my district alone, the Westchester County Department of 
Prisons identified over 250 undocumented felons in its system. 
While it works with ICE to expedite the issue and serve arrest 
warrants in sweeps, there simply aren't enough ICE agents to do 
the job.
    Now the issues that we are discussing today clearly are 
controversial. But I think the one area where we could all 
agree is that we must do more to remove dangerous criminal 
aliens. Your testimony lists a variety of enforcement tools 
sadly targeting fugitives, criminals and gang members as listed 
at the end, almost as an afterthought.
    So I would like to know: No. 1, what progress has the 
Department made to implement the criminal alien plan created 
last year? How many criminal aliens do you estimate there are? 
How many did you detain last year? Why do you devote so many 
resources to work site enforcement when you could be focusing 
on the dangerous criminals already incarcerated?
    Secretary Chertoff. Well, I think the answer is we do both. 
Now there is a strategy in place, and again, I hate to keep 
harping on it. We have requested in the President's budget, and 
I think it has been marked up to have money to expand the 
program with respect to criminal alien enforcement so that we 
are dealing with it not only at the Federal prison and State 
prison level, but also working our way down through the county 
jails.
    But even under the existing system, just to give you an 
example, from 2004 to 2006 we were averaging about 50,000 to 
67,000 criminal alien removals a year. Last year, we almost 
tripled that to 164,000. This year to date, we are on track at 
about 150,000, which means if we keep it at the current level, 
we are going to exceed last year. That, by the way, is very 
close to the number of other deportations that we do Nation-
wide. So we do put a lot of emphasize on criminal aliens.
    Why do we do work site enforcement? Because when we find a 
company that has built a business model largely out of hiring 
illegals, we have to address that.
    Mrs. Lowey. Look, I am not saying--I want to make it 
clear--I am not saying that isn't part of your responsibility. 
But if I would make a judgment in your position, I would want 
to go after the dangerous criminal aliens first.
    Secretary Chertoff. I want to do both.
    Mrs. Lowey. This just seems to be--but you don't have 
enough resources to do both. So when we read about these major 
sweeps of people who are illegal, and I am not justifying that, 
but they are working in the workplace. When you make the 
judgment to go after those and it gets big newspaper headlines, 
instead of going after more of the criminals that are really 
dangerous, I question that judgment. So I would like some 
information if you can just follow up.
    Secretary Chertoff. Sure.
    Mrs. Lowey. In terms of you mentioned the numbers that you 
are deporting. I would like to know how many, approximately, 
are left that because of shortage of personnel you haven't been 
able to pursue? That would be helpful.
    Then one other thing, Mr. Chairman, in the minute I have 
left, I know this is off topic, but I would be remiss if I 
didn't mention a hearing that this committee held on Tuesday on 
the overdue national emergency communications plan. The 
Department's refusal to even give the committee a preview of 
its contents, obviously upset all of us on both sides of the 
aisle. What infuriates me is that yesterday I obtained a draft 
copy, dated several months ago from someone outside of DHS. 
This behavior, frankly, withholding key documents from Congress 
while sharing them with others, is unacceptable. It is our 
understanding that the final draft is stuck in bureaucratic 
limbo, possibly with OMB, we tried to find out, we don't know.
    I encourage you to do everything in your power to release 
the plan as soon as possible. Our first responders who were 
waiting for its release to be able to receive interoperability 
grants, needed to help ensure that in the next emergency, 
communication failures do not hamper their response.
    So Mr. Chairman, for me to get this plan from someone in 
the private sector out there, and we can't get it as Member of 
Congress seems to me a little peculiar, something is wrong.
    Secretary Chertoff. Let me respond to that by saying in the 
interim we have actually worked with, I think, 36 States on 
their own individual plans and baseline plans, so we have used 
a lot of this time to work directly with State responders using 
the original baseline survey. We have not simply wasted the 
time or sat on our hands.
    Mrs. Lowey. No, no, no, I am not saying you've wasted time. 
I just wondered why people out there got the plan and we 
haven't been able to.
    Secretary Chertoff. I will explain it, and I will do the 
favor to the next Secretary of the Homeland Security by 
explaining why sometimes this problem occurs. Sometimes while 
we are working on something, and it is being debated inside, 
there may be an effort to go to people in the private sector 
and State and local government and get their views. But we may 
not have come to a final agreement on what we think the plan 
ought to be. In that circumstance, its a little bit like if you 
are sitting down in a room, to put together a bill. You may not 
necessarily want to make it public until you have resolved in 
your own mind what you want it to look like.
    In the years I have been involved in the Executive branch, 
there is a constant struggle between the Executive branch 
trying to make its own mind up before it releases something, as 
opposed to Congress saying, well, we would like to get into the 
process of seeing what you are thinking and often maybe getting 
the view of someone whose view may not be adopted. I think you 
can understand from an orderly decisionmaking process we would 
like to have an opportunity to make our own mind up before we 
go to Congress and say, here is our proposal, what do you 
think? As opposed to having every individual who doesn't get 
his or her particular idea adopted going outside and trying to 
lobby from the outside.
    So I venture to say there is institutional tension between 
the Executive's desire to get its own views together, versus 
Congress's desire to get in early. It is as old as the 
Republic, will probably continue into the next administration. 
But for what it is worth, that is, I think, why we find 
ourselves in this position.
    Mrs. Lowey. With all due respect to your expertise and your 
judgment, why wouldn't you share an executive summary without 
the details and mark it in big black letters, red letters 
whatever you want, draft, draft, draft? I would think you would 
welcome some input if you are going out to all kinds of private 
sector agencies, companies to get their input, why wouldn't you 
want the input of the Congress?
    Secretary Chertoff. We do, but I think in general like any 
other group of people trying to make a key decision, we like to 
try to pursue the decisionmaking process in an orderly way 
based on the way we would like to go through the process. You 
know, again, I have been on all sides of this issue, I am just 
trying to give you the Executive branch perspective on this.
    Mrs. Lowey. I want to say again, Mr. Chairman, this says 
preliminary draft. It is not a final draft, it doesn't say this 
is it, take it or leave it. I just think it might have created 
a more positive atmosphere if this committee got the draft as 
well as others out there. But good luck to you, and I am sorry 
this is the last meeting. Perhaps we will have an opportunity 
to share ideas sometime in the future.
    Secretary Chertoff. Great.
    Mrs. Lowey. Thank you.
    Chairman Thompson. The gentlelady's time has expired. We 
recognize the gentlelady from Texas, Ms. Jackson Lee for 5 
minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you very much and to 
Secretary Chertoff. Let me thank you for your service and 
certainly we are grateful that we have had, I think, a 
continually improving relationship. There have been some 
challenges, and I think you recognize those challenges, 
Katrina. But I want to congratulate what I thought was an 
expedited and efficient compassionate response to those who 
have suffered devastatingly so.
    So I want to raise some very serious questions, and let me 
tell you how I wish to do it. I want to follow my distinguished 
colleague, Mr. Souder, I'm going to give you a list, but only 
ask you to answer two specific questions if you would. As you 
well know, I chaired the Committee on Transportation Security, 
so I am troubled and would like an efficient assessment on the 
status of the U.S. Air Marshals, their training, some of the 
policies governing their travel, time of off, et cetera. Might 
I just do a P.S. and say relationship between Kapali and TSA 
and that subcommittee and this committee has certainly been a 
very positive one.
    I would like an update on TWIC and whether you feel that we 
can have an opportunity to meet that deadline of February 2009. 
Whether you are asking for FEMA funding because of the tragedy, 
and I want to know whether the virtual fence can be used at 
Texas. I heard a very unseemly answer of no, without any 
further deliberation. I believe that the virtual fence can be 
used.
    Let me move to the two questions that I would like you to 
verbally answer, I come from Houston, Texas and we have frankly 
suffered from the style and the rage, if you will, of ICE 
raids. When some of the individuals have questioned officers 
individually, they have said we are being pressured to do this. 
One raid saw an individual fall 20 feet, another woman who was 
about 4 feet slammed against the wall, who is, by the way, a 
citizen, pregnant women corralled, a horrific and terrible 
situation. We need comprehensive immigration reform.
    Why doesn't the Secretary of Homeland Security go to the 
President and say it is a crisis, let's help move the Congress 
now? In any event, I want to know what is the impetus besides 
your answer of it's enforcement, enforcement, enforcement. For 
this style, this style of ICE raids.
    One company had a different racial configuration, another 
company was south Asia, you roll them out, chain cuff them, 
waist cuff them, made sure all the cameras saw these people, 
and I think it was frightening.
    Secondarily, I join my Chairman on John Lewis' name. I 
think we all are committed to abiding by the law, and we are 
committed to ensuring that the watch list is a list that can be 
counted on and that you and the authorities of DHS have 
responsibility for. We do not want to violate the law. The last 
thing this Nation, the land of the free and the brave, want to 
have is targeting citizens and not being able to eliminate from 
the watch list law-abiding Americans who are now being hauled 
away, or, if you will--when I say hauled away, hauled away 
through time and waiting from airlines because of the watch 
list. Of course, the watch list is one that one blames the 
other one in terms of the airline.
    We understand that a new member is on the watch list, Drew 
Griffin of CNN, and my question is, why would Drew Griffin's 
name come on the watch list, post his investigation of TSA? 
What a curious and interesting and troubling phenomenon. What 
is the basis of this sudden recognition that Drew Griffin is a 
terrorist? Are we targeting people because of their critique or 
criticism?
    So Mr. Secretary, you have always been a straight-shooter 
and upheld the law, as I understand it, and that may be one of 
your answers on the ICE, but I believe both are troubling, 
unnecessary, and we can uphold the laws without this 
frightening approach to securing America. I would like those 
two questions answered.
    Secretary Chertoff. Well, with respect to the issue of the 
ICE raids, first of all, I have to say the President worked 
very hard last year to try to get comprehensive immigration 
reform. I am sure if there were any opening or opportunity in 
the balance of this congressional session to get it done, he 
would be more than happy to continue to work on it. I can't say 
that I have see any indication that that is likely to happen 
between now and December.
    Ms. Jackson Lee. Encourage him to go to the bully pulpit.
    Secretary Chertoff. I will. In terms of the style of the 
raids. In any significant raid, the agents work very closely 
with the lawyers, the social service agencies to try to design 
an approach that protects their security and protects the need 
to get the job done, but is mindful of humanitarian 
considerations, and most important mindful of legal 
considerations.
    Now that often does mean particularly in a case where 
people are charged with criminal offenses like identity fraud, 
it is standard operating procedure whether you are a white 
collar criminal or not a white collar criminal that you are 
handcuffed. So there are certain procedures that they undertake 
as a matter of protecting everybody involved. That, I think, is 
appropriate for them to do.
    I also know there is a lot of attention paid by Assistant 
Secretary Myers to making sure there is a very careful con ops 
that is undertaken, operational plan that's undertaken before 
any significant raid, and that it includes lawyers, it includes 
social services people in case there are issues with children 
who are going to be left unattended. I think we have actually 
made a lot of progress in that respect.
    Now I understand to someone who has been arrested it is 
going to be seem really unpleasant, but I do think we try to be 
responsible.
    As far as the watch list is concerned, we do have 
circumstances where we have name mismatches. What happens is a 
person of a particular name is put on the list and other people 
with that name wind up being identified as selectees or no 
flies. The cure for that is to get a birth date for the person 
who is not--in order to go on the watch list, we don't just put 
a name on, we put a name and a birth date. So if you have the 
same name but a different birth date we can take you off of 
that and we often do it.
    Part of the problem we have is that sometimes the airlines 
don't fully execute that plan. Some are better than others, 
that is why we are trying hard to get a Secure Flight where we 
take on board the responsibility for doing the sorting 
ourselves.
    One thing which I did a couple minutes ago for selectees is 
we told the airlines you know what, if you want to let 
selectees get their boarding pass like everybody else, from a 
kiosk or from a computer, you can do it now. All you have to do 
is get from them the first time that they want to do it their 
birth date. Then if you can use that to extract them from the 
false positive, you are good to go.
    Ms. Jackson Lee. Mr. Secretary, the Chairman has been very 
kind. Let me just say to you that the individual in question, 
particularly I know that Mr. Lewis has, Mr. Griffin has sent 
materials to document the fact that he believes he is not a 
terrorist. He documents that he is not a terrorist.
    Secretary Chertoff. I----
    Ms. Jackson Lee  [continuing]. And I use him as an example 
because what I am concerned about is the precipitousness of him 
getting on the watch list May 2008, around the time that he was 
investigating one of our agencies in DHS. So I am going to ask 
officially for an investigation.
    Secretary Chertoff. Yeah, I will ask.
    Ms. Jackson Lee. I don't know if the Chairman asked for 
John Lewis, but I am asking for an official investigation. I 
also want an investigation of Shipley's Do-Nuts in Houston, 
Texas, because what you said, I appreciate. But I believe the 
facts will show that there was some diminished participation or 
acting on the procedures you laid out in these ICE raids.
    Shipley's Do-Nuts, Houston, Texas and Air Rags USA, 
Houston, Texas, because my fear is, and I have the greatest 
respect for ICE officers, they have to do their job, but when 
you whisper to them and they whisper back they say, we are 
being forced to do this because there are many other 
responsibilities. But what I am saying to you is I am fearful 
of the danger that comes about that random precipitous raids. 
So I want an investigation on those as likewise, the watch 
list.
    Secretary Chertoff. Let me say this, they are not random. 
Second, if anybody has a complaint about the way they are 
treated, the IG or the internal affairs element of ICE will 
investigate it. But someone has to come forward with a specific 
allegation, and they have to be willing to testify to it so 
there can be something to investigate.
    Third, actually the database you are talking about is 
really maintained by the Department of Justice. It is not my 
understanding that the reporter was put on. He may share the 
name with someone who was put on. If he has a complaint about 
it, he ought to refer it over to the IG.
    Ms. Jackson Lee. Let me thank you, I will ask the 
Department of Justice for an investigation as well, Mr. 
Chairman. Thank you for very much Mr. Secretary, best wishes to 
you. Thank you for your service.
    Chairman Thompson. I now recognize the gentleman from Rhode 
Island for 5 minutes, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Mr. Secretary, 
welcome back before the committee. I join many of my colleagues 
in saying thank you for your service and I agree that I think 
you have got one of the toughest jobs in Government.
    Let me turn our attention to a different aspect of border 
security, and that is the issue of securing the borders and our 
ports and protecting them from a nuclear device or weapons of 
nuclear material being smuggled into the country. Obviously, 
that is within the jurisdiction of subcommittee that I chair. I 
have been pleased with the progress that DNDO and CBP of 
deploying radiation portal monitors.
    What I do, we have the concern that the first generation 
radiation detection portal monitors have a lot of in a sense 
false alarm rates with respect to the fact they can't 
distinguish between natural occurring things that give off a 
radioactive signature versus weapons of nuclear material. So we 
are obviously anxious to get the next generation detectors 
tested and fielded as quickly as possible.
    These ASP detectors which are much more specific, can make 
that distinction between the naturally occurring things and 
weapons. So as you know, my committee has held several hearings 
to examine how to strengthen our nuclear detection 
capabilities, while at the same time, maintaining a cost-
effective approach.
    Mr. Secretary, the last time we spoke, I believe you said 
that a decision on certification will be made some time before 
the end of July on ASP. Do you still expect to certify the S1 
program within this time frame? What determining factors are 
you considering leading up to certification?
    Secretary Chertoff. I don't think it will get done by the 
end of July. Its determining factor is this, since I will have 
to certify to this and it was somewhat controversial, I am 
going to want to be sure that the testing and the testing 
protocols are sound and satisfactory. Before I sign off on it, 
I am going to have not only the people from DNDO, but the kind 
of an outside validation of the sufficiency of the testing. At 
that point kind of along the lines of what Congressman Carney 
said earlier, I have got a deadline, but if I need more time to 
get it right, we are going to push it off a couple more months.
    Mr. Langevin. So in your mind, do you have a drop-dead 
date?
    Secretary Chertoff. I don't have a drop-dead date. I 
anticipate in the fall we will be able to get this certified.
    Mr. Langevin. Okay, thank you.
    I would also like to follow up with you on an issue that 
was of grave concern to all of us last year, last May we all 
heard how an individual diagnosed with extensively drug-
resistant tuberculosis was able to bypass CBP agents and cross 
our northern border despite a flag on his passport. The CBP 
agent responsible for checking Mr. Speaker's passport merely 
cleared the message upon receiving it. Has DHS standardized the 
alert messages placed on passports so that there is not one for 
tuberculosis and another, for say, MRSA? Under which 
circumstances, if any, would an agent still have the authority 
to delete an alert message? Finally, what type of training 
activities have CBP personnel undergone to ensure a similar 
event won't happen again?
    Secretary Chertoff. I don't know if I can answer a question 
about whether there is a change in the actual message. I think 
it was clarified or made clear when you are not supposed to let 
somebody pass. I think they have sent a very strong message to 
the field about not overriding a message like that, and 
certainly not doing it without a supervisor.
    This is how the, maybe foreseeable consequence of our 
getting complaints about the fact that the agents aren't 
allowed to exercise discretion, they are rigid, they are 
bureaucratic, they are unfriendly. So I think we did the right 
thing here in reinforcing the message that you can't override 
something like a message like that without a supervisor. But I 
want to make note of the fact that that predictably led to 
complaining by people who say we are being unduly bureaucratic. 
So I think the answer is we have corrected that. I can get you 
a fuller answer in writing.
    Mr. Langevin. Last, a bit off topic, but before my time 
ends, this is something else that takes up a lot of my time and 
keeps me up at night, cybersecurity, I know it is a bit off 
topic, but I want to talk briefly about that. While I support, 
of course, the goals of the cyber initiative, and I hold 
numerous hearings on my subcommittee on cyber initiative, as 
well as my work on the House Intelligence Committee overseeing 
the cyber initiative as it is being developed. I believe that 
many of the issues will help improve the security of the 
Federal Government, though I have serious concerns about its 
scope and budgets and secrecy of the efforts.
    Can you provide a brief update on the cyber initiative from 
your perspective, particularly on the operation of the various 
lines of authority? Because that still, in my mind, is a big 
problem. I am not convinced that the right people have the 
right lines of authority on the cyber initiative.
    Secretary Chertoff. I think I would describe the lines of 
authority this way, we will have the responsibility and 
derivative also with working, to some extent, with MLBG 
authority to consolidate the number of entry points for the 
Government and to certify and accredit the requirement for 
Government agencies in terms of their security and in terms of 
the architecture for making sure that we are capable of 
detecting, and ultimately protecting ourselves against cyber 
attacks in the Government domain.
    There is a dimension which I know you know about these 
classified activities in the cyber arena, which will properly 
reside partially with the Department of Defense. Of course, DOD 
always protects its own assets, that's part of their 
responsibility.
    Finally, in terms of investigating cyber crimes, that is 
obviously the Department of Justice is the lead prosecutorial 
agency, although we have a big piece of that as well. Although 
in that sense there is a certain distribution of authority. I 
think it is pretty clear where the basic lanes are, but it does 
require everybody to work together to coordinate.
    The piece I have left out is the private sector piece, 
which has got to be dealt with on a cooperative and voluntary 
basis with private sector partners. I think we probably have 
the principal responsibility for interfacing with the private 
sector, if I can use that rather ugly word, but we will be 
drawing on the capabilities of the whole U.S. Government in 
terms of what we might make as a value add to those in the 
private sector who want to work with us.
    Mr. Langevin. I know my time has expired. I appreciate your 
answer on that. One thing in closing I would say is that, one 
flaw I see in the cybersecurity initiative is that it doesn't 
do enough up front right away to secure critical 
infrastructure. That is a weak point. It is focused first on 
securing Federal network security, which is obviously 
important. But the real damage, in my opinion, that can be done 
first is in critical infrastructure, electric grid and water 
supplies and such.
    The Brits have done it just the opposite. They focused on 
securing critical infrastructure first and then going to 
securing the Federal network. So we need to double our efforts 
in securing critical infrastructure.
    Secretary Chertoff. I agree with that, we have done some of 
what they have. I think that this is an area though, it is 
not--we are not--we are not compelling because this is in 
private hands. So we need to--what we are trying to do is 
engage with them so--that is when the Brits did, the Brits 
helped them. I actually talked to them and we are getting to 
the end of what I can say publicly, I talked to them about what 
they did. There is some interesting conversations to be had 
about how to proceed, which I would be happy to address with 
you, not in a public forum.
    Mr. Langevin. Very good. Thank you Mr. Secretary. We do 
appreciate your service. I hope it is not the last time you're 
here before the committee, but thank you for being here today. 
I yield.
    Chairman Thompson. Thank you. I will now recognize the 
gentleman from Texas for 5 minutes, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, and thank you Mr. 
Secretary. I agree with my colleagues, you have served well. 
Just as an aside, is there any truth to the rumor that you are 
on the short list for VP?
    Secretary Chertoff. No.
    Mr. Green. So you are on the long list?
    Secretary Chertoff. I am not on any list. I have a list of 
my vacation coming up next year, that is my list.
    Mr. Green. Well, let's talk for just a moment about the 
watch list, if I may. I was with Representative Lewis in 
Houston, Texas when he was detained for some period of time 
because another John Lewis is on the list and he happens to 
share the name of this person. The concern that we have to 
address is not that we can have multiple persons with the same 
names, but the question is how many times must a person be 
vetted before that person is extricated from the vetting 
process? That is the concern that we have to deal with.
    The same thing applies to the CNN reporter. How many times 
will the reporter have to prove that he is not the terrorist or 
the person who is appropriately on the list before he is 
extricated from the list?
    If I may, let me make this comment. It would seem to me, 
Mr. Secretary, that given the software that is out there, that 
we should be able to develop an identifier that we can afford 
people who are vetted such that somewhere along the way an 
identifier would indicate already vetted, not the John Lewis 
you are looking for, it is another CNN reporter, another Drew 
Griffin, not the one that you have here. That is what is vexing 
and that is what is perplexing. That is what is causing the 
consternation. People want to make sure we catch the right 
people. But what we don't want to do is waste our time 
continually vetting the same people.
    Secretary Chertoff. I agree with you, and we spent a lot of 
time talking about this, and you are completely correct, and 
here is the answer. The answer is if we get a birth date and 
the birth date establishes you are not the John Lewis who is on 
the list, that is all the vetting we need. We found a way to 
take you out of that false positive.
    Then the question becomes why is it that that doesn't 
automatically kick in the system?
    Mr. Green. That would obviously be the question.
    Secretary Chertoff. The answer is, it can automatically 
take in the system if the airline is willing to fix its 
software to take account of that fact. Some airlines do. That 
is why in some airlines--we have offered the airlines the 
following option: If you take a date of birth and you are 
willing to put it into your system, and you can actually use 
your frequent flyer system so that we know it is a John Lewis 
with this frequent flyer number is not the person we are 
worried about, that any time in future when that John Lewis 
goes to get a ticket and puts their frequent flyer number in, 
they will not appear on the watch list.
    We have offered that to the airlines. That is exactly what 
you are suggesting. Some airlines do it, some airlines don't do 
it. That is why I am eager to get us to Secure Flight where we 
would take the system and we would take care of it.
    Mr. Green. Because my time is running out, Mr. Secretary, 
let me ask this, if the airlines declined to do what is 
absolutely appropriate, and if you think you need more 
legislation from Congress, then it would seem to me, not you 
personally, but someone from your agency would say, we need 
this legislation so as to cause those airlines that are not 
inclined to be put in a position where they will do the 
appropriate thing. Is that where we are?
    Secretary Chertoff. That is exactly why we have gone to 
Congress and we have gotten the money for Secure Flight. In 
Secure Flight, what we will do is take it out of the hands of 
the airlines, we will do it, TSA will do it and then TSA will 
be responsible for extracting people from the list----
    Mr. Green. But the problem we have with that is Secure 
Flight will, at some point, become secure, and we will have it 
implemented. But in the interim, if we have these two persons 
that we know of, imagine if you are not a Drew Griffin, how you 
are continually being put through this vetting process. It has 
to be something that can create havoc in your life.
    Secretary Chertoff. Yeah.
    Mr. Green. Not everybody gets to the airport an hour early. 
Not everybody is prepared to wait while someone comes forward 
and says a supervisor looks at the record and says this is the 
right guy, this is not the right guy. So I really would beg 
that we find a way in the interim to extricate people who have 
been vetted, just those who have been vetted.
    Secretary Chertoff. Yeah.
    Mr. Green. One more question before my time expires, the 
TWIC card we were supposed to deploy card and reader, we found 
that that was not being done. The cards were being deployed, 
which can be copied because if you don't have a reader for the 
card, a person can give us a false piece of identification. 
Where are we with the deployment of the actual reader for the 
card?
    Secretary Chertoff. I know the card is supposed to be out 
in the spring. The reader, to be honest with you, I don't have 
it in the top of my head now. I am going to have to get back to 
you when the reader will be deployed. The reader has been 
challenging because of the environment, but we are working on 
it. I will get you an answer to that.
    Mr. Green. Just one comment, a system that will allow us to 
not only acquire the services of the huge corporations with 
reference to this kind of technology, but also small businesses 
who have technology that they contend is what we need. Somehow 
we have got to get them into that loop, Mr. Secretary, because 
if the big guys can't do it or for whatever reasons won't, and 
the little guys have the ability to do it, then we ought not 
hold up a project waiting on the big guy to go to the little 
guy, and somehow co-opt him so that that technology can be 
used. We have to find a way to deploy the technology timely, to 
deploy the reader, the card and not deploy the reader really 
does not move us that much forward.
    Somehow we have to link them together and I get plenty of 
small businesses, Mr. Secretary, we hear from them all the time 
who are telling us that I have the technology you are looking 
for. But I can't get it through the system unless the big guy 
consumes me. Then I can be a part of whatever he is a part of. 
Can you give me a----
    Secretary Chertoff. Yeah, science and technology, we do 
solicit from as wide a variety of people as we can. If there is 
a technology that someone has and they are capable of scaling 
up and producing, so it is not just a concept, we are always 
willing to do that. We do a lot of different things to reach 
out and try to make ourselves available for small businesses. 
So you know, we are interested in technology that works. It has 
to, however, work in real life, not just in the lab, of course. 
A lot in my observation has been that a lot of these projects, 
what they founder on is the movement out of the laboratory into 
the field. Because it works great in the lab, but it doesn't 
work in the field. We are always open, we pay special attention 
to try to put as broad a call out as possible for people who 
can give us a solution to a systems problem.
    Mr. Green. One final comment. I happened to go to 
Singapore, now I didn't have an opportunity to have the type of 
investigative report that might benefit, you conducted. But 
they seemed to have the technology we are looking for and they 
seemed to have it in place, that is operable, people walk 
through and they go through rather hurriedly and they are being 
checked. Can we not look into the technology that exists 
elsewhere and replicate that?
    Secretary Chertoff. We do, and I think some of our folks 
went over there and looked at other places. In many places, 
this technology works very well. A great example is US-VISIT, 
the fingerprints, that works great. I think the problem with 
TWIC turned out to be--with the reader turned out to be in a 
field in a saltwater environment with a lot of dirt and dust 
and grime, the readers were not durable. In the lab, it is all 
clean and everything works great. But that turned out to be a 
particularly depending environment. I think that is why they 
had trouble with that particular type of reader.
    Mr. Green. Thank you, I yield back the balance of my time.
    Chairman Thompson. Thank you, we now recognize the 
gentlelady from the District of Columbia for 5 minutes, Ms. 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I want to 
thank you, Mr. Secretary, for giving up a lifetime appointment 
to become Secretary of Homeland Security. I have a couple of 
questions, Congresswoman Christensen mentioned the series that 
was done in my hometown newspaper, one that official Washington 
read as well about really quite atrocious, shocking indeed 
inhumane medical care stories and you responded about 
improvements that you are seeking and I appreciate that.
    Frankly, I was more disturbed by learning something else 
from a GAO report a year ago, and that is that the primary way 
that immigrants have to notify anyone that they are in trouble 
is through the Office of Inspector General. But the GAO looked 
at the availability of the hotline number and found that the 
hotline number was blocked in 16 of the 17 detention 
facilities, at least that they visited. It seems to me that 
that is far more--and that, of course, is under your 
jurisdiction. I would like to just ask, since this report came 
out a year ago, what the Department has done to address the 
problems, the particular problem, the complaint problem that 
were noted in the GAO report?
    Secretary Chertoff. I know as a routine matter the 
component, in this case, ICE DRO, detention removal will look 
at these reports and they are supposed to take appropriate 
action. So I could find out just to let you know what they did 
in follow-up to that.
    Ms. Norton. Mr. Chairman, I think we are going to have to, 
would you, in 30 days, respond to the Chairman whether or not 
there are any blocked sites for the hotline number for 
immigrants to complain to DHS?
    Secretary Chertoff. Sure, we can do that.
    Ms. Norton. If they are blocked they can be unblocked.
    Chairman Thompson. Well, I don't think it would take 30 
minutes. How long do you think it would take, Mr. Secretary?
    Secretary Chertoff. By the end of July.
    Ms. Norton. Appreciate it.
    Chairman Thompson. Okay. For the sake of the Chair, why 
would we block a number to start with?
    Secretary Chertoff. I don't know. That is actually 
mysterious to me. I don't have an answer to it so----
    Ms. Norton. It seems you can't expect to remain in this 
country if you come in illegally, but it is America and you 
know that this is a country that does hear complaints from 
anybody. I realized that frankly that there was pressure and I 
think appropriate pressure that you have responded to to 
increased enforcement that brought with it a whole series of 
problems that are understandable. The problem with children 
that you briefed us on that had to do something about because 
in many ways it was unprecedented, but this sounded very 
deliberate, blocked phones bothered me very much, particularly 
for people who are utterly powerless now, wanting to get back 
to their countries, these are people, some of whom may have 
medical emergencies.
    I can't leave without asking you a question about these 
Iraqi refugees though. I was in Jordan with the congressional 
delegation, a country that has many Iraqi refugees waiting to 
come here, not to come back to their own country because they 
have been translators or otherwise cooperated with the United 
States. Frankly, I can only say when we talked to the U.N. 
agency, that does the screening for all countries and learned 
that the United States finds that 80 percent of those they 
screened are, in fact, eligible. Of course we have to go 
through our own processes. It was a matter of some shame to me 
to note the comparison of our figures for admission of Iraqi 
refugees and others, others who are not even involved in this 
war. They were huge differences. Here we are talking about 
translators, people who can't possibly go back and people who 
were frankly cooperators with us.
    At that time, and I think we went in January, you all were 
not close to meeting the 12,000 number. You had stepped up the 
number. That number would only begin to put you in the league 
with your European and other countries who stepped up to take 
refugees.
    I would like to ask first what is the hold-up with 
translators? They, I thought, could even bypass this process. 
Are you going to meet the modest 12,000 figure which would be 
the first time you have met a figure, a budget figure frankly 
set by the appropriators?
    Secretary Chertoff. We have processed enough people through 
our piece of pipe to meet 12,000 this fiscal year.
    Ms. Norton. Who else has the rest of the pipe?
    Secretary Chertoff. Now the State Department then has the 
responsibility for actually making the arrangements to bring 
them in, resettle them, prepare them to come in, find out where 
they are going to go and do all of the elements of what has to 
be done before someone can actually be admitted. But in terms 
of our clearance process----
    Ms. Norton. So you are meeting the 12,000?
    Secretary Chertoff. Yeah, we have done our piece to meet 
the 12,000.
    Ms. Norton. Do you all work together? Because its not 
acceptable to this committee to hear that a Government which is 
part of a same Government----
    Secretary Chertoff. It is not that--we do work together. It 
is just that once we have cleared somebody there are some 
things that have to happen. They just don't just get a ticket, 
they have to be prepared, they have to get their own 
preparation, what to expect, where they are going to go, they 
may need to have some schooling about what is going to happen--
--
    Ms. Norton. Can't we do that in this country? I am really 
bothered by this, Mr. Secretary, because they remain in Jordan, 
I didn't even go to Syria, Jordan is an ally. There is growing 
resentment there, you can imagine it is a country a whole lot--
in fact, it is a very poor country, we have resentment here, a 
very rich country of people coming over the border. These 
people are overstaying. Why can't you simply bring these people 
here, do that kind of preparation here rather than put the 
burden on Jordan?
    Secretary Chertoff. Not being in charge of that part of 
process I am speculating, I think if you bring them here and 
just drop them----
    Ms. Norton. We are not asking for--do the preparatory work 
here, they have already passed the screening.
    Secretary Chertoff. I am left to say to you that I don't--
that is not a piece of the process that falls within my 
jurisdiction. I can't give you an answer as to why it isn't 
done over there. As far as our clearance, we have got 12,000, 
we are ready to go.
    Ms. Norton. Mr. Chairman, I am through, except to ask 
whether you would be willing to speak to the others involved in 
the process about the possibility of having a place here for 
people to be prepared to then enter other parts of the country?
    Secretary Chertoff. I am happy to ask them, yes.
    Ms. Norton. Thank you.
    Chairman Thompson. The gentleman from Washington, Mr. 
Dicks.
    Mr. Dicks. Thank you, Mr. Chairman.
    Chairman Thompson. For a few minutes.
    Mr. Dicks. Thank you Mr. Chairman. I regret I wasn't here 
for the entire briefing. It is my understanding that DHS will 
be conducting significant public outreach for the 
implementation of the western hemisphere travel initiative 
which sets forth new document requirements for U.S. citizens 
and others who previously were not required to present a 
passport when entering the United States. What are you doing 
differently during implementation of the WHTI at land and 
seaports to prevent the widespread confusion and document 
delays that occurred during implementation of the Western 
Hemisphere Travel Initiative for air travel?
    Secretary Chertoff. Well, I would say to you I don't think 
there were widespread delays for air travel. In fact, what 
happened with air travel was a very high compliance rate almost 
from the get-go. Likewise, when we put in the requirement 
eliminating some of the documents that had previously been 
accepted in at the border like baptismal certificates and 
student cards, we got a very high compliance rate right away.
    Our general process is the following: We begin early on to 
provide all travelers with notification documents. We pay for 
advertising public service announcements. There has already 
been a lot of this outreach that has been done. There was a 
piece in USA Today this morning that talked about an increasing 
number of States that are now issuing or about to issue 
driver's licenses, which we will deem to be compliant with 
WHTI. I think they have done 21,000 initiatives in the State of 
Washington; New York is about to issue them and Vermont. The 
PASS card, which will be probably the primary alternative to a 
passport--I have applied for mine, maybe you have applied for 
yours, and they will be issuing them in the next few weeks. So 
we have still got about a little less than a year to go. There 
is already, I think, a pretty aggressive outreach program.
    As we get closer to the deadline we will do more and more 
advertising and things of that sort.
    Mr. Dicks. I want to move on to another question, but I 
just mentioned that confusion about WHTI requirements had a 
been a big factor and depressed varied travel out of Port 
Angeles, Washington to Canada and from Seattle to Canada. There 
has been confusion here. The more we can do I think the better 
off we will be.
    Without the necessary readers at the hundreds of ports of 
entry into the United States, most of the WHTI-compliant 
documents like passport cards and enhanced driver's license 
would essentially be flashed passes, which would undermine the 
intended security benefits. It is therefore essential that we 
have proper readers in place at our ports of entry. According 
to the GAO, you had planned on installing and testing new 
primary processing equipment and readers for WHTI at two land 
POEs in Nogales, Arizona and Blaine, Washington. What is the 
schedule for deploying these readers to our land ports of 
entry?
    Secretary Chertoff. There are two features of the WHTI-
compliant document that can be read. One is the machine-
readable zone which are the letters and numbers at the bottom 
of your passport, at the bottom of the card. The other is a 
chip embedded in the card. Either one of those can be read and 
sufficiently be read.
    Currently a document which has a machine-readable zone can 
be read at every single port of entry in the United States. The 
machines are there and they function and have done so for 
sometime.
    The RFID chip, which has the advantage of actually being 
quicker because it actually brings up the data before the 
person has arrived at the actual booth, we will have deployed 
them to 39 busiest points of entry by the spring of next year, 
well in advance of the deadline of June.
    Mr. Dicks. One thing, I want to mention because I have a 
little time left, I am a member of the Defense Appropriations 
Subcommittee, and we have a panel that follows intelligence. 
One of the issues that has come up is cybersecurity. I have 
been told that the Department of Homeland Security and the 
Director of the National Intelligence, we can't get into a lot 
of detail here.
    Secretary Chertoff. Right.
    Mr. Dicks. But can you tell us what role Homeland Security 
is playing in this new cybersecurity initiative? How well do 
you think you are doing?
    Secretary Chertoff. I break it to three parts. First, we 
have the responsibility working with OMB to condense and 
coalesce the number of access points between the Government 
domain and the Internet, excluding the Defense Department, 
which has its own system, to condense it and then put into 
place intrusion detection capabilities, next generation of 
intrusion detection capabilities. We are building the next 
generation, and we are beginning the process of doing that 
condensation.
    The second thing is we are going to be the principal focus 
of outreach between the Government and the private sector to 
work with them to see how we can assist them in upgrading their 
security. That is the hardest piece to talk about in a public 
domain so I won't, but that is the second piece.
    Third, we will be executive agent for the National 
Cybersecurity Center, which is a center that will essentially 
be the contact point or the coordinator among the various watch 
standing cybersecurity centers, principally the DHS one, the 
NSA, the Department of Justice and there may be one other one. 
The idea there is we will coordinate to make sure that we are 
cooperating with a common picture and operating program in 
terms of cybersecurity across all these domains. That is a 
little general because of where we are.
    Mr. Dicks. Right, I understand. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you we now recognize the 
gentlelady from New York for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman. On behalf of 
the people of the city of New York, Mr. Chertoff, I would just 
like to thank you for your service, your commitment and your 
help in our recovery and setting up the protocols by which our 
city continues to protect itself under your leadership. Thank 
you very much. We appreciate it.
    I just want to mention a couple of things with respect to 
the Western Hemisphere Travel Initiative. Oftentimes, we 
implement policies in the United States that have unintended 
consequences on a global scale. One of those unintended 
consequences was the severe dip in the economy of the Caribbean 
nations that were not part of the collaboration once we started 
and determined that we were going to go this route. I think 
that going forward in the 21st century, we are in a hemisphere 
not isolated but in collaboration with other partners. People 
rely on us for their economy as we rely on them for theirs. It 
would help if we would collaborate with leadership in other 
countries when we do something like this because their 
economies have taken a severe blow and have not recovered 
since.
    Having said that I would like to speak to you in keeping 
with when I heard from some of my colleagues Ms. Christensen 
and Ms. Jackson-Lee and Lowey. Over the past several years 
nearly all the debate on our border and immigration policies 
have revolved around undocumented immigrants. However, within 
our borders, we have other types of immigrants as well, 
including millions of legal residents who live here on a 
permanent basis and hold green cards.
    They come here following U.S. law by obtaining visas and 
subject to paying taxes and are important contributors to their 
communities. In most cases, only noticeable differences between 
a legal permanent resident and their American neighbors are 
that they hold a different passport and they cannot vote.
    My own parents once had green cards. Unfortunately, I 
believe in all the rush to attack the challenges of the 
estimated millions of undocumented immigrants; it seems that 
LPRs are now being caught in the anti-immigrant tide. Lately, I 
have heard more and more stories about permanent residents who 
have been detained for deportation, many years, sometimes 
decades after committing crimes that in most cases were very 
minor and nonviolent.
    In many of these cases the Government could have deported 
them at the time but chose otherwise. Now only years, sometimes 
decades later, they have decided to resume the process without 
further provocation. These deportations of legal residents 
really occurred in the past, but seem to be happening with 
increasing frequency and arbitrariness.
    Mr. Secretary, has there been a change in policy 
prioritization during this administration about aggressiveness 
with which deportation of LPRs are pursued? Also what is the 
standard for determining which cases to pursue? I would like to 
also ask whether you personally believe that it makes sense to 
deport a person who has a teenager, was once arrested for 
possession of a drug, but now currently lives a stable, law-
abiding life and with a good job and a family?
    Secretary Chertoff. Part of this, of course, is the law 
passed in 1986 sets some mandatory requirements for deportation 
with respect to so-called aggravated felonies, which include 
drug crimes. That is a congressional mandate. There is no 
choice in the matter. It is what it is.
    There is no focused program to go out and check on people 
who have been legal permanent residents. What I think probably 
often happens is some person who is a legal permanent resident 
gets on the radar screen maybe because they have been arrested 
for something minor, or somehow they have come to the attention 
of the authorities, someone runs their record, and then they 
get referred to ICE because they have a criminal record, and it 
falls within the statute. It is not a priority program to 
deport people who have been here a long period of time and we 
have somehow missed. But I think that with a general increase 
in enforcement, including State and local enforcement, we get 
referrals. If you get a referral of someone who is required to 
be deported by law, we follow through on that.
    Ms. Clarke. There just seems to be quite a frequency of it 
now. I don't know whether you have a way of tracking that, 
because on May 20, my office contacted your Department looking 
for some basic statistics on a year-by-year breakdown of the 
total number of people with LPR status residing in the New York 
region who have been detained by ICE for deportation 
proceedings over the last 5 years, along with a general 
breakdown of the type of violations committed that led to the 
detainment. We were eventually told that DRO does not have any 
way to know which of the people they have removed held LPR 
status. So the statistics could not be provided.
    I just find that alarming that we are not even tracking 
what is going on here, and it is really presenting a problem. 
In many communities it is creating fear, and it may be 
unwarranted. I think it is important if we are going to pursue 
these policies as mandated by law that we at least keep 
statistics on it so that we can reunite families, so that we 
can do the things that are humane in our society that we need 
to be doing.
    I just find it appalling that there is no statistics held. 
That is just unbelievable. How are people going find their 
family members, sometimes the sole provider for these families? 
How do we go about doing that if we don't build in at least 
some accountability around what we are doing right now?
    So I hope that you would ask that your offices provide me 
with this information if it exists. If it doesn't exist, I hope 
that you will start the process for creating that for 
communities such as mine.
    Secretary Chertoff. All right.
    Ms. Clarke. I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Now, do I understand that Ms. Clarke's request for the--if 
it is available----
    Secretary Chertoff. If available, we will get it to you; 
and if not, I will see what our statistical--our capability is 
to design a system to capture information about the number of 
LPRs that departed.
    Ms. Clarke. Would the gentleman yield a moment?
    Chairman Thompson. We have 1 minute and 20 seconds.
    Ms. Clarke. Just quickly. Do you think it is important at 
least to capture that information, Mr. Secretary? I mean, there 
is a difference between someone who came here legally and 
someone who has come in undocumented.
    Secretary Chertoff. I am sure we capture the information in 
some way, I am just not sure it is compiled. It may not be 
compiled because no one has ever specifically been interested 
in tracking the number of LPRs who get deported. So what I 
don't know is whether it can be extracted from the system, or 
whether we ought to input something into the system in the 
future that captures it.
    Chairman Thompson. Thank you very much. Mr. Secretary, we 
want to thank you for your valuable testimony today, 3 hours. 
You have been more than judicious with your time.
    I do want to call your attention to some problems with the 
TOPOFF 5 exercise. Without going into it, I just want to say 
that we are going to get some information to you asking how the 
process is going. But it concerns us that there appears to be 
some manipulation of procurement in that arena that we want to 
work with you on.
    The Members of the committee may have additional questions 
for you, and we would ask you to respond expeditiously in 
writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 1:04 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Bennie G. Thompson of Mississippi for Michael 
          Chertoff, Secretary, Department of Homeland Security
    Question 1. As part of your testimony, you referred to a number of 
border security planning documents that you brought to the hearing. 
Please provide a copy of each of those documents to the committee. 
Also, please provide an explanation of how those documents constitute a 
comprehensive, coordinated strategy for border security.
    Answer. Hard copies of the Border Patrol Strategy, Air and Marine 
Strategy, Securing America's Border at the Ports of Entry, and CBP 
Strategic Plan will be provided to the committee.
    These documents provide direction to overall policy development and 
implementation, strategic and tactical planning organizational 
assessment and strategic goal alignment for DHS's border security 
operations.
    Question 2. With respect to border fencing, many are concerned 
about how the locations for proposed fencing were determined, the 
adequacy of consultation with private landowners, and the waiver of 
Federal laws to expedite construction.
    Regarding the waiver, please specify which of the 35 waived laws 
apply to which segments of planned fencing?
    Please specify what, if any, actions were taken by the Department 
to comply with the Federal laws before opting to invoke a blanket 
waiver.
    Will the Department meet its goal of having 670 miles of border 
fencing by December 31, 2008?
    Answer. In planning for a project of this magnitude to be completed 
by a tight congressionally set time frame, the Department of Homeland 
Security (DHS) cannot anticipate every potential legal impediment that 
may arise during construction. Accordingly, every law listed in the 
waiver would have prevented DHS to achieve the goal of completing the 
border fence by the congressionally established deadline of December 
2008. The laws fell into one of two categories: laws that were 
identified as an impediment to construction and laws that were 
determined to be potential sources of delay (including litigation).
Laws That Were Identified as an Impediment to Construction
    Regarding those laws that were an impediment to construction, two 
laws, the Wilderness Act, 16 U.S.C.  1131, et seq., and the National 
Wildlife Refuge System Administration Act, 16 U.S.C. 668dd et seq., 
would have barred construction of certain segments of proposed border 
infrastructure that were deemed operationally necessary.
    The Wilderness Act prohibits the construction of permanent roads or 
installations and seriously restricts the use of motorized or 
mechanized equipment, vehicles, and aircraft within designated 
wilderness areas. The National Wildlife Refuge System Administration 
Act and its implementing regulations require, among other things, that 
any proposed use of or activity within a National Wildlife Refuge be 
compatible with the purposes for which the refuge was established.
    DHS had extensive discussions with the Department of Interior (DOI) 
and DOI made every effort to accommodate DHS's construction of border 
infrastructure. Nevertheless, DOI ultimately determined that it could 
not authorize construction on DOI land that is subject to these two 
statutes. Thus, in a letter dated March 20, 2008, the Associate Deputy 
Secretary of Interior, James Cason, notified DHS of DOI's determination 
and explicitly recognized the need for DHS to utilize the waiver 
authority, as DOI's inability to provide DHS with the necessary 
approvals would have prevented construction of certain segments of 
infrastructure that were planned in areas such as the Otay Mountain 
Wilderness Area in San Diego, California, the Jacumba Wilderness Area 
in Imperial County, California, and the Cabeza Prieta National Wildlife 
Refuge in Pima and Yuma Counties, Arizona. It is notable that in 
setting forth its determination, DOI stated that it had been forced to 
close certain DOI lands due to illegal cross-border activity and 
acknowledged that the proposed border infrastructure would likely 
improve the security of DOI lands, increase the safety of both visitors 
and DOI employees, and decrease adverse environmental impacts caused by 
illegal activities.
Laws Determined to Be Potential Sources of Delay (including Litigation)
    As mentioned above, the other category of laws included in the 
waiver included those laws that were determined to be potential sources 
of delay, most importantly litigation. Indeed, the potential for 
protracted litigation was one of the biggest threats to expeditious 
construction of the border infrastructure called for under section 102 
of the Illegal Immigration Reform and Immigrant Responsibility Act of 
1996, as amended (``IIRIRA''). Public Law 104-208, Div. C, 110 Stat. 
3009-546, 3009-554 (Sept. 30, 1996) (8 U.S.C 1103 note), as amended by 
the REAL ID Act of 2005, Public Law 109-13, Div. B, 119 Stat. 231, 302, 
306 (May 11, 2005) (8 U.S.C. 1103 note), as amended by the Secure Fence 
Act of 2006, Public Law 109-367,  3, 120 Stat. 2638 (Oct. 26, 2006) (8 
U.S.C.  1103 note), as amended by Department of State, Foreign 
Operations, and Related Programs Appropriations for fiscal year 2008, 
Public Law 110-161, Div. E, Title V,  564, 121 Stat. 2090 (Dec. 26, 
2007) (8 U.S.C.  1103 note). As we have previously seen, opponents of 
border infrastructure are willing to use the courts as a means of 
delay. Thus, while these laws may not have presented an impediment to 
construction, the inclusion of these additional laws was necessary to 
ensure that a perceived or alleged failure to achieve technical 
compliance with a particular statute did not halt progress toward 
completion of the border infrastructure by the end of 2008 called for 
by Congress.
    Many of the laws that were waived, ESA for example, include 
``citizen suit'' provisions which allow individuals to bring a private 
right of action against the Federal Government to ensure compliance 
with the law. Moreover, although some of the laws included in the 
waiver (i.e., NEPA) do not afford this right, as a practical matter, 
the Administrative Procedures Act (APA), 5 U.S.C.  551 et seq., would 
still allow for judicial review. With the passage of the APA, Congress 
intended to provide for judicial review of all agency actions. See 1946 
U.S. Code Cong. & Admin. News, 1205 (the APA ``sets forth a simplified 
statement of judicial review designed to afford a remedy for every 
legal wrong''); House Judiciary Committee Report, H. Rpt. No. 1980, 
79th Cong., 2d Sess. (1946). See also NAACP v. Secretary of Housing and 
Urban Devel., 817 F.2d 149 (1st Cir. 1987) (explaining that the 
omnipresent availability of APA review over Government agency actions 
makes it unnecessary for Congress to create private rights of action 
against the Federal Government). Therefore, regardless of whether the 
statute provided for a private right of action, each law presented an 
identified risk for potential delay to construction of the 
infrastructure.
    For every planned segment of pedestrian fence, DHS had either 
started or completed an Environmental Assessment (EA) or an 
Environmental Impact Statement (EIS) pursuant to NEPA. However, as DHS 
moved to complete the NEPA process, including extensive public 
engagement, for the planned fence segments, it became clear that DHS 
could not both complete the NEPA process and maintain a construction 
schedule that would allow for completion by the end of December 2008.
    Other laws that were determined to be an impediment to construction 
included statutes such as the National Environmental Policy Act, 42 
U.S.C.  4321 et seq. (NEPA), the Endangered Species Act, 16 U.S.C.  
1531 et seq. (ESA), the Federal Land Policy and Management Act, 43 
U.S.C.  1701 et seq. (FLPMA), and the National Historic Preservation 
Act, 16 U.S.C.  470 et seq. (NHPA). For laws such as NEPA, ESA, or 
FLPMA, the need to include them in the waiver was largely a matter of 
timing. That is, unlike the Wilderness Act or the National Wildlife 
Refuge Administration Act, these laws did not contain substantive 
provisions that would have barred construction. Rather, the need to 
waive these laws stemmed from the time that would be required to meet 
their procedural requirements, which jeopardized DHS's ability to meet 
the construction deadlines Congress set forth in Section 102 of the 
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as 
amended (``IIRIRA''). Public Law 104-208, Div. C, 110 Stat. 3009-546, 
3009-554 (Sept. 30, 1996) (8 U.S.C 1103 note), as amended by the REAL 
ID Act of 2005, Public Law 109-13, Div. B, 119 Stat. 231, 302, 306 (May 
11, 2005) (8 U.S.C. 1103 note), as amended by the Secure Fence Act of 
2006, Public Law 109-367,  3, 120 Stat. 2638 (Oct. 26, 2006) (8 U.S.C. 
 1103 note), as amended by Department of State, Foreign Operations, 
and Related Programs Appropriations for fiscal year 2008, Public Law 
110-161, Div. E, Title V,  564, 121 Stat. 2090 (Dec. 26, 2007) (8 
U.S.C.  1103 note).
    For example, in addition to NEPA and ESA which are discussed in 
response to question two below, FLPMA confers broad discretion on the 
Secretary of Interior and the Bureau of Land Management (BLM) to 
protect and manage BLM resources and lands. Accordingly, FLPMA and its 
implementing regulations set forth extensive permitting requirements 
that must be followed to access and construct on BLM land. As alluded 
to in Associate Deputy Secretary Cason's letter of March 20, 2008, for 
those areas of proposed construction that were subject to FLPMA, the 
issue was not whether DOI and BLM could ultimately issue the necessary 
permits to DHS. Rather, the issue was whether DOI and BLM could 
complete the permitting process in time to accommodate the aggressive 
construction schedule set forth by Congress in IIRIRA.
    Of course, many of these same laws were also major sources of 
potential litigation, which made their inclusion in the waiver all the 
more necessary. For instance, it was a NEPA lawsuit that delayed 
construction of the 14-mile Border Infrastructure System (BIS) near San 
Diego and prompted the first waiver, which was issued in December 2005. 
At the time the BIS waiver was issued, the same groups that had brought 
the NEPA challenge were also threatening to bring an action under ESA. 
Similarly, a NEPA lawsuit temporarily delayed DHS's construction of 
infrastructure in and near the San Pedro Riparian National Conservation 
Area and prompted an October 2007 waiver. Moreover, the actual 
Environmental Assessment (EA) at issue in the San Pedro litigation was 
one that was prepared by BLM as a part of the permitting process under 
FLPMA.
    With that said, DHS has not turned its back on the commitments to 
the resources that these laws that are being waived are designed 
conserve and protect. DHS is meeting both the spirit and intent of 
these laws through its post-waiver environmental stewardship efforts, 
including the use of Environmental Stewardship Plans (ESP) to guide 
construction efforts. These ESPs will serve many of the purposes of an 
environmental assessment or environmental impact statement by 
identifying areas of impact and mitigation measures, working to 
conserve natural and cultural resources, engaging stakeholders, 
planning for appropriate best management practices, and documenting all 
stewardship actions.
    CBP Commissioner Basham stated at the September 10, 2008 hearing 
before the House Homeland Security Committee that CBP remains committed 
to having 670 miles of fencing in areas identified as priorities by the 
Border Patrol completed, under construction, or under contract by the 
end of calendar year 2008. DHS continues to face a number of challenges 
due in large part to factors outside of our control such as delays in 
acquiring land and construction cost escalations that required 
congressional approval of a request to reprogram funds. The total 
mileage completed, under construction, or under contract at the end of 
calendar year 2008 may be affected due to a number of factors including 
small changes in segment lengths, engineering and environmental 
assessments, or unforeseen issues that may arise on a project of this 
size and complexity.
    Question 3. In November, the Government Accountability Office (GAO) 
released a report (GAO-08-219) stating that CBP managers acknowledged 
that staffing shortages negatively affect Customs and Border 
Protection's (CBP) ability to conduct anti-terrorism programs and 
traveler inspections. We know that CBP currently needs several thousand 
new CBP officers to reduce its officer staffing deficits at airports 
and land ports, yet the fiscal year 2009 budget request only includes 
funding to hire an additional 539 CBP officers.
    Given that CBP's staffing model shows a deficit in the thousands 
for airports and land ports and CBP supervisors have expressed that 
they believe that additional officers are necessary to fulfill their 
security responsibilities, why has this administration failed to 
request the funding necessary to address staffing shortfalls?
    Answer. In its Resource Allocation Model, Customs and Border 
Protection (CBP) has identified optimal CBP Officer (CBPO) levels 
necessary to support staffing at ports of entry. The fiscal year 2009 
President's request included funding for an additional 539 CBPOs for 
airports and land ports. These positions were in addition to 1,195 
CBPOs that were added in the fiscal year 2007 supplemental and the 
fiscal year 2008 Omnibus Appropriation Act. The President's budget 
request reflected the competing priorities among CBP's multiple mission 
areas: Border Patrol Agents; Automation Modernization; Border Security 
Fencing, Infrastructure and Technology; Air and Marine Operations; and 
Construction. DHS will continue to assess staffing levels at ports of 
entry and work toward achieving optimal staffing.
    Question 4a. Some have expressed concern that limited funding and 
resources within Immigration and Customs Enforcement's (ICE) Office of 
Investigations have constrained their ability to execute the agency's 
broad jurisdiction. Specifically, there is concern that investigation 
of money laundering and other terrorist-related activities is being 
shelved at the expense of politically driven work site enforcement 
investigations that result predominantly in administrative arrests.
    How many work site enforcement investigations were conducted in 
fiscal year 2007? How many so far this fiscal year?
    Answer. Fiscal year 2007 and fiscal year 2008 WSE cases initiated--
see chart below.
    Question 4b. How many criminal indictments and criminal convictions 
have been effected as a result of the work site enforcement 
investigations in fiscal year 2007? How many so far this fiscal year?
    Answer. Fiscal year 2007 and fiscal year 2008 WSE indictments and 
convictions--see chart below.
    Fiscal year 2007 Statistics--October 1, 2006 thru September 30, 
2007.
    Fiscal year 2008 Statistics--October 1, 2007 thru September 30, 
2008.

----------------------------------------------------------------------------------------------------------------
                                                          Cases Initiated      Indictments        Convictions
----------------------------------------------------------------------------------------------------------------
Fiscal year 2007.......................................              1,093                750                561
Fiscal year 2008.......................................              1,193                892                883
----------------------------------------------------------------------------------------------------------------

    Question 5. In January 2006, the Rice-Chertoff Joint Vision for 
Secure Borders and Open Doors created a Model Ports-of-Entry pilot 
program to provide a more transparent and welcoming entry process for 
visitors to the United States. Last year, Congress authorized the Model 
Ports Program through the Implementing Recommendations of the 9/11 
Commission Act of 2007 (Pub. L. 110-53) and appropriated $40 million to 
expand the program to the top 20 international inbound airports and to 
hire no less than 200 new CBP officers at these model airports.
    How many of the 200 new CBP Officers for the model airports has CBP 
hired and trained in fiscal year 2008 as directed by Congress?
    How much of the $40 million will CBP use to hire the 200 new CBP 
officers?
    How will DHS distribute the 200 officers across the 20 model 
airports?
    How will CBP utilize any remaining funds at the model airports and 
how will those moneys be distributed and when?
    Answer. The following table depicts the distribution, hiring, and 
number of model ports CBP officers that have been trained and graduated 
from the Federal Law Enforcement Training Center (FLETC) as of 
September 24, 2008. CBP will use $25 million to hire 200 CBP officers 
and 35 support positions. Of this amount, CBP will use $20.4 million 
for the 200 CBP officers and $4.6 million will be used for 35 support 
positions to include CBP officers to help train at FLETC.

                          MODEL PORTS STAFFING
------------------------------------------------------------------------
                                                               Graduated
                                          Planned   Filled to     from
         Model Ports Locations          Deployment     Date     FLETC to
                                                                  Date
------------------------------------------------------------------------
Atlanta...............................          25         11          5
Boston................................           5          5  .........
Chicago...............................          10         10         10
Dallas/Ft. Worth......................           2          2          2
Detroit...............................           5          5          5
Fort Lauderdale Airport...............           5          5  .........
Honolulu..............................           2          2          2
Houston...............................           8          8          8
JFK Airport...........................          25         25         19
Las Vegas.............................  ..........  .........  .........
LAX, Los Angeles......................          27         26         26
Miami Airport.........................          15         15         15
Newark................................          15         15         15
Orlando Airport.......................           5          5          3
Philadelphia..........................           2          2  .........
Sanford Airport.......................           5          5          2
San Francisco.........................          10         10         10
San Juan Airport......................           2          2          2
Seattle (SEATAC)......................           2          2  .........
Washington, DC Dulles.................          30         18          1

TOTAL OFO CBP officers................         200        173        125
------------------------------------------------------------------------

    CBP utilized the remaining funds for the development and production 
of an instructional video in English and other relevant languages 
including the purchase, design, and installation of video and audio 
technology in the primary processing arrivals area of the 20 model 
airports. CBP also implemented the Passenger Service Manager Program to 
assist arriving passengers at each of the model ports. CBP allocated 
targeted overtime at airports to ensure proper coverage during peak 
travel season. These funds were distributed and obligated before the 
end of fiscal year 2008.
    Question 6. Many Members of this committee were dismayed by the 
problems that plagued Project 28, and want to be certain that the 
Department has learned from past mistakes as it moves forward with 
upcoming deployments, referred to as Tucson 1 and Ajo 1, in the Tucson, 
Arizona area.
    What lessons has the Department learned from Project 28 and how 
will lessons learned be applied to the deployment of Tucson 1 and Ajo 
1?
    What is the total cost of these two new projects?
    What is the current proposed schedule for deployment?
    Who will be responsible for the maintenance for the new projects, 
and what is the projected cost?
    Answer. DHS and CBP will now take the valuable lessons learned from 
P-28 and focus on the transformation of the future SBInet solution to 
improve accountability and implementation of technology. After 
reviewing and analyzing the lessons learned, we have categorized the 
challenges into the areas of program management, technology and 
acquisition. Specifically, areas that we are looking to improve and 
build on for future SBInet developments include improved standard 
hardware integration, acquisition strategies and additional system 
testing. Lessons learned from Project 28 have already been incorporated 
into the next iteration of the SBInet integrated system design 
including improved sensors, software and communications. These 
improvements will further CBP's ability to fully integrate detection, 
identification, and classification of border incursions within a common 
operating picture (COP) and will be implemented as part of the calendar 
year 2009 deployments in Arizona. In addition, several technical, 
acquisition, and operational lessons have already been incorporated 
into the planning for future SBInet deployments. For example:
  <bullet> Commercial off-the-shelf components, even proven 
        technologies, cannot be integrated ``right out of the box'' in 
        the field without interface design, thorough testing, and 
        integration in an operational environment. A new field lab, 
        which is located at the Playas, New Mexico test facility, will 
        be used to thoroughly test and qualify the system of towers, 
        sensors, communication, common operating picture hardware and 
        software prior to fielding.
  <bullet> The interfaces between the sensors and the COP are as 
        important as the technical characteristics of the sensors 
        themselves. The follow-on sensors selected for SBInet will have 
        common standard controls and interfaces. The P-28 COP software 
        was based on a commercial civil system used for the dispatch of 
        public safety assets. This proved to be inadequate for the 
        command and control of a sensor net and the distribution of a 
        near real-time situational picture.
    The total value of the Boeing task order to deploy TUS-1 and AJO-1 
is $81.9 million. DHS is working to develop a detailed revision of the 
SBInet testing and deployment plan. This re-planning process will 
include a consideration of the cost estimates to reflect any changes in 
the deployment schedule.
    The combination of the additional time needed to complete necessary 
coordination with the Department of the Interior (DOI), concerns over 
the risks associated with our original SBInet deployment plan, and a 
need to fund escalating fence costs provided an opportunity for us to 
revisit our overall development and deployment approach and address the 
recommendations from the GAO and Congress to minimize concurrent SBInet 
testing and deployment activities and the associated program risk. We 
have extended our on-going system integration and verification testing 
to now be completed prior to the deployment of SBInet capabilities in 
TUS-1. Our re-planning now utilizes the operational representative 
field test lab in Playas, New Mexico, for completion of system testing. 
Pending successful completion of system testing, we currently project 
TUS-1 construction to start in the first quarter of calendar year 2009. 
AJO-1 construction is planned to start following successful 
construction of TUS-1. Based on the results of those two deployments, 
we will then field additional SBInet technology deployments within the 
Tucson Sector. CBP's projected timeline for these additional 
deployments is being developed as part of the re-planning process.
    Boeing is currently on contract to provide initial maintenance for 
the SBInet system being deployed in TUS-1/AJO-1. The projected annual 
recurring cost for maintenance for TUS-1 and AJO-1 is $26 million.
    Question 7a. The 9/11 Implementation Act requires the Department to 
implement a biometric exit system at airports by June 2009. If it is 
not implemented by the deadline, the Secretary's enhanced authority to 
expand the Visa Waiver Program, provided under the Act, will suspend. 
The airline industry has raised several significant concerns about DHS' 
plans to implement the biometric version of the exit system, as 
proposed in a recent rule.
    How can DHS justify tasking the airlines with the collection of 
biometrics, particularly when it has never been piloted?
    Answer. The proposed rule is based on the same statutory 
authorities under which the Department of Homeland Security (DHS) 
requires air and vessel carriers to provide passenger manifest 
information under Customs and Border Protection's Advance Passenger 
Information System, INA  231, 8 U.S.C.  1221. Under this provision, 
as well as DHS regulations (19 CFR Parts 4 and 122), air and vessel 
carriers are required to collect, verify, and transmit to the Federal 
Government identifying information on passengers entering and leaving 
the United States. DHS is assessing methods for conducting additional 
air exit pilot programs consistent with the fiscal year 2009 US-VISIT 
appropriation as it continues to consider the most appropriate method 
for collecting exit biometrics.
    Question 7b. What progress has DHS made in addressing airlines' 
concerns about the proposed rule?
    Answer. DHS has reviewed and will address the airlines' concerns 
and public comments in the final rule. DHS is considering methods for 
conducting additional air exit pilot programs (discussed below). 
Additional pilot programs and resulting information may also have the 
effect of addressing the airlines' concerns.
    Question 7c. Will DHS have a biometric exit system in place by the 
June 2009 deadline?
    Answer. The very recent DHS appropriations for fiscal year 2009 
conditioned the use of funds for implementation of a final air exit 
solution under the air-sea biometric exit notice of proposed rulemaking 
on conducting additional air exit pilot programs and submitting a 
report to the Committees on Appropriations of the Senate and the House 
of Representatives, which shall be reviewed by the Government 
Accountability Office. DHS is considering methods for conducting 
additional air exit pilot programs and continues to consider the most 
appropriate method for collecting exit biometrics. In view of these 
developments, DHS's ability to deploy a biometric air exit capability 
by June 30, 2009, whether or not relying on carrier collection and 
transmission, is unknown.
 Questions From Honorable Bob Etheridge of North Carolina for Michael 
          Chertoff, Secretary, Department of Homeland Security
    Question 8. Congress has repeatedly authorized and appropriated 
funds to increase staffing on the U.S. Border Patrol, and I have 
supported these efforts. The President's 2009 budget requests an 
additional 2,200 Border Patrol agents. If these agents are hired, that 
would mean 20,000 agents patrolling our borders, more than twice as 
many as in 2001. This would make a big difference to reducing the risk 
that anyone could illegally cross our border, and significantly improve 
homeland security.
    Answer. Response is in answer to question 9.
    Question 9. I am pleased that the Department is doing a better job 
of hiring and recruiting CBP agents, but I am concerned about training 
and retention. In March 2007, the GAO reported that the Border Patrol 
is having trouble training and supervising these new agents. At the 
same time, there are reports that about 20 percent of new employees 
leave the Border Patrol in the first few years, and that almost half of 
agents have less than 2 years experience.
    What impact do you believe adding another 2,200 Border Patrol 
agents to the field will have on supervision and training?
    What is being done to identify good candidates for a Border Patrol 
career and to improve retention once they are hired?
    On average, how many years of experience do typical supervisory 
Border Patrol agents have? Has this number changed over the last 10 
years? If so, how?
    How are you working to hire, train, or promote agents to 
supervisory roles and control the number of agents each supervisory 
Border Patrol agent has under his or her command?
    Answer. The rapid growth in the Border Patrol over the last few 
years has increased demands on our supervision and training CBP has met 
this challenge by adapting to this unprecedented expansion in many 
ways. For example, the Border Patrol Academy, which provides initial 
training--has demonstrated that it can effectively receive and train 
the large numbers of new agents without taxing current resources, or 
demanding more. Training continues after Academy graduation and 
requires oversight and mentoring by more experienced agents. As the 
relative percentage of new agents to experienced agents increases, the 
demands on CBP experienced agents will increase. At the CBP southwest 
border sectors, 30-40 percent of CBP agents will be relatively new 
(less than 2 years of experience) through the next year. This is a 
challenge but CBP has recognized it and is watching it closely.
    Customs and Border Protection (CBP) has a very robust and extensive 
recruiting strategy for new Border Patrol Agents. In addition to fairly 
routine approaches (print advertisements, web-based recruiting 
information, etc), CBP's approach includes analysis potential markets 
for recruiting. The analysis allows CBP to target areas where we tend 
to attract large numbers of qualified applicants as well as markets 
where we see new potential for applicants. CBP deploys special teams of 
recruiters to conduct recruiting ``blitzes'' in targeted areas and to 
offer streamlined hiring processes for qualified applicants. CBP also 
created a recruiting team to expand awareness and opportunity to 
minority communities that are underrepresented within the Border 
Patrol. CBP results so far have been impressive--CBP established a 
target of 3,500 applicants per week for the past year but routinely 
exceeded that by far (up to 6,000 applicants in many weeks) as a result 
of CBP efforts.
    With respect to CBP first-line supervisors, we have compared the 
average experience levels between fiscal year 2005 and fiscal year 
2008. Average experience levels for newly hired supervisors have 
remained relatively constant over that time (8-9 years). However, we 
have noticed a shift in the distribution of experience levels. In the 
past, the experience level for newly promoted supervisors was pretty 
much evenly distributed between about 6 and 12 years. Now, the 
distribution of experience levels is more heavily weighted toward less 
experienced personnel, even though the average experience is about the 
same. In fiscal year 2008, the mode of the distribution (most frequent 
experience level for a new supervisor) was 6 years.
    CBP has a very robust training program for our new supervisors and 
have recently instituted a structured mentoring program to augment the 
formal training. CBP tries to maintain a fairly constant ratio of 
supervisors to agents--on average, we have one first-line supervisor 
for every seven non-supervisory agents. As the number of non-
supervisory agents has increased, CBP has increased the number of 
supervisory authorization accordingly.
    Question 10a. The I-9 process, by which employers request documents 
to verify the eligibility of employees to work in the United States, is 
clearly flawed. Employers have no real way to, and no requirement to, 
verify the documents presented to them. As you know, Congress created 
the E-Verify initiative to provide employers with a tool that allows 
them to check names and Social Security numbers of new hires against 
Social Security's database, but it has been prone to problems, and 
created additional pressure on an already overburdened Social Security 
Administration (SSA). The administration is on record as supporting 
making E-Verify mandatory for all employers, and I would like your 
thoughts on several aspects of this idea.
    False positives or negatives create uncertainty for both employees 
and employers. What can be done to reduce the risk of error, and to 
protect employers and employees from liability when the system is 
inaccurate?
    Answer. USCIS has significantly enhanced E-Verify over the last few 
years, and improvements in system accuracy and ease of use continue to 
be made today. According to the independent research firm Westat, in 
the third quarter of fiscal year 2008 96.1 percent of all new hires 
queried through the program were verified automatically, i.e. without 
needing to take any type of corrective action. The remaining 3.9 
percent of cases resulted in an initial mismatch between the new hire's 
records and those of either the Social Security Administration (SSA) or 
the Department of Homeland Security (DHS). Less than half of 1 percent 
(0.4 percent) of all individuals queried through E-Verify received an 
initial mismatch notice and successfully contested it. The remaining 
3.5 percent that received a mismatch and either chose not to contest it 
or did not contest it successfully.
    A common misperception is that receiving an initial mismatch means 
that the program has returned an error or that there is an error within 
the database. This is not the case: an initial mismatch means there is 
a discrepancy between the information an employee has provided and the 
information contained in SSA or DHS records. The mismatch could result 
because an employee has failed to update his or her information with 
SSA or DHS due to a name or citizenship status change, or a non-work-
authorized alien has provided false or fraudulent information. Since 
less than half of 1 percent of all individuals queried through the 
program end up being work authorized after an initial mismatch, most 
mismatches that occur are not something we want to prevent. Rather, 
these mismatches are the result of E-Verify doing what it is intended 
to do, that is, detect unauthorized workers and quickly verify the 
status of those who are work authorized.
    USCIS continues to analyze, identify and implement improvements as 
part of ongoing strategic management of the E-Verify program, which 
includes adding additional sources of data to the E-Verify system to 
reduce mismatches. For example, most citizenship status mismatches that 
resolve as work authorized involve naturalized citizens who have failed 
to notify SSA of their change in citizenship status. To reduce these 
types of SSA mismatches, USCIS launched an automated check against the 
USCIS naturalization data in May 2008. Naturalized U.S. citizens who 
are not found in USCIS databases have the option of calling DHS 
directly to resolve a citizenship-related mismatch, in addition to the 
option of resolving the mismatch with an in-person visit to an SSA 
field office.
    The E-Verify program does provide additional protections for 
employers in instances of ``false positives,'' such as when a stolen 
identity is run through E-Verify and the employee is determined 
``employment authorized.'' An employer who verifies work authorization 
under E-Verify has established a rebuttable presumption that it has not 
knowingly hired an unauthorized alien. However, participation in the 
program does not guarantee that an employer will not face work site 
enforcement. USCIS is continuing to develop features that will detect 
instances of identity and document fraud to prevent false identities 
from being used in an attempt to defeat the system. In September 2007, 
the program launched a photo tool feature that allows employers to 
compare the photo on an identity or work authorization document to the 
photo in DHS databases to detect identity theft and alternation of 
documents.
    Additionally, in order to help both employers and employees to 
better understand their responsibilities associated with correct use of 
the E-Verify program, USCIS conducts a variety of outreach across the 
Nation. Outreach events include presentations about the program and 
demonstrations of the systems at conferences and to many trade 
associations, government entities and employers across the Nation. The 
program conducted public awareness campaigns via radio, print, and 
billboard campaigns in Arizona, Georgia, the District of Columbia, 
Maryland, Virginia, and Mississippi, as well as through nationally 
available Internet advertisements. In addition, the program has 
produced materials detailing employee rights and employer 
responsibilities, which are available in both English and Spanish, and 
will be available in additional languages later this year. This 
information is now also included in referral letters given to employees 
during the tentative non-confirmation (TNC) process. The program is 
also working to refine E-Verify training materials and online resources 
to more clearly outline the methods for proper system use.
    USCIS has also begun monitoring employers' use of the program in 
order to detect and deter potential misuse and abuse. Behaviors we seek 
to detect and monitor include fraudulent use of SSNs or alien numbers; 
improper treatment of workers who receive TNCs, including inadequate 
referrals of such workers to the process for contesting a TNC or 
adverse actions taken against such workers; and improper attempts to 
verify employees not eligible to be run through the system. USCIS works 
closely with the Department of Justice Office of Special Counsel for 
Immigration-Related Unfair Employment Practices (OSC) to help ensure 
that employment-authorized employees are not adversely impacted by the 
program.
    Question 10b. E-Verify is meant to identify fraudulent documents, 
but if a person uses official documents that have been stolen from 
another person, E-Verify is likely to recognize them as what they are, 
official documents. Does the current E-Verify system address the 
problem of identity theft? Would biometric requirements be helpful?
    Answer. Though E-Verify is the easiest and most accurate means of 
employment verification currently available to employers, we are aware 
that many aliens use forms of identity fraud to gain unlawful 
employment in this country. That is why the E-Verify program introduced 
a photo screening capability into the verification process in September 
2007. The photo tool is a useful feature that has already identified 
several hundred cases of document and identity fraud and prevented 
aliens from gaining unlawful employment.
    The E-Verify photo tool offers employers protection against certain 
forms of identity theft. Currently, as part of the E-Verify process, 
any employer presented with an employment authorization card or 
permanent residence card by the employee as part of the Form I-9 
documentation process can match the photo on the document presented to 
the photo that USCIS has on file for that card. This photo screening 
process identifies instances where employees have either used photo-
substituted documents or have created entirely counterfeited documents.
    We are also working to expand the types of documents for which the 
E-Verify system will allow photo confirmation. Currently, only DHS-
issued identity documents are displayed in the photo tool. To this end, 
USCIS is working with the Department of State to add passport photos to 
the photo tool database. The strength of this tool is directly 
dependent on the range of documents for which it can be used, and our 
long-term goal is for the E-Verify photo screening process to be able 
to verify the photos on all identity documents that an employee may 
present as acceptable Form I-9 documentation.
    While we do not have any way to identify, upon initial 
verification, identity fraud by an employee who has stolen a valid SSN 
and identity information or has been supplied the information by their 
employer, we are examining ways to do so. We also recently stood up our 
Monitoring and Compliance unit, which works to identify indications 
that SSN fraud has occurred and works with ICE, in cooperation with the 
SSA Inspector General, to deal with these cases. USCIS and ICE are 
finalizing a memorandum of understanding (MOU) to identify instances 
where data sharing would be appropriate and we are identifying ways to 
work collaboratively to accomplish respective missions.
    Question 10c. The expansion of E-Verify would mean more name checks 
and visits to Social Security offices by employees who wish to correct 
erroneous non-confirmations. This would add to SSA's workload at a time 
when SSA is already facing significant challenges managing its core 
responsibilities. If E-Verify is expanded, how would DHS work to 
support SSA's contributions to E-Verify?
    Answer. USCIS and SSA have worked hard to decrease E-Verify-related 
work undertaken by SSA field offices. USCIS and SSA recently developed 
EV-Star, which allows SSA to automatically return the response to a 
contested mismatch through the E-Verify system once it has been 
manually checked and resolved at an SSA field office. USCIS reimbursed 
SSA for both the development of and training for personnel using the 
system. We have also instituted an enhancement allowing employees to 
contact USCIS directly via phone to resolve their citizenship-related 
mismatch, thus decreasing the workload of SSA field offices. 
Furthermore, USCIS and SSA have begun work on a data-sharing initiative 
that will update SSA records with current USCIS citizenship status 
data.
    Since SSA has not received appropriated funding for E-Verify, USCIS 
has reimbursed SSA for labor costs associated with resolving mismatches 
with SSA field offices. These costs include salaries and overhead for 
SSA field office employees who resolve mismatches and salaries and 
overhead for SSA employees who staff the SSA 1-800 number to answer 
calls from employees and employers; over 95 percent of all SSA 
mismatches are resolved in 48 hours or less. At present, USCIS and SSA 
have an agreement in place to reimburse SSA for the workload resulting 
from E-Verify cases for each fiscal year for the foreseeable future.
    In fiscal year 2007, USCIS reimbursed SSA $3.5 million to cover the 
salary and overhead costs for resolution of mismatches, training, and 
the development of an electronic backend process between SSA and E-
Verify system (EV-Star). In fiscal year 2008, USCIS reimbursed SSA 
$4.787 million for their resolution of mismatches. Although the number 
of queries increased in fiscal year 2008, the number of mismatches 
resolved by SSA has decreased due to a number of system enhancements. 
This reduces the amount of walk-in traffic to SSA field offices and 
thus reduces SSA's E-Verify related workload.
    A large portion of the employees who successfully contest a SSA TNC 
are those who have recently naturalized. In May 2008, a number of 
enhancements were made to the E-Verify system, including the addition 
of USCIS naturalization data, which has reduced the number of 
citizenship status mismatches. Also as part of the May enhancements, 
naturalized citizens who receive a citizenship-related mismatch are now 
able to contact DHS by phone to address the discrepancy. USCIS and SSA 
are exploring further enhancements, including a direct data-sharing 
initiative that would update SSA's database with naturalized citizen 
information. Incorporation of U.S. passport information into the 
employment verification process is under way as well. This enhancement 
will reduce mismatches for those who may have previously received TNCs 
due to their derived citizenship as children when their parents 
naturalized or those who were born abroad to U.S. citizen parents.
    These improvements all seek to ensure that the data relied upon by 
E-Verify are as up-to-date as possible. In some cases, however, the 
only way for an individual to ensure his or her record is kept accurate 
is for the individual to report name changes and similar personally 
identifying information to SSA. Those who fail to ensure their records 
are accurate will receive a mismatch and will be allowed the 
opportunity to correct their information through the mismatch process. 
USCIS continues to work on the system to ensure that every error that 
can be prevented through Government data processes is avoided.
  Questions From Honorable Christopher P. Carney of Pennsylvania for 
      Michael Chertoff, Secretary, Department of Homeland Security
    Question 11. How many miles of the southern border pedestrian fence 
and vehicle fence have been constructed?
    What methods/systems were used to install this section of the 
border fence/barrier?
    For each system, please provide data on the costs of the system and 
the average amount of time taken to complete each mile of security 
barriers and fencing. What standards are being used to determine the 
efficiency and efficacy of the systems?
    Please provide data for these standards for each system as well.
    Are these systems eligible to compete for future contracts? If no, 
why not?
    Are they permitted to be bid as an original bid? If no, why not?
    Are they being proposed by those companies bidding on future border 
projects in their original bid packages? If no, why not?
    Answer. As of October 3, 2008, 205.3 miles of pedestrian fence have 
been constructed as well as 153.7 miles of vehicle fence on the 
Southwest Border.
    As a function of the contract award, each Multiple Award Task Order 
Contractor (MATOC) is provided with a specific fence design they must 
complete. The methodology the contractor uses to complete that fence 
design is left to their discretion as long as the completed fence meets 
the design specifications. However, much of the decision as to how to 
construct fence is based on the fence design, location and terrain.
    To illustrate how fence construction is actually completed, please 
find the following examples.
    B-4, an 8.7 mile segment, is located in the El Centro Border Patrol 
Sector in a relatively flat desert area. This segment combines bollard-
type pedestrian/vehicle fence. The steel bollards are secured below the 
ground surface with concrete, and then the hollow bollard is filled 
with concrete with a steel cap welded on top.
    C-1, a 10.4 mile segment, is located in the Yuma Sector and is in a 
desert area with sand dunes. Similar to segment B-4, the fence design 
specified for this segment is a bollard design with a combination of 
pedestrian and vehicle fence. However, unlike the simple construction 
for B-4, the terrain for C-1 presents a unique challenge as the 
``ground surface'' itself is subject to constant movement and changes 
in elevation. This segment also requires the construction of access 
roads. A trench is dug and fence sections are put in place with 
forklifts and then the sections are welded together. Due to the 
conditions of the area, additional bracing is attached to the upright 
bollards to prevent it from collapsing if the sand below is blown out.
    The construction cost and contract duration for fence segments 
varies greatly based on many factors including, but not limited to, 
segment length, the need for access roads, terrain, remoteness and 
fence design. As of October 3, 2008, segment construction costs have 
ranged from as low as $2.1 million per mile to as much as $16 million 
per mile for pedestrian fence and as low as $700,000 per mile to as 
much as $4.2 million per mile for vehicle fence. Contract duration also 
varies and can take as few as 45 days to as many as 385 days to 
complete pedestrian fence segments and as few as 60 days to as many as 
120 days to complete vehicle fence segments.
    Fence contracts are awarded on a low-cost, technically acceptable 
basis and require the contract to complete a prescribed fence design 
for the segment(s) which they are constructing. The low-cost, 
technically acceptable basis for contract award, coupled with their 
adherence to the specifications for the required fence design are the 
standards to which the contractor is held.
    In addition to cost for fence construction, CBP also accounts for 
fence maintenance costs. Currently, CBP has executed interim 
maintenance contracts in the El Centro, Yuma, Tucson and El Paso Border 
Patrol Sectors for a total of approximately $1.2 million dollars. As 
the amount of fence to be maintained will increase dramatically as 
fence construction goals are met, CBP anticipates maintenance costs to 
increase in proportion to the amount of added fence. CBP is currently 
in the process of completing long-term maintenance contracts and will 
have additional cost data available subsequent to the execution of 
those contracts.
    The standards for each fence design are laid out in the fence 
toolbox. From experience and lessons learned throughout the Pedestrian 
Fence 70 project and Phase I of the Pedestrian Fence 225 project, DHS 
developed the fence toolbox to include 9 pedestrian fence and 3 vehicle 
fence designs. These include picket, bollard, mesh, jersey-barrier and 
``Normandy-style'' designs. When awarded, each contract details which 
fence design the contractor is expected to complete. The fence design 
for each segment is determined by a combination of Border Patrol's 
operational requirements and constructability of the design as 
determined by the U.S. Army Corps of Engineers. The specifications for 
that fence design comprise the standards by which the contractor's 
methodology for fence construction and performance are judged.
    There has also been keen interest in the efficiency and efficacy of 
the fence as it pertains to the pedestrian fence designed and 
constructed by Kiewit Western Co. in Lukeville, Arizona. This fence, 
which was the subject of the August 2008 report by the National Park 
Service, does not satisfactorily meet the hydraulic performance 
criteria for cross-border flows. The construction contractor's design 
team is currently evaluating design alternatives that can be 
implemented to bring the project into compliance with the performance 
standards outlined in the contract documents. Once the appropriate 
solution has been identified and coordinated with all project 
stakeholders, corrective action will commence as soon as is 
practicable, but certainly before the next monsoon season. It has yet 
to be determined whether there will be any cost implications associated 
with the corrective action.
    Question 12. It is the committee's understanding that the Barry M. 
Goldwater Section Project known as BMGR P-37 was completed on time and 
on budget. Is this accurate?
    What methods/systems were used to install this section of the 
border fence/barrier?
    Answer. Yes.
    The Barry M. Goldwater Range fence is a bollard-style fence which 
was installed using a proprietary machine.
    Question 13. What systems will be used to build future sections of 
the southern border fence/barrier? Please provide the names of all 
eligible systems allowed in building future sections of security 
barriers and fencing along the southern border. For each system, please 
provide data on the estimated costs of the system and the average 
amount of time taken to complete each mile of security barriers and 
fencing.
    What standards are being used to determine the efficiency and 
efficacy of the systems? Please provide data for these standards for 
each system as well.
    Answer. As the same Multiple Award Task Order Contractors (MATOC) 
will be eligible to bid on future task orders, the same systems that 
have been used to construct current fencing may be used to construct 
future segments. Again, the contract will be awarded on a low-cost, 
technically acceptable basis and the contractor will be provided a 
fence design and the associated specifications to which they are 
expected to adhere. Much like the current fence construction projects, 
construction costs and contract durations will vary based on segment 
length, fence design, location, terrain, remoteness, and the need for 
access roads.
    The standards for each fence design are laid out in the fence 
toolbox. From experience and lessons learned throughout the Pedestrian 
Fence 70 project and Phase I of the Pedestrian Fence 225 project, DHS 
developed the fence toolbox to include 9 pedestrian fence and 3 vehicle 
fence designs. When awarded, each contract details which fence design 
the contractor is expected to complete. The fence design for each 
segment is determined by a combination of Border Patrol's operational 
requirements and constructability of the design as determined by the 
U.S. Army Corps of Engineers. The specifications for that fence design 
comprise the standards by which the contractor's methodology for fence 
construction and performance are judged.
    Question 14. Which office or agency within the Federal Government 
has primary responsibility for the procurement of products and services 
used for the installation of security barriers and fencing along the 
southern border?
    Are other offices, agencies or consultants involved in the 
procurement of these products and services? If so, please list them and 
describe their role in this procurement process.
    Answer. U.S. Customs and Border Protection's (CBP) Secure Border 
Initiative (SBI) Program Executive Office is responsible for the 
acquisition of security barriers and fencing along the Southwest 
Border. In executing this responsibility, with one notable exception 
discussed below, the SBI Acquisition Office currently provides the 
majority of acquisition and procurement support for the CBP SBI 
program.
    In fiscal year 2007 and fiscal year 2008, the majority of 
procurements for fence construction--excluding the provisioning of 
structural steel which was completed by CBP--were awarded by the U.S. 
Army Corps of Engineers (USACE). For those procurements awarded by the 
USACE on CBP's behalf, USACE conducted all aspects of the procurement 
process from solicitation to contract award and administration.
 Questions From Honorable Mike Rogers of Alabama for Michael Chertoff, 
               Secretary, Department of Homeland Security
    Question 15. CBP indicated to the Inspector General that budget 
constraints prevent infrastructural improvements. Among the funds 
requested in your fiscal year 2009 budget, will moneys be allocated for 
necessary infrastructural improvements at our border checkpoints, to 
ensure the safety of both officer and canine, and to increase both 
performance and efficiency?
    Answer. The fiscal year 2009 budget contains $10 million dedicated 
to land port of entry modernization which will enable much-needed 
improvements to the CBP-owned land port of entry portfolio. The $10 
million will begin to address site and infrastructure deficiencies 
within the 43 CBP-owned ports, presently without a baseline budget for 
this purpose. Specifically, these funds will provide site acquisition 
and construction of secondary enclosures to support passenger and cargo 
operations; basic repair, alteration, operations, and maintenance; and 
security solution development and planning. These funds will be 
distributed to select CBP-owned ports based upon area of greatest need.
    Through modernization efforts for the CBP-owned inventory, the 
resulting enhancements will provide an environment more conducive to 
CBP mission and operations; thereby better contributing to officer and 
canine safety as well as increasing performance and efficiency during 
the inspection process.
    Question 16. According to information that the Department has 
provided, there are currently 50 FTE positions authorized for the 
Center for Domestic Preparedness (CDP), yet only 35 of those positions 
have been filled. Do you know why 15 out of the 50 authorized FTE 
positions have not yet been filled?
    Answer. The 50 FTE positions authorized for the Center for Domestic 
Preparedness include 4 FTE positions assigned to the Office of 
Acquisition Management (OAM) and 1 position assigned to Office of Chief 
Counsel (OCC), which are all currently filled. Out of the remaining 45 
positions assigned to the CDP for which the CDP controls recruitment 
action, 35 positions are filled. The remaining 10 vacant positions are 
in various stages of recruitment. They are as follows:
  <bullet> 3 positions have selections made and are in Security for 
        clearance. Once cleared, EOD dates will be set for those 
        employees.
  <bullet> 2 positions are currently announced and will close the week 
        ending October 3, 2008.
  <bullet> 4 positions have been submitted for announcement.
  <bullet> 1 position is waiting on a PIN to be assigned in order to 
        start the recruitment process.
    Question 17. Do you have an update as to the anticipated costs of 
Tucson-1?
    Question 18. What is the timeline for its implementation on the 
Southwest and Northern borders?
    Question 19. When can we expect it to be fully rolled out on the 
Southwest border?
    Answer. The total value of the Boeing task order to deploy TUS-1 
and AJO-1 is $81.9 million. DHS and CBP's are working to develop a 
detailed revision of the SBInet testing and deployment plan. This re-
planning process will include a consideration of the cost estimates to 
reflect any changes in the deployment schedule.
    The combination of the additional time needed to complete necessary 
coordination with the Department of the Interior (DOI), concerns over 
the risks associated with our original SBInet deployment plan, and a 
need to fund escalating fence costs provided an opportunity for us to 
revisit our overall development and deployment approach and address the 
recommendations from the GAO and Congress to minimize concurrent SBInet 
testing and deployment activities and the associated program risk. We 
have extended our ongoing system integration and verification testing 
to now be completed prior to the deployment of SBInet capabilities in 
TUS-1. Our re-planning now utilizes the operational representative 
field test lab in Playas, New Mexico, for completion of system testing. 
Pending successful completion of system testing, we currently project 
TUS-1construction to start in the first quarter of calendar year 2009. 
AJO-1 construction is planned to start following successful 
construction of TUS-1. Based on the results of those two deployments, 
we will then field additional SBInet technology deployments within the 
Tucson Sector. CBP's projected timeline for these additional 
deployments is being developed as part of the re-planning process. 
Through the Northern Border Project, CBP is planning to begin the 
integration and testing of SBInet technology in air, land and marine 
environments in the Detroit Sector in 2009 as part of a technology 
demonstration project. Technology will also be deployed in 2009 to the 
Buffalo and Swanton Border Patrol Sectors. Although successful 
completion of the testing and integration objectives may improve 
operational capabilities and provide technical insight for a future 
SBInet solution, this demonstration of capabilities may not be the 
final solution for the Detroit, Buffalo and Swanton Sectors or the 
entire Northern Border.
    CBP's projected timeline for deploying to the entire Southwest 
Border is being developed as part of the re-planning process.

                                 <all>

</pre></body></html>
